<html>
<title> - CONGESTION AND DELAYS: THE IMPACT ON PASSENGERS AND POSSIBLE SOLUTIONS</title>
<body><pre>[Senate Hearing 110-1174]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1174
 
 CONGESTION AND DELAYS: THE IMPACT ON PASSENGERS AND POSSIBLE SOLUTIONS

=======================================================================


                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
75-971                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director, and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

JOHN D. ROCKEFELLER IV, West         TRENT LOTT, Mississippi, Ranking
    Virginia, Chairman               JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri
AMY KLOBUCHAR, Minnesota
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 27, 2007...............................     1
Statement of Senator Dorgan......................................    45
Statement of Senator Klobuchar...................................    46
Statement of Senator Lautenberg..................................    43
    Prepared statement...........................................    44
Statement of Senator Lott........................................    48
Statement of Senator Rockefeller.................................     1
Statement of Senator Stevens.....................................    43
    Prepared statement...........................................     1
Statement of Senator Thune.......................................    50

                               Witnesses

Kolshak, Captain Joe, Executive Vice President--Operations, Delta 
  Air Lines, Inc.................................................    26
    Prepared statement...........................................    28
Reding, Robert W., Executive Vice President--Operations, American 
  Airlines.......................................................    22
    Prepared statement...........................................    24
Rowe, Zane, Senior Vice President, Network Strategies, 
  Continental Airlines...........................................    32
    Prepared statement...........................................    34
Scovell III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................     8
    Prepared statement...........................................     9
Sturgell, Robert A., Acting Administrator, Federal Aviation 
  Administration, accompanied by Hon. D.J. Gribbin, General 
  Counsel, U.S. Department of Transportation.....................     2
    Prepared statement...........................................     3

                                Appendix

Boxer, Hon. Barbara U.S. Senator from California, prepared 
  statement......................................................    53
Flynt, Raymond M., President and CEO, Travelers Aid 
  International, prepared statement..............................    63
Forrey, Patrick, President, National Air Traffic Controllers 
  Association (NATCA), prepared statement........................    53
Response to written questions submitted by Hon. Barbara Boxer to:
    Captain Joe Kolshak..........................................    82
    Robert W. Reding.............................................    79
    Hon. Calvin L. Scovel III....................................    74
    Robert A. Sturgell...........................................    64
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Joe Kolshak..................................................    84
    Robert W. Reding.............................................    79
    Zane Rowe....................................................    89
    Hon. Calvin L. Scovel III....................................    75
    Robert A. Sturgell and Hon. D.J. Gribbin.....................    65
Response to written questions submitted by Hon. Mark Pryor to:
    Joe Kolshak..................................................    85
    Robert W. Reding.............................................    80
    Zane Rowe....................................................    92
    Hon. Calvin L. Scovel III....................................    76
    Robert A. Sturgell and Hon. D.J. Gribbin.....................    70
Response to written questions submitted by Hon. Ted Stevens to:
    Hon. D.J. Gribbin............................................    79
    Joe Kolshak..................................................    80
    Zane Rowe....................................................    85


 CONGESTION AND DELAYS: THE IMPACT ON PASSENGERS AND POSSIBLE SOLUTIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2007

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:35 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Subcommittee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. With the forbearance of the Vice 
Chairman of the Subcommittee, Senator Lott--he's on his way--I 
have various pieces of bad news, the first of which is good 
news, and that is, we're very happy to see you, all six of you. 
Second, we have five votes starting at approximately 11 
o'clock. So, with the forbearance of the former Chairman, I 
suggest that we eliminate opening statements and that we go 
right to your testimony.
    The testimony will come from Mr. Robert Sturgell, who is 
Acting Administrator of the Federal Aviation Administration; 
Mr. Gribbin, who is General Counsel, Department of 
Transportation; the Honorable Calvin Scovel, who is Inspector 
General, U.S. Department of Transportation; Mr. Robert Reding, 
Vice President, American Airlines; Captain Joe Kolshak, who is 
Executive Vice President, Operations, Delta Air Lines; and Mr. 
Zane Rowe, who is Senior Vice President, Network Strategies, 
Continental Airlines.
    So, why don't we just do it in the order that I said it, 
which may or may not be politically correct or logically 
reasonable.
    Mr. Sturgell?
    Senator Stevens. I concur. And will you print our 
statements in the record?
    Senator Rockefeller. Absolutely.
    Senator Stevens. Thank you.
    Senator Rockefeller. Goes without saying.
    [The information previously referred to follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Thank you Senators Rockefeller and Lott for holding today's 
hearing. The summer travel season was certainly difficult for both the 
airlines and their passengers. The airline delays and cancellations 
experienced over the last few months have impacted the travel schedule 
of many travelers.
    I understand the frustration felt as a result of airline delays and 
cancellations. When I travel to my home state, on average, the flight 
time to transit from Washington, D.C. to Anchorage, Alaska can take 
almost 10 hours and that doesn't include additional time due to flight 
delays.
    As the demand for air service increases, the FAA and the airlines 
will be challenged to cope with the increased demand by developing and 
implementing a modern air traffic control system. If the passenger 
demand for air transportation continues to outpace air traffic 
capacity, the cost to the U.S. economy could be significant.
    Congress is in an opportune position to significantly modernize our 
antiquated air traffic control system and should make every effort to 
take advantage of that opportunity.
    The FAA, Congress, and industry stakeholders need to expedite a 
multifaceted modernization approach that improves utilization of 
congested airspace, ground systems, and ground infrastructure. 
Coordination between the government and industry is essential.
    While most of the traveling public has become tolerant of modest 
flight delays, government agencies and the airlines need to take note 
of the lessons learned over the past few months.
    I recognize delays will never be avoided altogether, but how we 
deal with them and track them can certainly be improved. Without quick 
action and planning regarding modernization, we are on the precipice of 
aviation gridlock.
    I look forward to working with my colleagues to create solutions to 
this problem.

            STATEMENT OF ROBERT A. STURGELL, ACTING

        ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION,

    ACCOMPANIED BY HON. D.J. GRIBBIN, GENERAL COUNSEL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Sturgell. Good morning, Chairman Rockefeller, Senator 
Stevens. I'm privileged to be here in front of you today to 
address the Committee on delays and congestion. I'll be making 
a joint statement on behalf of the Department for Mr. Gribbin, 
as well.
    I can understand the frustration with delays, having 
experienced them, myself, this summer. But, first and foremost, 
I want to say that the National Airspace System is as safe as 
it's ever been. Over the past 20 years, general aviation 
accidents have dropped by a third, and commercial aviation is, 
itself, in the golden age of safety.
    Efficiencies--delays, in particular--are another matter. 
More people are flying than ever, and more smaller planes are 
carrying them. And, compounding this, the FAA's current system 
of taxes and fees provides little incentive to use the airspace 
efficiently.
    Aviation today is a deregulated system, where the 
government does not create or control airline schedules. The 
passenger wants choices. Choices fill up schedules.
    The competition created by deregulation has also resulted 
in lower ticket prices for the traveling public. But when 
passengers arrive at the airport and see that a dozen flights 
are scheduled at the same time, they know it's not going to 
happen.
    Senator Rockefeller. Would you excuse me, sir?
    Mr. Sturgell. Yes, sir.
    Senator Rockefeller. It occurs to me, if the votes were to 
start at 11, that's a total of 20 minutes. Five minutes, you 
can blame totally on me. But the question is, are you all going 
to read all of your statements, or are you going to summarize 
them so that we have a chance to ask a question or two?
    Mr. Sturgell. I have cut this down so that we can discuss--
--
    Senator Rockefeller. You've minimized it.
    Mr. Sturgell.--which I think is the most important aspect 
of this.
    Senator Rockefeller. You've minimized it, OK.
    Mr. Sturgell. You bet.
    I do want to point out that commercial traffic has returned 
in different ways after 9/11. Delays are up 20 percent since 
last year, and 30 percent from the summer of 2000. And, we've 
seen dramatic increases in traffic in different major markets. 
Particularly, also I want to point out that high altitude jet 
traffic has grown, as well, up 43 percent from 2000 to 2006. We 
do expect operations, take-offs and landings, to grow by 
another 1.4 million per year through 2020.
    Our policy with delays is to address capacity--to grow it 
first, improve efficiency through payment procedures or 
technology. And, we are addressing each one of those as we go 
forward. We can talk about that later.
    But I do want to say that, in terms of technology, as we 
move to the NextGen system, the transformation is beginning 
now, and we need to ensure that we can fund that 
implementation, and fund it in an expeditious manner. The 
problems are now. The problems will get worse in 2015, when we 
expect a billion passengers to be using the system. As you 
know, our authorization is set to expire soon, so we think the 
forward momentum of NextGen is in jeopardy. That's short term, 
but in the longer term we need to link our costs with the 
revenues of the system--again, otherwise, we will slow down 
this implementation.
    I'm hopeful that we can continue to work through this 
process together, and I look forward to the questions.
    Thank you.
    [The joint prepared statement of Mr. Sturgell and Mr. 
Gribbin follow:]

Prepared Statement of Robert A. Sturgell, Acting Administrator, Federal 
   Aviation Administration, and Hon. D.J. Gribbin, General Counsel, 
                   U.S. Department of Transportation
    Chairman Rockefeller, Senator Lott, Members of the Subcommittee:
    Thank you for holding today's hearing on airline delays and 
consumer issues. We are now coming to the end of the peak summer travel 
season. We appreciate having the opportunity to assess how our aviation 
system performed and to describe the Federal Aviation Administration's 
(FAA) efforts to reduce congestion and delays in our Nation's aviation 
system. Growing congestion and delays in the system are a serious 
threat to the U.S. economy and our quality of life. Successfully 
addressing this threat will require us to embrace new solutions and 
acknowledge that pursuit of status quo policies will do little, if 
anything, to reverse the substantial decline in system performance that 
we have experienced in recent years.
    This is precisely why the Administration has proposed to overhaul 
the way we pay for and manage our air traffic control system and to 
allow airports new flexibilities to embrace market-based pricing 
mechanisms at heavily congested airports. The prices that system users 
pay to fly in the United States do not currently reflect the true costs 
of flying. As a result, the current FAA and airport financing structure 
actually provides an incentive for more congestion. This is clearly not 
a sustainable approach.
    As we frame the problem, we should note that we are living in the 
safest period in aviation history and we are constantly striving to 
make it safer still. In the past 10 years, the commercial fatal 
accident rate has dropped 57 percent. In the past 3 years, the United 
States averaged approximately two fatal accidents per year and 28 
deaths per year; while any loss of life is tragic, this statistic is 
remarkable, given that there are well over 100,000 aircraft operations 
per day. General aviation accidents are down. Air traffic control 
errors are occurring at a rate lower than in the previous 2 years. 
Safety is and will always be the primary goal of the FAA. Nothing we do 
to address congestion and delays will ever compromise our safety 
mandate.
    Still, it is no secret that while we are enjoying a record level of 
safety, we are at a critical point with congestion and delays. This 
past summer, we saw record delays in flights across the country. From 
October 2006 to August 2007, delays are up almost 20 percent, compared 
with the same time period from 2005-2006. Eighteen of our Nation's 
largest airports have returned to their highest pre-9/11 commercial 
passenger levels. This past summer, we saw 7,936,885 minutes in delays 
throughout the system. Of that, 44 percent occurred in the New York/New 
Jersey/Philadelphia region. Our aviation system is stretched to the 
limit. As we currently address the problem with new technologies and 
procedures, the FAA has, as you know, a long-term plan to address 
congestion and delays--the Next Generation Air Transportation System 
(or NextGen) will transform the aviation system and how we control air 
traffic. We must be able to handle the demands of the future for 
aviation travel--projected to be one billion passengers by 2015.
    NextGen is a steady, deliberate, and highly collaborative 
undertaking, which focuses on leveraging our latest technologies, such 
as satellite-based navigation, surveillance and network-centric 
systems. It is designed to be flexible to take advantage of even newer 
and better technologies as they become available. Ten years ago, no one 
could have conceived of carrying thousands of songs in your pocket or 
being able to send e-mails using a PDA thumbboard. Nevertheless, those 
technologies are available and they have revolutionized the way many 
Americans live their lives. We want to make sure that our air 
transportation system can accommodate innovations without becoming 
entrenched in technology that is new today but obsolete tomorrow. But 
NextGen is not a ``plug and play'' system that can be dropped in place 
in 2025; we have already begun putting pieces of it in place--pieces 
that begin to lay the foundation of the solution to our record delays. 
In our testimony today, we would like to outline some of the near-term 
and long-term solutions that the FAA and its partners have in store to 
relieve the pressure of congestion and delays.
    Aviation is one of the most complex industries in that world, 
consisting of an extremely intricate web of infrastructure, technology, 
and people. No one piece of today's aviation system can stand alone. We 
are all in this together, and we look forward to continuing our 
partnerships with the airport, airline, and business/general aviation 
communities to ensure that their pieces of their parts of the solution 
come together to help solve the problem as well.
NextGen Solutions
    While the completion of NextGen is the long-term solution to 
transforming the air transportation system, the FAA is tackling 
congestion with many near-term initiatives. With the recent award to 
ITT of the ADS-B contract, our even more recently announced Airspace 
Redesign for New York/New Jersey/Philadelphia, several other new ATC 
procedures, and airport infrastructure projects, the FAA is well on its 
way to implementing the earliest pieces of NextGen to increase 
efficiency and reduce delays.
    We would like to describe some of the key steps that we have 
recently taken or will be taking in the next few years to reduce 
delays:
NY/NJ/PHL Airspace Redesign
    The old, inefficient airspace routes and procedures pieced together 
over the past several decades were overdue to be reconfigured to make 
them more efficient and less complicated. In addition to more jet 
routes with increased and better access, the Airspace Redesign includes 
improved use of available runways, fanned headings for departures and 
parallel arrivals, and more flexibility to manage delays in severe 
weather. We project that under the Airspace Redesign, delays will be 
cut by 200,000 hours annually. This is the single greatest improvement 
to address congestion we see in the near future for the New York/New 
Jersey metropolitan area.
    We also project that this will save $248 million annually in 
operating costs for airlines. Additionally, the increased flexibility 
during severe weather is projected to save another $37 million 
annually. Finally, the environmental advantages include reduced carbon 
dioxide emissions of a projected 430 million pounds per year, and the 
residents affected by aviation noise will be reduced by more than 
600,000. These are impressive gains.
Florida Airspace Redesign
    To emphasize how our redesign efforts save us time and money, our 
recent Florida Airspace Redesign has proven very successful in 
addressing delays. In October 2005, the FAA implemented the Florida 
Airspace Optimization (FAO), a series of airspace modifications that 
included:

  <bullet> New sectors in Washington Center (ZDC) and Miami Center 
        (ZMA) to reduce and redistribute controller workload;

  <bullet> New overwater routes to increase north-south capacity; and

  <bullet> New RNAV and conventional Standard Terminal Arrival Routes 
        (STARS) to eliminate complex crosses and merges into Fort 
        Lauderdale-Hollywood International Airport (FLL), Miami 
        International Airport (MIA), Palm Beach International Airport 
        (PBI), and other airports in South Florida.

    FAA calculates that in its first year, the redesign has reduced 
delays, reduced reroutes, and reduced foreign fees attributable to 
reroutes in the amount of $22.5 million for traffic inbound to South 
Florida and $11.7 million for traffic outbound from South Florida. In 
the Caribbean, a savings of $400,000 has been realized due to reduced 
reroutes and international user fees. The benefits of the FAO total 
almost $35 million annually.
RNAV/RNP
    The FAA is currently expanding the use of procedures like Area 
Navigation (RNAV) and Required Navigation Performance (RNP), which 
collectively result in improved safety, access, capacity, 
predictability, and operational efficiency, as well as reduced 
environmental impacts. RNAV operations remove the requirement for a 
direct link between aircraft navigation and a ground-based navigational 
aid (i.e., flying only from radar beacon to radar beacon), thereby 
allowing aircraft greater access to better routes and permitting 
flexibility of point-to-point operations. By using more precise routes 
for take-offs and landings, RNAV enables reductions in fuel burn and 
emissions and increases in capacity.
    RNP is RNAV with the addition of an onboard monitoring and alerting 
function. This onboard capability enhances the pilot's situational 
awareness providing greater access to airports in challenging terrain. 
RNP takes advantage of an airplane's onboard navigation capability to 
fly a more precise flight path into an airport. It increases access 
during marginal weather, thereby reducing diversions to alternate 
airports. RNP has the effect of reducing the overall noise footprint 
and aggregate emissions.
    In April 2005, we added 7 new RNAV departure fixes at Atlanta 
Hartsfield-Jackson International Airport and 16 new RNAV procedures 
were added this past summer at Dallas-Fort Worth International Airport. 
These procedures can be implemented quickly and with less coordination 
between pilot and air traffic control when a normal departure route is 
temporarily unavailable because of weather or other cause. This saves 
time for the controllers and pilots, as well as fuel for the airlines 
that are equipped to use these procedures. We now have well over 100 
RNAV procedures in place throughout the NAS, and are planning to roll 
out more where we can.
Ground Delay (GDP) and Airspace Flow Programs (AFP)
    These are programs that help FAA traffic managers distribute delays 
equally among the relevant flights and enables us to safely meter the 
rate that traffic arrives at an affected airport or flies through the 
affected area. A GDP, implemented for a particular destination airport, 
controls flights destined for that airport by adjusting their departure 
times. AFPs can be thought of as GDPs in the air. Rather than delaying 
flights headed to a particular airport, an AFP controls flights routed 
through a specific section of airspace. An AFP will only impact flights 
through the airspace that is constrained. AFPs also provide a much more 
evenly distributed solution for customers. Instead of the large 
airlines absorbing all of the delays caused by severe weather, general 
aviation aircraft will be constrained by AFPs if their routes happen to 
take them through affected areas.
Flight Schedule Monitor, Flight Schedule Analyzer, and Route Management 
        Tool
    Flight Schedule Monitor (FSM) creates a common situational 
awareness among all users and service providers in the National 
Airspace System (NAS). All parties need to be aware of NAS constraints 
in order to make collaborative air traffic decisions. FSM presents a 
graphical and timeline presentation of airport/airspace demand and 
capacity information and helps analyze and manage ground delay program/
airspace flow programs so users can react quickly to NAS constraints.
    Flight Schedule Analyzer (FSA) is a tool developed to explore the 
effectiveness of GDPs and to identify problems in the Collaborative 
Decision Making (CDM) process. It is primarily an analysis tool.
    Route Management Tool (RMT) facilitates increased information 
exchange between air traffic control and the airline user community. 
RMT is a query tool that allows users to search for, modify, and view 
centralized route databases and reference tables.
Traffic Management Advisor
    The Traffic Management Advisor helps controllers sequence aircraft 
through en route airspace into major terminals. TMA calculates a 
specific time for each aircraft to cross a fixed point in the airport 
landing route that also considers minimum safe distances between 
aircraft. Appropriate direction to pilots is then provided using that 
data, allowing arrival streams that take better advantage of available 
landing slots. The FAA estimates that when this Time-Based Metering is 
used, there are increases in arrival rates of 3 percent or more. TMA is 
operational at all air route traffic control centers.
Adaptive Compression
    This is a computer program that automatically identifies slots that 
might go unused and moves other flights into those slots. We can 
minimize unnecessary delays, and with fewer slots going unused, 
maximize capacity.
Controller Staffing
    The FAA understands how critical it is to have an adequately 
staffed and expertly trained air traffic controller workforce. That is 
why we developed a comprehensive Controller Workforce Plan to address 
the wave of retirement-eligible controllers over the next 10 years. We 
have taken proactive steps to ensure we have the right people, at the 
right place and time. To that end, we are expanding our Collegiate 
Training Initiative, and we have held numerous job fairs, and 
streamlined security and medical clearance processes. We hired over 
1,100 controllers last year, are hiring 1,700 this year, and plan to 
hire numbers consistent with the Controller Workforce Plan over next 10 
years.
    With regard to performance, as noted at the outset, safety is 
always our top priority. We are meeting our targets for both reducing 
operational errors and runway incursions, which are down year-over-
year. Controller ``time on position'' (the time a controller actually 
spends controlling air traffic) system-wide is running about 4 hours 
and 48 minutes for an 8-hour workday. System overtime is at 1.66 
percent, which is below previous years, and total operations per 
controller are roughly the same as 1999 and 2000.
Airports
    Since 2000, 13 new runways have opened at the 35 Operational 
Evolution Partnership (OEP) airports. These 13 new runways encompass 
more than 20 miles of new runway pavement, and provide the airports 
with the potential to accommodate 1.6 million more annual operations. 
This added capacity has decreased average delay per operation at these 
airports by 5 minutes. In addition, about 6 months ago, an end-around 
taxiway was commissioned at Atlanta Hartsfield-Jackson International 
Airport, the busiest airport in the United States. This provides an 
alternative to having aircraft cross an active runway and will 
eliminate 612 runway crossings per day.
    Currently, eight OEP Airports have airfield projects (3 new 
runways, 2 airfield reconfigurations, 1 runway extension, 1 end around 
taxiway, and 1 centerfield taxiway) under construction. These projects 
will be commissioned by 2010 providing these airports with the 
potential to accommodate about 400,000 more annual operations, decrease 
average delay per operation by almost 2 minutes, and significantly 
reducing runway crossings.
    Ten other projects (3 airfield reconfigurations, 3 runway 
extensions, and 4 new runways) are in the planning or environmental 
stage at OEP airports through 2017. In addition, seven communities have 
planning or environmental studies underway to examine how their 
metropolitan area will accommodate future demand for aviation. Two 
communities have environmental processes underway for new airports.
    Additionally, we have an initiative to direct Airport Improvement 
Program funds for enhancements at other high activity airports located 
within congested metropolitan areas that will improve each metropolitan 
area's ability to accommodate future aviation demand efficiently. We 
are also continually seeking ways to strengthen our environmental 
stewardship as we increase capacity at airports, by developing better 
systems, technologies, and analytical tools to evaluate aircraft noise 
and emissions.
    The Future Airport Capacity Task (FACT) 2, an FAA study which was 
recently released, considered the impact of growth in air travel 
through 2025. Demand and operational capacity at 291 airports spanning 
223 metropolitan areas across the country was evaluated. Results 
indicate that by 2025, 14 airports and eight metropolitan areas will 
require additional capacity, even if planned improvements are built at 
airports throughout the system. FACT 2 recommends various capacity 
improvements including: new runways and new commercial service 
airports; additional studies to focus and determine appropriate 
regional solutions like the increased use of secondary airports; 
congestion management; and the continued development and implementation 
of NextGen. FAA is starting to work with local communities and airports 
forecast to be capacity-constrained, including metropolitan regions on 
the east and west coast to develop plans to address the anticipated 
capacity issues in each of the targeted areas.
    These are a few of the steps that we are taking to address 
congestion and delays. Of course, as we develop and implement these 
programs and take these measures now to relieve delay in the short-
term, we continue to look forward. We cannot just put a Band-Aid on 
the system; we have to build on this foundation now.
Consumer Concerns
    At the Department of Transportation (DOT), we are not only 
dedicated to reducing congestion and resultant flight delays, but we 
are also, of course, committed to improving the treatment afforded air 
travelers by airlines during flight delays and, in particular lengthy 
on-ground delays. Clearly, stranding passengers aboard aircraft for 
several hours simply is not acceptable and something must be done to 
minimize such incidents. In this regard, we would like publicly to 
thank Inspector General Scovel and his staff for the excellent report 
issued this week. Secretary Peters has directed the staff to carefully 
and thoroughly review the Inspector General's recommendations as 
quickly as possible.
    While the Inspector General's report is very important to us, we 
would like to add that we have not been idle while awaiting the results 
of his investigation of specific lengthy, on-ground delay incidents and 
the manner in which the industry handles flight irregularities in 
general. Secretary Peters established a senior staff working group to 
examine the alternatives available to the DOT to address the consumer 
protection issue (as well as congestion) and it is well along in its 
consideration of various alternatives. Thus, we expect to be able to 
include the Inspector General's recommendations in our on-going 
deliberations. The Department does have the authority necessary to act 
on matters involving the treatment of consumers through statutory 
provisions that prohibit carriers from engaging in unfair and deceptive 
practices (49 U.S.C.  41712) and require carriers to provide ``safe 
and adequate'' service (49 U.S.C.  41702). With respect to deceptive 
practices, the Office of the Secretary's Aviation Enforcement Office 
has for a number of months been investigating chronically delayed 
flights and compliance by airlines with the existing Department 
requirement that airline reservation agents provide consumers flight 
delay information upon request. We intend to take whatever action is in 
the public interest to improve the current situation faced by 
consumers.
Partnerships in Problem-Solving
    While the FAA and DOT are taking aggressive steps to reduce 
congestion and delays, we are not in this alone. The airlines and other 
aircraft operators hold important pieces to the puzzle as well. 
Specifically, the airlines sometimes schedule their flights in a way 
that pushes the system to capacity under even the best of conditions. 
Understandably, these schedules are largely a response to market 
demand. We encourage our friends in the airline industry to reassess 
their scheduling with an eye toward relieving some of the strain on the 
system. The long-term savings in reduced delays and happier consumers 
are well worth it. Airlines have voluntarily made these changes in the 
past, such as ``de-peaking'' schedules at Atlanta Hartsfield-Jackson 
and Dallas-Ft. Worth, and those changes produced smoother operations.
    Also worth noting is that general aviation and business aviation 
use is up. While new users and business models are critical to the 
growth of the system, the air traffic control system cannot accommodate 
every new proposed use without a system that matches our costs with the 
revenues being produced to pay for the system. On a system-wide basis, 
our cost allocation found that general aviation drives about 16 percent 
of the costs of the air traffic control system, while only paying about 
3 percent of the taxes, a situation that is unsustainable given the 
growth in GA flight time that we expect. We believe that a fairer 
allocation of costs is necessary to sustain the system and allow it to 
grow.
Reauthorization
    This brings us to our final point, that Congress plays an enormous 
role in shaping a solution. The Subcommittee has heard this before, but 
it bears repeating as we move to the final stages of this year's 
reauthorization debate: a cost-based funding structure is essential to 
transforming the aviation system. Numerous bipartisan commissions have 
recommended cost-based funding for the FAA over the last two decades, 
and air traffic control providers in every other developed country have 
cost-based funding. Failure to adopt a cost-based system here is unfair 
to our air travelers and will hinder the implementation of NextGen, 
and, for the first time in history, put the United States behind other 
countries that are moving toward the future of aviation.
    We need fresh thinking and fresh approaches, and we need them now. 
There is little connection between what users pay for services and the 
costs they generate, and this detachment leads to distorted consumption 
of air traffic services, and ultimately congestion. This is why the 
Administration developed a proposal that included provisions for cost-
based financing, the flexibility to charge congestions fees, and 
market-based congestion pilots at congested airports like LaGuardia. We 
know the system is not cost-based from the results of the FAA's most 
recent study. Using comprehensive cost accounting and activity data, we 
put together the most detailed and transparent cost allocation ever 
done by FAA or, we believe, by any other air traffic control provider.
    The Administration's proposal is crafted to reform FAA's financing 
system to better enable modernization and reduce congestion. In its 
proposal, FAA would charge cost-based fees for terminal and en route 
airspace. At large congested airports, FAA could vary this terminal fee 
based on the time of day and day of the week, to reduce delays and 
congestion. The Administration's proposal also includes market-based 
mechanisms (such as auctions or congestion pricing) to allocate take-
offs and landings. This would be used at airports in which varying the 
cost-based terminal fee would not be sufficient to reduce congestion.
    The Members of this Subcommittee are well aware of the long-term 
challenges facing the FAA. We appreciate your support of our programs, 
and the hard work and long hours you have put in toward reauthorizing 
the FAA's programs. We are at a crossroads in aviation history and the 
path we choose now will have ramifications for generations of air 
travelers to come. We are eager to continue working with the Congress 
on the reauthorization process.
    We have taken steps to reduce congestion and delays. However, the 
system is still stretched to capacity and congestion and delays are 
still problems, and unless we change our approach now, things will only 
get worse. We expect that by 2015, the system will be carrying one 
billion passengers per year. International passenger traffic is 
expected to grow by 70 percent in that same timeframe. If we don't make 
changes to our system, our projections indicate that by 2014, we will 
see an increase in delays of over 60 percent than what we have today.
    We need NextGen. We believe that we have a fairly strong consensus 
on that point. We also need the cost-based financing reforms or market-
based congestion programs, or we will not have the tools to get there 
in time to meet the demand. We must seize the opportunity this year to 
deliver it with a cost-based and fair financing structure.
    Mr. Chairman, that concludes our prepared statement. We would be 
happy to answer any questions that you or the other Members of the 
Committee may have.

    Senator Rockefeller. Thank you. And that was helpful, 
brief, to the point.
    And Mr. Gribbin will follow your example.
    Mr. Gribbin. Thank you, Mr. Chairman. Actually, in the 
order of time, we'll just let Mr. Sturgell's statement stand as 
the Department's statement. So, there is no reason for me to 
make an additional statement.
    Senator Rockefeller. I won't ask anybody else to match 
that.
    Mr. Gribbin. OK.
    [Laughter.]
    Senator Rockefeller. Thank you, sir.
    Mr. Scovel?

       STATEMENT OF HON. CALVIN L. SCOVEL III, INSPECTOR

           GENERAL, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Thank you, Chairman Rockefeller, Senator 
Stevens, members of the Subcommittee. I appreciate the 
opportunity to testify this morning.
    This hearing is both timely and important, given the 
record-breaking flight delays and cancellations that travelers 
experienced this year.
    Secretary Peters has serious concerns about the airlines' 
treatment of passengers during extended ground delays and 
requested that we examine incidents in which passengers were 
stranded on aircraft for extended periods of time. We issued 
our report on Tuesday, which includes a series of 
recommendations that the Department, airlines, and airports can 
take to improve airline customer service. Today, I'll discuss 
four key points that evolved from our study.
    First, the airlines should detail their policies and plans 
to minimize long, onboard delays and off-load passengers within 
certain periods of time and adhere to such policies. I wish to 
be clear on this, because some media reports and aviation 
industry representatives have mischaracterized our position by 
stating that the Inspector General recommends imposition of a 
single time standard for off-loading passengers. This is not 
so. Our view, through repeated iterations of our customer 
service reviews, has consistently been that a ``one size fits 
all'' approach is not desirable in this area. The 
responsibility is up to the individual airlines, and I wish to 
keep the spotlight on them.
    Second, airport operators should become more involved in 
contingency planning for extraordinary flight disruptions. Our 
examination of 13 airport contingency plans found that only 2 
airports had a process for monitoring and mitigating long, 
onboard delays. This involves contacting the airline to request 
a plan of action after an aircraft has remained for 2 hours on 
the tarmac. In our opinion, airport operators need to become 
more involved in contingency planning for extraordinary flight 
disruptions.
    Third, best practices and ongoing initiatives that are 
properly executed should help to mitigate long onboard delays 
in the short term. These include setting the maximum amount of 
time that passengers will remain onboard aircraft before 
deplaning and keeping gate space available for off-loading 
passengers in times of irregular operations.
    Finally, DOT, the FAA, airlines, and airports should 
complete actions immediately to improve airline customer 
service and minimize long delays. First, airlines should 
specify in detail the efforts that will be made to get 
passengers off aircraft that are delayed for long periods of 
time. Second, airlines should establish specific targets for 
reducing chronically delayed or cancelled flights. Third, 
airport operators should establish a process for monitoring and 
mitigating long, onboard delays. Fourth, DOT should investigate 
incidents involving long, onboard delays. And, finally, 
airlines, airports, and the FAA should establish a task force 
to develop and coordinate contingency plans for dealing with 
lengthy delays.
    That concludes my statement, sir. I'd be happy to answer 
questions.
    [The prepared statement of Mr. Scovel follows:]

 Prepared Statement of Hon. Calvin L. Scovell III, Inspector General, 
                   U.S. Department of Transportation
    Mr. Chairman and Members of the Subcommittee:

    We are pleased to be here today to discuss airline customer service 
issues and the actions needed from the Department of Transportation 
(DOT), Federal Aviation Administration (FAA), airlines, and airports to 
minimize long, on-board delays. This hearing is both timely and 
important given the record-breaking flight delays, cancellations, 
diversions, and on-board tarmac delays that air travelers have already 
experienced this year. Based on the first 7 months of the year:

  <bullet> Nearly 28 percent of flights were delayed, canceled, or 
        diverted--with airlines' on-time performance at the lowest 
        percentage (72 percent) recorded in the last 10 years.

  <bullet> Not only are there more delays, but also longer delay 
        periods. Of those flights arriving late, passengers experienced 
        a record-breaking average flight arrival delay of 57 minutes, 
        up nearly 3 minutes from 2006.

  <bullet> More than 54,000 flights affecting nearly 3.7 million 
        passengers experienced taxi-in and taxi-out times of 1 to 5 
        hours or more. This is an increase of nearly 42 percent as 
        compared to the same period in 2006.

    As you know, Secretary Peters has expressed serious concerns about 
the airlines' treatment of passengers during extended ground delays. 
Earlier this year, she requested that we examine the specific incidents 
involving American Airlines (American) and JetBlue Airways (JetBlue), 
during which passengers were stranded onboard aircraft for extended 
periods of time, and the Air Transport Association's \1\ member-
airlines' \2\ contingency plans for dealing with long, on-board delays. 
She also requested that we highlight industry best practices that can 
help to mitigate these situations and provide recommendations on what 
actions should be taken to prevent a recurrence of such events. We 
issued our report on September 25, 2007,\3\ which included a series of 
recommendations the Department can take to improve airline customer 
service.
---------------------------------------------------------------------------
    \1\ The Air Transport Association is the trade association for 
America's largest air carriers. Its members transport over 90 percent 
of all the passenger and cargo traffic in the United States.
    \2\ Alaska Airlines, Aloha Airlines, American Airlines, ATA 
Airlines, Continental Airlines, Delta Air Lines, Hawaiian Airlines, 
JetBlue Airways, Midwest Airlines, Northwest Airlines, Southwest 
Airlines, United Airlines, and U.S. Airways. During our review, ATA 
Airlines terminated its membership in ATA.
    \3\ OIG Report Number AV-2007-077 ``Actions Needed To Minimize 
Long, On-Board Delays,'' September 25, 2007. OIG reports and 
testimonies are available on our website: www.oig.dot.gov.
---------------------------------------------------------------------------
    Today, I would like to discuss four key points on actions that 
would help to improve airline customer service and minimize long, 
onboard delays. These points are based on the results of our recent 
review as well as our previous airline customer service reviews.
    The airlines should specify in detail their policies and plans to 
minimize long, on-board delays and off-load passengers within certain 
periods of time and adhere to such policies. The American and JetBlue 
events of December 29, 2006, and February 14, 2007, respectively, 
underscored the importance of improving customer service for passengers 
who are stranded onboard aircraft for extended periods of time. On 
those dates, thousands of passengers experienced long, onboard delays, 
in some cases for over 9 hours, with little more than a snack and 
beverage for the entire time. However, the events were neither isolated 
incidents nor limited to American and JetBlue; these delays occurred 
throughout the system and at many airlines.
    Although severe weather was the primary cause of the delays, it was 
not the only factor--neither airline had a system-wide policy and 
procedure in place to mitigate long, on-board delays and off-load 
passengers within a certain period of time. In fact, prior to the 
American and JetBlue incidents, only a few airlines reviewed had an 
established time limit on the duration of tarmac delays, as we reported 
in our 2001 review.\4\ Since these incidents, eight airlines have now 
set a time limit on delay durations before deplaning passengers but 
five still have not.
---------------------------------------------------------------------------
    \4\ OIG Report Number AV-2001-020, ``Final Report on Airline 
Customer Service Commitment,'' February 12, 2001.
---------------------------------------------------------------------------
    We still maintain that all airlines' customer service plans should 
specify in detail the efforts that will be made to get passengers off 
aircraft that are delayed for long periods, either before departure or 
after arrival. Airlines should also incorporate these policies in their 
contracts of carriage and post them on their Internet sites. To ensure 
adherence to the policies, airlines must resume efforts to self-audit 
their customer service plans. We recommended most of these actions in 
our 2001 report, and the airlines agreed and stated plans to implement 
them.
    Airport operators should become more involved in contingency 
planning for extraordinary flight disruptions. Our examination of 13 
airports' \5\ contingency plans found that only 2 airports have a 
process for monitoring and mitigating long, onboard delays. This 
involves contacting the airline to request a plan of action after an 
aircraft has remained for 2 hours on the tarmac. We also found that all 
airports intervene only upon an airline's request primarily because 
they do not have the authority to interfere with a carrier's operations 
during long, on-board delays.
---------------------------------------------------------------------------
    \5\ Austin-Bergstrom International, Chicago O'Hare International, 
Dallas/Fort Worth International, Dallas Love Field, General Mitchell 
International, George H. Bush Intercontinental, Hartsfield-Jackson 
Atlanta International, Honolulu International, Indianapolis 
International, John F. Kennedy International, Minneapolis-St. Paul 
International, Phoenix Sky Harbor International, and Seattle-Tacoma 
International.
---------------------------------------------------------------------------
    In our opinion, airport operators need to become more involved in 
contingency planning for extraordinary flight disruptions, including 
long, on-board delays during extreme weather or any other disruptive 
event. Airports are public agencies heavily supported by public funding 
and should ensure that passengers' essential needs are met and prevent 
long, on-board delays to the extent possible. As recipients of Federal 
funds for airport improvement projects, airports have an obligation to 
increase airport efficiency, decrease delays, and transport passengers 
in the most efficient manner.
    Therefore, large- and medium-hub \6\ airport operators should 
establish a process for monitoring and mitigating long, onboard delays 
that involves contacting the airline to request a plan of action after 
an aircraft has remained for 2 hours on the tarmac. Absent any airline 
policy, the airport operators should work with airlines to establish 
policies for deplaning passengers and ensure that these policies are 
adhered to.
---------------------------------------------------------------------------
    \6\ FAA defines (1) large hubs as those airports that each account 
for at least 1 percent of the total U.S. passenger enplanements and (2) 
medium hubs as those airports that each account for between .025 
percent and 1 percent of the total passenger enplanements. Large-hub 
airports (30 in total) account for 69 percent of all passenger 
enplanements, while medium-hub airports (37 in total) account for 20 
percent of all enplanements.
---------------------------------------------------------------------------
    There are best practices and ongoing initiatives that, if properly 
executed, should help to mitigate long, on-board delays in the 
immediate term. Secretary Peters asked that we highlight some of the 
best practices we found that could help in dealing with long, onboard 
delays. During our review of selected airlines and airports, we found 
several practices that airlines and airports are taking to mitigate the 
effects of these occurrences. These include:

  <bullet> setting the maximum amount of time that passengers will 
        remain onboard aircraft before deplaning.

  <bullet> ``intelligent canceling''--canceling flights most likely to 
        be affected by the weather event without being too optimistic 
        or pessimistic. Pre-canceling flights before the passengers 
        leave home keeps them away from the airport, thus reducing 
        congestion.

  <bullet> keeping gate space available for off-loading passengers in 
        times of irregular operations.

    The best practices we identified during our review are not all 
inclusive, and the airlines or airports should consider incorporating 
them into their ongoing operations, especially the best practice of 
setting the maximum amount of time that passengers will remain onboard 
aircraft before deplaning.
    However, in our opinion, a more comprehensive plan of action is 
needed to prevent and mitigate long, on-board delays and should involve 
collaboration among airlines, airports, FAA, and DOT. Therefore, a 
national task force of representatives from each of these groups should 
be established to develop and coordinate contingency plans to deal with 
lengthy delays. Although the airlines formed a task force in response 
to our 2001 report recommendations, the effort never materialized as 
priorities shifted after September 11, 2001. Now is the time to 
reconvene the task force.
    Also, after our review began, some airports moved forward with 
other initiatives meant to assist the airlines in dealing with long, 
on-board delays. For example, the Port Authority of New York and New 
Jersey set up a task force to find ways to reduce flight delays at the 
region's three main airports: John F. Kennedy (JFK), LaGuardia, and 
Newark Liberty International Airports. The task force is addressing two 
main areas--technical issues and customer service. In the technical 
area, the Port Authority and FAA are working on procedural 
improvements, such as more efficient use of the runways at JFK. In the 
customer service area, the focus is on identifying best methods for 
getting passengers off aircraft and enhancements for reducing the 
amount of time passengers are kept on aircraft.
    FAA is also taking action to minimize delays; the Agency expanded 
an existing initiative this summer to other parts of the National 
Airspace System to reduce the amount of time that flights sit on 
tarmacs waiting to depart. This initiative, known as the Airspace Flow 
Program, gives FAA and the airlines the capability to maximize the 
overall use of the National Airspace System while minimizing delays and 
congestion. These efforts, which are managed by FAA's Command Center, 
do not create additional capacity but limit the negative effects of bad 
weather.
    DOT, FAA, airlines, and airports should complete actions 
immediately on outstanding recommendations--some dating back to 2001--
to improve airline customer service and minimize long, on-board delays. 
Given the events of this past winter, DOT should take a more active 
role in overseeing customer service issues involving long, on-board 
delays, and there are actions that the Department, the airlines, 
airports, and FAA can undertake immediately to do so. Many of the 
actions are not new and date back to recommendations in 2001 on airline 
customer service, which were directed at delay and cancellation 
problems. To improve the accountability, enforcement, and protection 
afforded to air travelers we recommend, among other things, that:

  <bullet> DOT conduct incident investigations involving long, on-board 
        delays;

  <bullet> DOT oversee the airlines' policies for dealing with long, 
        on-board delays;

  <bullet> airlines define what constitutes an ``extended period of 
        time'' for meeting passengers' essential needs and set time 
        limits for delay durations;

  <bullet> airlines establish specific targets for reducing chronically 
        delayed or canceled flights;

  <bullet> airlines disclose on-time flight performance;

  <bullet> airlines resume efforts to self-audit their customer service 
        plans; and

  <bullet> large- and medium-hub airport operators establish and 
        implement processes for monitoring lengthy delays.

    Mr. Chairman, in addition to the steps I have just outlined, it is 
imperative that FAA keeps its short-term capacity measures on track. 
This is particularly important given that the development and 
implementation of the Next Generation Air Transportation System is a 
long-term undertaking. Key short-term initiatives include new airfield 
projects at six airports (including projects at Washington Dulles and 
Chicago O'Hare), new routes and procedures that can reduce flight 
times, and airspace redesign efforts. History shows that airspace 
changes are vital for realizing benefits from new runway projects and 
can enhance the flow of air travel even without new airport 
infrastructure.
    Before I discuss these key points in detail, I would like to 
briefly describe why airline customer service is again a central issue 
and highlight a few statistics showing how air travelers are affected 
by delays and cancellations.
Airlines Agreed To Execute a Voluntary Airline Customer Service 
        Commitment
    As this subcommittee is aware, accommodating passengers during 
long, on-board delays is a major customer service challenge that 
airlines face. However, this is not a new problem for the airlines. 
Airline customer service first took center stage in January 1999, when 
hundreds of passengers remained in planes on snowbound Detroit runways 
for up to eight and a half hours. After those events, both the House 
and Senate considered whether to enact a ``passenger bill of rights.''
    Following congressional hearings on these issues, ATA member 
airlines agreed to execute a voluntary Airline Customer Service 
Commitment \7\ to demonstrate their dedication to improving air travel 
(see figure 1). The Commitment provisions include meeting passengers' 
essential needs during long, on-board delays.
---------------------------------------------------------------------------
    \7\ ATA signed the Commitment on behalf of the then 14 ATA member 
airlines (Alaska Airlines, Aloha Airlines, American Airlines, American 
Trans Air, America West Airlines, Continental Airlines, Delta Air 
Lines, Hawaiian Airlines, Midwest Express Airlines, Northwest Airlines, 
Southwest Airlines, Trans World Airlines, United Airlines, and U.S. 
Airways).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Because aviation delays and cancellations continued to worsen, 
eventually reaching their peak during the summer of 2000, Congress 
directed our office to evaluate the effectiveness of the Commitment and 
the customer service plans of individual ATA airlines. We issued our 
final report in February 2001. Overall, we found that the ATA airlines 
were making progress toward meeting the Commitment, which has benefited 
air travelers in a number of important areas, such as offering the 
lowest fare available, holding reservations, and responding in a timely 
manner to complaints. However, these areas are not directly related to 
flight delays or cancellations--which the Commitment did not directly 
address--and these areas are still the underlying causes of deep-seated 
customer dissatisfaction.
Rising Flight Delays Are Leading to More Long, On-Board Delays
    A review of vital statistics shows the impact that flight delays 
and cancellations had on air travelers during 2006 and the first 7 
months of 2007, compared to peak-year 2000. The 2006 travel period was 
not only the busiest \8\ since 2000, it also reached near record 2000 
levels for flight delays and cancellations. Domestic-wide for 2006, 
nearly 25 percent of flights were delayed, canceled, or diverted, the 
highest percentage since the year 2000, when it hit 27 percent. Based 
on the first 7 months of 2007, airlines' on-time performance was at the 
lowest percentage (72 percent) recorded in the last 10 years; nearly 28 
percent of flights were delayed, canceled, or diverted compared to 
about 24 percent during the same period in 2006.
---------------------------------------------------------------------------
    \8\ As measured by scheduled departures.
---------------------------------------------------------------------------
    Figure 2 illustrates the changes in percent of flights delayed, 
canceled, or diverted from 2000 to 2007.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Not only are there more delays, but also longer delay durations. 
Domestic wide for 2006, for those domestic flights delayed, passengers 
experienced an average flight arrival delay of 54 minutes. Figure 3 
illustrates the average flight arrival times from 2000 to 2007. Based 
on the first 7 months of data, it is clear 2007 could be even worse. 
For flights that arrived late, passengers experienced an average flight 
delay of nearly 57 minutes, up nearly 3 minutes from 2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These rising flight delays are leading to more on-board tarmac 
delays. Based on the first 7 months of 2007, over 54,000 scheduled 
flights--affecting nearly 3.7 million passengers--experienced taxi-in 
and taxi-out times of 1 to 5 hours or more. This is an increase of 
nearly 42 percent (from 38,076 to 54,029) as compared to the same 
period in 2006 (see table).

 Table.--Number of Flights With Long, On-Board Tarmac Delays of 1 to 5+
                                  Hours
                 [January through July of 2006 and 2007]
------------------------------------------------------------------------
                                                               Percent
           Time period                 2006         2007        change
------------------------------------------------------------------------
1-2 Hrs.                                33,438       47,558        42.23
2-3 Hrs.                                 3,781        5,213        37.87
3-4 Hrs.                                   710        1,025        44.37
4-5 Hrs.                                   120          189        57.50
5 or > Hrs.                                 27           44        62.96
------------------------------------------------------------------------
    Total                               38,076       54,029        41.90
------------------------------------------------------------------------
Source: BTS data

Rising Flight Delays Are Also Leading to More Air Traveler Complaints
    Against this backdrop of increasing delays and cancellations, 
consumer complaints are also rising. DOT's Air Travel Consumer Reports 
disclosed that, for the first 7 months of 2007, complaints involving 
U.S. airlines increased nearly 65 percent (3,947 to 6,504) over 
complaints during the same period in 2006, with complaints relating to 
flight problems (delays, cancellations, and missed connections) more 
than doubling (1,096 to 2,468) for the same period. Complaints 
involving U.S. airlines in 2007 have already exceeded 2006 complaint 
totals, including complaints about flight problems.
    Over the last several years, DOT ranked flight problems as the 
number one air traveler complaint, with baggage complaints and customer 
care \9\ ranked as number two and number three, respectively. As shown 
in figure 4, flight problems accounted for more than one quarter of all 
complaints the Department received in 2006. So far, this year is 
becoming a near record-breaking year percentage-wise for flight problem 
complaints, with those accounting for nearly 38 percent of all 
complaints the Department received in the first 7 months of 2007.
---------------------------------------------------------------------------
    \9\ Complaints such as poor employee attitude, refusal to provide 
assistance, unsatisfactory seating, and unsatisfactory food service are 
categorized as customer care complaints.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Passengers' Flight Experiences Are Further Complicated by Capacity and 
        Demand Matters
    Air travelers' dissatisfaction with flight problems, especially 
cancellations, is further compounded by reduced capacity and increased 
demand, which leads to fuller flights. Domestic-wide, the first 6 
months of 2007 (the most recent data available) compared to the same 
period in peak-year 2000 show that:

  <bullet> The number of scheduled flights (capacity) decreased from 
        5.5 million in 2000 to 5.0 million in 2007, a drop of 9 
        percent. Scheduled seats also declined by over 9 percent 
        between 2000 and 2007, from 510 million to 462 million.

  <bullet> Even though the number of flights and seats declined, 
        passenger enplanements went up over 12 percent, from 312 
        million passengers in 2000 to 350 million passengers in 2007.

  <bullet> Reduced capacity and increased demand led to fuller flights. 
        For 2007, average load factors increased from 71.1 percent in 
        2000 to 79.7 percent in 2007, with an unprecedented 86.1 
        percent in June.

  <bullet> Reduced capacity and higher load factors can also result in 
        increased passenger inconvenience and dissatisfaction with 
        customer service. With more seats filled, air carriers have 
        fewer options to accommodate passengers from canceled flights.

    The extent to which delays and cancellations will continue to 
impact passengers in 2007 depends on several key factors, including 
weather conditions, the impact of the economy on air traffic demand, 
and existing capacity management at already congested airports.
    I would now like to turn to my key points on actions needed to 
improve airline customer service and minimize long, onboard delays.
The Airlines Must Specify in Detail Their Policies and Plans To 
        Minimize Long, On-Board Delays and Off-Load Passengers Within 
        Certain 
        Periods of Time and Adhere to Such Policies
    The airlines continue to face challenges in mitigating 
extraordinary flight disruptions such as long, on-board delays during 
extreme weather. Based on Bureau of Transportation Statistics (BTS) 
data, 659,988 flights were delayed in 2006 due to poor weather 
conditions (9.2 percent of all commercial flights). Based on the first 
7 months of 2007, the number of flights delayed due to poor weather 
conditions increased by nearly 18 percent for the same period in 2006 
and is on pace to exceed 2006 totals.
    The severity of the on-board delays last winter drew national 
attention, and the events that received the most attention--the 
American and JetBlue incidents--underscored the importance of improving 
customer service for passengers who are stranded onboard aircraft for 
extended periods of time.
    On December 29, 2006, American's operations at Dallas-Fort Worth 
International Airport (DFW) were severely affected by unprecedented 
weather leading to 654 flight cancellations, 124 diversions, and 44 
long on-board delays exceeding 4 hours. The diversions to Austin-
Bergstrom International Airport generated substantial interest because 
some of the lengthiest on-board delays occurred at that airport--in one 
case for over 9 hours. JetBlue's JFK operations also suffered on 
February 14, 2007, when severe weather hit the northeastern United 
States, leading to 355 cancellations; 6 diversions; and 26 long, on-
board delays exceeding 4 hours.
    We also found that other airlines experienced flight disruptions on 
those two dates; some were able to minimize the time passengers spent 
on-board aircraft while others experienced similar on-board delays. For 
example, Delta Airlines had more flights delayed at JFK than JetBlue on 
February 14, 2007, with a total of 54 flights delayed more than 1 hour 
versus 43 for JetBlue.
Lack of a System-Wide Policy Contributed to American's and JetBlue's 
        Long, On-Board Delays
    While weather was the primary contributor to the extraordinary 
flight disruptions, it was not the only factor in passengers being 
stranded onboard aircraft for extended periods of time. We found that 
neither airline had a system-wide policy or procedure in place to 
mitigate long, on-board delays and off-load passengers within a certain 
period of time. American also did not control the number of diverted 
flights to some airports, which overwhelmed its operations at Austin.
    JetBlue was committed to its long standing practice of not 
canceling flights. As a result, its personnel at JFK airport became 
overwhelmed with the sheer number of arriving and departing aircraft on 
the ground at the same time, with no gates available for deplaning 
passengers on arriving flights.
    After the December 29 event, American instituted a new policy 
designed to prevent on-board delays from exceeding 4 hours and 
implemented an airborne diversion distribution plan aimed at spreading 
out its diversions to more airports to prevent overloading any given 
airport. American has also implemented decision assistance technology 
designed to ``automatically track and monitor delayed and diverted 
flights and assist in creating a centralized approach for the 
prioritizing the handling of such flights.''
    JetBlue also set a time limit for any long, on-board delay away 
from a gate--a 5-hour maximum--and established procedures to monitor 
delayed flights. Also, just a week after the February 14 incident, 
JetBlue published its own customer bill of rights. JetBlue plans to 
offer compensation in the form of vouchers for flight disruptions, such 
as cancellations.
Contingency Planning for Extreme Weather Is Not a New Concern for 
        Airlines
    Contingency planning for extreme weather is not a new concern for 
airlines, as evidenced by the June 1999 Commitment provision, which 
states that:

  <bullet> The airlines will make every reasonable effort to provide 
        food, water, restroom facilities, and access to medical 
        treatment for passengers aboard an aircraft that is on the 
        ground for an extended period of time without access to the 
        terminal, as consistent with passenger and employee safety and 
        security concerns.

  <bullet> Each carrier will prepare contingency plans to address such 
        circumstances and will work with carriers and the airport to 
        share facilities and make gates available in an emergency.

    However, as we noted in our 2001 report, the airlines had not 
clearly and consistently defined terms in the Commitment provision such 
as ``an extended period of time.'' We also noted that only a few 
airlines' contingency plans specify in any detail the efforts that will 
be made to get passengers off the aircraft when delayed for extended 
periods, either before departure or after arrival. Our opinion was 
then, as it is now, that this should be a top-priority area for the 
airlines when implementing their contingency plans, especially with the 
record-breaking onboard delays we have already seen in 2007--
particularly those exceeding 4 hours.
    We recommended that the airlines:

  <bullet> clarify, in their customer service plans, what is meant by 
        an ``extended period of time'' and ``emergency,'' so that 
        passengers will know what they can expect during extended on-
        aircraft delays.

  <bullet> ensure that comprehensive customer service contingency plans 
        specify the efforts that will be made to get passengers off the 
        aircraft when delayed for extended periods, either before 
        departure or after arrival.

    In response to our 2001 report recommendations, the airlines agreed 
to:

  <bullet> clarify the terminology used in their customer service plans 
        for extended delays.

  <bullet> establish a task force to coordinate and develop contingency 
        plans with local airports and FAA to deal with lengthy delays.

    While a task force was formed, the effort never materialized as 
priorities shifted after September 11, 2001. Our testimony before the 
Senate Committee on Commerce, Science, and Transportation in April 2007 
\10\ recommended that the task force be reconvened, and, to date, there 
has been no action to do so.
---------------------------------------------------------------------------
    \10\ OIG Testimony Number CC-2007-042, ``Refocusing Efforts To 
Improve Airline Customer Service,'' April 11, 2007.
---------------------------------------------------------------------------
Airline Contingency Plans Are Still Not Adequate To Handle Long, On 
        Board Delays
    Our recent review examined the actions taken by each airline to 
clarify terms relating to customers' essential needs during long, on-
board delays and found the following:

  <bullet> Five of the 13 airlines still had not clearly and 
        consistently defined terms in the Commitment provision, such as 
        ``an extended period of time'' for meeting customers' essential 
        needs during long, on-board delays.

  <bullet> Of the eight airlines that have defined ``an extended period 
        of time,'' the trigger thresholds for meeting passengers' 
        essential needs vary from 1 to 3 hours. We think it is unlikely 
        that passengers' definition of an extended period of time will 
        vary depending upon which airline they are flying. A consistent 
        policy across the airlines would be helpful to passengers.

    Also, 8 of the 13 airlines have now set a time limit on delay 
durations before deplaning passengers but 5 still have not.
    Given the extended ground delays that stranded passengers onboard 
aircraft this past winter, all airlines should specify in detail the 
efforts that will be made to get passengers off the aircraft when 
delayed for extended periods, either before departure or after arrival.
Airlines Must Resume Efforts To Self-Audit Their Customer Service Plans
    In our 2001 report, we recommended, and the ATA airlines agreed, 
that the airlines establish quality assurance and performance 
measurement systems and conduct internal audits to measure compliance 
with the Commitment provisions and customer service plans.
    In June 2001, we confirmed that 12 of the 14 ATA airlines that were 
signatories to the Commitment had established and implemented their 
quality assurance and performance measurement systems. In our 2006 
review,\11\ however, we found that the quality assurance and 
performance measurement systems were being implemented at just five of 
the ATA airlines. The other ATA airlines had either discontinued their 
systems after September 11, 2001, or combined them with operations or 
financial performance reviews where the Commitment provisions were 
overshadowed by those issues.
---------------------------------------------------------------------------
    \11\ OIG Report Number AV-2007-012, ``Follow-Up Review: Performance 
of U.S. Airlines in Implementing Selected Provisions of the Airline 
Customer Service Commitment,'' November 21, 2006.
---------------------------------------------------------------------------
    The key to the success of the airlines' new policies designed to 
prevent long, onboard delays is for each airline to (1) have a credible 
tracking system for compliance with its new policy and with all other 
Commitment provisions and (2) implement its customer service plan, 
reinforcing it with performance goals and measures.
    These systems and audit procedures will also help DOT to more 
efficiently review the airlines' compliance with the Commitment 
provisions and ensure that airlines comply with their policies 
governing long, on-board delays, especially in the event that health 
and safety hazards arise from such delays.
Airport Operators Must Become More Involved in Contingency Planning for 
        Extraordinary Flight Disruptions
    In addition to examining airline contingency plans for mitigating 
long, on-board delays as requested, we also examined contingency plans 
from selected major airports nationwide. We requested contingency plans 
from 13 airports (including 12 hub airports). We received plans or 
responses from the 13 airports and found the following:

  <bullet> Only two airports have a process for monitoring and 
        mitigating long, onboard delays that involves contacting the 
        airline to request a plan of action after an aircraft has 
        remained on the tarmac for 2 hours.

  <bullet> Airports intervene only upon an airline's request primarily 
        because they do not have the authority to interfere with a 
        carrier's operations during long, on-board delays.

  <bullet> Most plans address assisting airlines, when assistance is 
        requested, during long, on-board delays. This includes 
        providing gates for deplaning passengers or, when a gate is not 
        available; deplaning passengers using mobile air stairs; 
        loading passengers onto buses; and returning to the terminal.

    Based on discussions with airport, airline, and FAA personnel, it 
appears that in the recent incidents that stranded passengers for 
extraordinarily long periods, there was not a coordinated effort by the 
airlines, airport operators, and FAA to deal with such events.
    In our opinion, airport operators need to become more involved in 
contingency planning for extraordinary flight disruptions, including 
long, on-board delays during extreme weather or any other disruptive 
event. Airports are public agencies heavily supported by public funding 
and should ensure that passengers' essential needs are met and prevent 
long, on-board delays to the extent possible. As recipients of Federal 
funds for airport improvement projects, airports have an obligation to 
increase airport efficiency, decrease delays, and transport passengers 
in the most efficient manner.
    Also, air travelers can still choose which connecting airport to 
fly through to get to their final destinations or take direct flights 
to avoid chronically delayed airports all together. If certain airports 
continue to maintain a reputation for long flight and tarmac delays, 
passengers may simply choose other airports whenever possible.
    In our view, large- and medium-hub airport operators should 
establish and implement a process for monitoring and mitigating long, 
onboard delays that involves contacting the airline to request a plan 
of action after an aircraft has remained for 2 hours on the tarmac. 
Absent any airline policy, the airport operators should work with 
airlines to establish policies for deplaning passengers and ensure that 
these policies are adhered to.
There Are Best Practices and Ongoing Initiatives That, if Properly 
        Executed, Should Help in Mitigating Long, On-Board Delays in 
        the 
        Immediate Term
    Secretary Peters asked that we highlight some of the best practices 
we found that could help in dealing with long, onboard delays. During 
our review of selected airlines and airports, we found several 
practices by some airlines and airports to mitigate the effects of 
these occurrences. Also, after our review began, some airports moved 
forward with other initiatives meant to assist the airlines in dealing 
with long, on-board delays. In addition, ATA announced on February 22, 
2007, a new initiative for dealing with such situations. FAA also 
expanded an existing initiative this summer to other parts of the 
National Airspace System to reduce the amount of time that flights sit 
on tarmacs waiting to depart. We have included these actions along with 
best practices identified during our review to provide an overall 
picture of the actions being taken across the industry that relate to 
the Secretary's concerns.
    While it is too soon to evaluate the effectiveness of these ongoing 
initiatives, they all have merit and, if properly executed, should help 
in mitigating long, on-board delays in the immediate term.
Airlines' and Airports' Best Practices and Ongoing Initiatives
    Best Practices: The best practices we identified during our review 
are not all inclusive, and the airlines or airports should consider 
incorporating them into their ongoing operations, especially the best 
practice of setting the maximum amount of time that passengers will 
remain onboard aircraft before deplaning. However, in our opinion, a 
more comprehensive national plan of action is needed to prevent and 
mitigate long, onboard delays, which should involve collaboration and 
coordination among the airlines, airports, FAA, and DOT. These 
practices include the following:

  <bullet> Setting the maximum amount of time that passengers will 
        remain onboard aircraft before deplaning them. For example, an 
        airline at one airport it services has a 1 hour policy that was 
        executed effectively during the December 29, 2006, incidents. 
        On that day, the airline had a record 11 diversions into 1 
        airport with the longest on-board delay lasting about 90 
        minutes.

  <bullet> ``Intelligent canceling''--canceling flights most likely to 
        be affected by the weather event without being too optimistic 
        or pessimistic. Pre-canceling flights before the passengers 
        leave home keeps them away from the airport, thus reducing 
        passenger congestion at the airlines' check-in counters and 
        gate areas. There are trade-offs when implementing this 
        practice--passengers avoid experiencing long, on-board delays, 
        but they need to be re-accommodated on later flights, 
        preferably that same day. However, reduced capacity and higher 
        load factors can result in increased passenger inconvenience 
        and dissatisfaction with customer service. With more seats 
        filled, air carriers have fewer options to accommodate 
        passengers from canceled flights.

  <bullet> Keeping gate space available for off-loading passengers in 
        times of irregular operations. This could be done by the 
        airport authority or the carriers. The gate would be available 
        for arrival aircraft and used solely for deplaning passengers.

  <bullet> Implementing programs that provide volunteers from 
        throughout the airline's system that are flown or driven to the 
        destination needing assistance. These volunteers (i.e., 
        customer service agents) act as additional help during 
        irregular operations. The goal of the agents would be to 
        separate and service passengers needing to be rebooked from 
        those passengers arriving at the airport already ticketed for 
        on-time flights or non-canceled, operating flights.

  <bullet> Implementing flexible staffing arrangements and periodic 
        duty rotations to meet the challenges during irregular 
        operations. For example, certain non-customer service employees 
        have been cross-trained to assist in re-booking passengers 
        whose flights have been canceled.

  <bullet> Holding teleconferences before a known weather event (e.g., 
        winter storm, hurricane, tropical depression, etc.) with 
        possibly affected airports' general managers. In addition to 
        asking for recommendations from the general managers, they 
        discuss the status of snow removal equipment, liquid de-icing 
        amounts and availability, staffing, and possible scheduled 
        operation (aircraft and passenger) reductions. Similar meetings 
        are already held between FAA and airlines.

  <bullet> Using the Aircraft Communication Addressing and Reporting 
        System (equipped on most commercial aircraft) to send a message 
        to the airlines' Operations Control Center notifying it that 
        the aircraft has been away from gate for more than 3 hours 
        without departing.

  <bullet> Constantly monitoring aircraft on the tarmac; in cases of 
        aircraft remaining for more than 2 hours, airport staff will 
        contact the appropriate airline manager to coordinate the 
        aircraft's return to a gate. If necessary, airport staff will 
        assist in deplaning an aircraft and will provide an escort, 
        buses, and mobile stairs. Finally, staff will ensure that 
        airport services (e.g., concessions, security, and ground 
        transportation) remain open during an irregular operation.

    Airports' Ongoing Initiatives To Address Long, On-Board Delays: 
During our review, two major airport operators put forth initiatives to 
address long, onboard delays. The Port Authority of New York and New 
Jersey set up a task force to find ways to reduce flight delays at the 
region's three main airports. The Port Authority; which operates JFK, 
LaGuardia, and Newark Liberty International Airports; leads the group. 
The task force includes airline executives and Federal, state, and city 
government officials.
    The task force convened its first meeting July 18, 2007, with 42 
airline executives and Federal, state, and city government officials 
attending, including then FAA Administrator Blakey. The task force met 
a second time on September 18, and another meeting is scheduled for 
November 2007; conference calls are planned to occur periodically. The 
task force plans to issue a report by the end of 2007.
    The task force is addressing two main areas--technical issues and 
customer service. In the technical area, the Port Authority and FAA are 
working on procedural improvements, such as more efficient use of the 
runways at JFK. Also, work is being delegated to the airlines that are 
looking into ways the airports could be changed to reduce flight 
delays. In the customer service area, the focus is on identifying best 
methods for getting passengers off aircraft and enhancements for 
reducing the amount of time they are kept on aircraft.
    Hartsfield-Jackson Atlanta International Airport is moving forward 
with a plan to cut gate delays for arriving passengers by busing people 
from planes directly to concourses when airline gates are full. The 
City of Atlanta, which operates the airport, approved a $2.5 million 
proposal for 4 new buses that can transport about 80 passengers and 
their carry-on luggage. The plan also includes sets of mobile stairways 
that allow passengers to leave planes and another vehicle to help 
disabled passengers. Airlines requesting the service will reimburse the 
city for the use of the buses.
    It is encouraging to see that some airport operators are becoming 
more involved in mitigating long, on-board delays. However, as 
passenger traffic continues to grow, airports will need to become more 
proactive in dealing with long, on-board delays, especially those 
airports with limited airfield or gate capacity. Airports will also 
need to proactively deal with in-terminal delays when multiple flights 
are canceled and passengers are stranded in the gate areas where 
terminal capacity could be limited.
ATA Initiative To Address Long, On-Board Delays
    On February 22, 2007, ATA announced an initiative for dealing with 
long, onboard delays and proposed the following course of action:

  <bullet> Each airline will continue to review and update its policies 
        to ensure the safety, security, and comfort of customers.

  <bullet> Each airline will work with FAA to allow long-delayed 
        flights to return to terminals in order to off-load passengers 
        who choose to disembark without losing that flight's position 
        in the departure sequence.

  <bullet> ATA will ask the Department to review airline and airport 
        emergency contingency plans to ensure that the plans 
        effectively address weather emergencies in a coordinated manner 
        and provide passengers with essential needs (i.e., food, water, 
        lavatory facilities, and medical services).

  <bullet> ATA will ask the Department to promptly convene a meeting of 
        air carrier, airport, and FAA representatives to discuss 
        procedures to better respond to weather emergencies that result 
        in lengthy flight delays.

    While we understand the current pressures that ATA and its member 
airlines face in maintaining profitability, we are concerned that the 
actions proposed merely shift responsibility from ATA to the 
Department. We agree that the Department must be an active partner, but 
ATA's proposed course of action is not significantly different than 
what the airlines agreed to do in response to our 2001 recommendations, 
such as ``to establish a task force to coordinate and develop 
contingency plans with local airports and FAA to deal with lengthy 
delays.''
FAA's Expanded Program To Reduce Flight Delays
    In preparing for this summer's peak season, FAA expanded an air 
traffic program that reduces flight delays. The Airspace Flow Program, 
as it is known, gives airlines the option of either accepting delays 
for flights scheduled to fly through storms or flying longer routes to 
safely maneuver around them.
    The Agency successfully launched the program last year at seven 
locations in the Northeast. According to FAA, on bad weather days at 
major airports in the region, delays fell by 9 percent compared to the 
year before. Cost savings for the airlines and the flying public from 
the program were estimated to be $100 million annually. The number of 
Airspace Flow Program locations--chosen for their combination of heavy 
traffic and frequent bad weather--was expanded from 7 to 18. The 
additional locations will ease delays for passengers flying through the 
southern and midwestern United States and for those on transcontinental 
flights.
    Before last year, severe storms often forced FAA to ground flights 
at affected airports. This ``penalized'' flights whose scheduled paths 
would have taken them around the storm had they not been grounded with 
the flights directly affected by the storms. This program allows FAA to 
manage traffic fairly and efficiently by identifying only those flights 
scheduled to fly through storms and giving them estimated departure 
times. Airspace Flow Programs will also be used in conditions not 
related to weather, such as severe congestion near major cities.
DOT, FAA, Airlines, and Airports Should Complete Actions on Outstanding 
        Recommendations To Improve Airline Customer Service and 
        Minimize Long, On-Board Delays
    Given the events of this past winter, DOT should take a more active 
role in overseeing customer service issues, and there are actions that 
it, the airlines, and airports can undertake immediately to do so. Many 
of the actions are not new and date back to recommendations in our 2001 
report, which were directed at delay and cancellation problems--key 
drivers of customer dissatisfaction with airlines. These 
recommendations are listed below.
    Conduct incident investigations involving long, on-board delays. 
Based on the results of our review, the Department's Office of General 
Counsel--in collaboration with FAA, airlines, and airports--should 
review incidents involving long, on-board ground delays and their 
causes; identify trends and patterns of such events; and implement 
workable solutions for mitigating extraordinary flight disruptions.
    Oversee the airlines' policies for dealing with long, on-board 
delays. The Office of Aviation Enforcement and Proceedings should 
ensure that airlines comply with their policies governing long, onboard 
delays, especially in the event that health and safety hazards arise 
from such delays, and advise Congress if the airlines retreat from the 
Commitment provisions or dilute the language in the current contracts 
of carriage.
    Implement the necessary changes in the airlines' on-time 
performance reporting to capture all long, on-board delays. Delay 
statistics (see statistics in the table on page 15) do not accurately 
portray the magnitude of long, on-board delays because (1) if a flight 
taxies out, sits for hours, and then taxies back in and is canceled, 
the delay is not recorded; and (2) if a flight is diverted to an 
airport other than the destination airport and sits on the tarmac for 
an extended period of time, the flight is not recorded in delay 
statistics.
    Carriers are not required to report gate departure times when a 
flight is later canceled. So, there is no record of how long a flight 
remains at the gate or sits on the tarmac before it is canceled. This 
is true for flights with lengthy delays at the originating airport that 
are later canceled. This was the case with some JetBlue flights at JFK 
on February 14, 2007, and at airports where flights were diverted and 
then canceled, such as some of the American flights diverted to Austin 
on December 29, 2006.
    BTS is looking into whether changes are needed in how the airlines 
record long, on-board delays. BTS should make this a priority and 
implement the necessary changes in the airlines' on-time performance 
reporting requirements to capture all events resulting in long, onboard 
delays, such as flight diversions and cancellations.
    Clarify terms in airlines' contingency plans. Those airlines who 
have not already done so must: (1) define what constitutes an 
``extended period of time'' for meeting passengers' essential needs; 
(2) set a time limit on delay durations before deplaning passengers; 
and (3) incorporate such policies in their contracts of carriage and 
post them on their Internet sites.
    Establish specific targets for reducing chronically delayed or 
canceled flights. In 2001, we recommended that the airlines establish 
in the Commitment and in their Customer Service Plans targets for 
reducing the number of flights that have been chronically delayed 
(i.e., 30 minutes or longer) or canceled 40 percent or more of the 
time.
    In response to our recommendation, the airlines stated they were 
``willing to accept the challenge of reducing chronically delayed or 
canceled flights, for factors we can control, in order to relieve 
unneeded and unwanted passenger frustration.'' However, there were no 
actions identified on how or when the airlines would go about 
establishing targets for reducing the number of flights that have been 
chronically delayed. After September 11, 2001, the airlines' focus 
shifted, but the problem has returned and must be resolved.
    Disclose on-time flight performance. We recommended in our 2001 
report that the airlines disclose to customers at the time of booking 
and without being asked the prior month's on-time performance rate for 
those flights that have been delayed (i.e., 30 minutes or longer) or 
canceled 40 percent or more of the time. Currently, the airlines are 
required to disclose on-time performance only upon request from the 
customer.
    The ATA airlines disagreed with this recommendation and, as an 
alternative, agreed to make on-time performance data accessible to 
customers on the airlines' Internet sites, on a link to the BTS 
Internet site, or through toll-free telephone reservation systems.
    However, we found in 2006 that only 5 of the 16 airlines we 
reviewed made on-time performance data available on their Internet 
sites. Given the ease of availability of this information to the 
airlines, we continue to recommend that the airlines post on-time 
flight performance information on their Internet sites and make it 
available through their telephone reservation systems without being 
prompted.
    Resume efforts to self-audit customer service plans. Also, in our 
2001 report, we recommended, and the ATA airlines agreed, that the 
airlines establish quality assurance and performance measurement 
systems and conduct internal audits to measure compliance with the 
Commitment provisions and customer service plans.
    These systems and audit procedures will also help DOT to more 
efficiently review the airlines' compliance with the Commitment 
provisions and ensure that airlines comply with their policies 
governing long, on-board delays, especially in the event that health 
and safety hazards arise from such delays.
    Reconvene the task force. In response to our 2001 report 
recommendations, the airlines agreed to establish a task force of 
representatives from airlines, airports, and FAA to develop and 
coordinate contingency plans to deal with lengthy delays, such as 
working with carriers and the airports to share facilities and make 
gates available in an emergency. Although the airlines formed a task 
force, the effort never materialized as priorities shifted after 
September 11, 2001. Now is the time for airlines to reconvene the task 
force and develop and coordinate contingency plans with local airports 
and FAA to deal with lengthy delays.
    Implement processes for monitoring lengthy delays. Large- and 
medium-hub airport operators should establish and implement a process 
for monitoring and mitigating long, onboard delays that involves 
contacting the airline to request a plan of action after an aircraft 
has remained on the tarmac for 2 hours. As part of the plan, the 
airport operators need to work with the airlines to ensure that the 
airlines' deplaning policies are adhered to. Absent any airline policy, 
the airport operators should work with airlines to establish policies 
for deplaning passengers and ensure that these policies are adhered to.
    The busy holiday travel season will soon be upon us, and the extent 
to which delays; including long, on-board delays and cancellations; 
will affect passengers in the remainder of 2007 and beyond will depend 
upon how DOT, FAA, airlines, and airports coordinate their efforts to 
avoid a repeat of the events of this past winter and current 2007 
events.
    That concludes my statement. I would be glad to answer any 
questions that you or other members of the Subcommittee might have.

    Senator Rockefeller. Thank you, sir.
    Mr. Reding?

   STATEMENT OF ROBERT W. REDING, EXECUTIVE VICE PRESIDENT--
                 OPERATIONS, AMERICAN AIRLINES

    Mr. Reding. Good morning, Mr. Chairman and members of the 
Subcommittee.
    This morning, I'd like to focus on current efforts to 
reduce delays, the critical need for investment in the next-
generation satellite-based air traffic control technology, 
known as NextGen, and the changes we, at American, have made to 
improve our service to customers when they experience delays.
    At the outset, though, let me simply say that no one has 
articulated more effectively the urgent need for NextGen, and 
the importance of a truly fair and stable funding stream to 
support it, than has the Subcommittee. American greatly 
appreciates your tireless leadership in this area.
    As the head of operations for our Nation's largest airline, 
let me assure you that neither we, at American, other ATA 
carriers, nor the FAA is simply waiting for NextGen to 
eventually come along and solve all of our problems. We are 
doing tangible things to--not only to reduce delays, but to 
improve our customer service during them. In our view, one of 
the most important efforts underway to reduce delays today is 
the FAA's plan to mitigate the complexity of the current air 
traffic flow in the New York airspace. American strongly 
supports FAA's efforts, and believes that they will bring 
benefits elsewhere. Indeed, delays at the New York area 
airports frequently ripple throughout the entire country.
    For our part, American has undertaken several initiatives 
to improve our operations, reduce delays, and enhance our 
customer service.
    In terms of scheduling, American has actually reduced 
capacity in our domestic system over the past few years, and 
agreed, in discussions with the FAA, to cut over 13 percent of 
our schedule at Chicago O'Hare. These efforts, as well as not 
adding capacity to delay flights at JFK International Airport 
as a significant attempt by American to mitigate delays caused 
by scheduling more flights than today's ATC system can handle.
    In addition, our key hubs in Dallas/Fort Worth and Chicago, 
we have also spread flights more evenly throughout the day to 
alleviate certain chokepoints.
    Finally, we recently decided to add 5 to 7 minutes of 
ground time, which gives late flights a better chance to catch 
up, and keeps fewer planes sitting as they wait for open gates.
    Without question, this year has been a challenging one for 
all airlines, their passengers, and employees, and in 
particular at American, where we've experienced severe weather 
beyond anything we have seen in decades, leading to a well-
publicized tarmac delay, while December thunderstorms in Texas 
were virtually unknown until last year.
    Let me assure you that I'm not here today to blame the 
weather. Working with our employee groups, we are focusing on 
six priorities. These include how we manage delays and how are 
employees communicate and interact with customers. 
Additionally, in the event of weather or other delays which 
require us to take our operations off schedule, we now have, at 
our Systems Ops Control Center, a diversion coordinator who 
keeps up with diverted flights. We've developed software to 
track these diversions by city and flight, and it alerts the 
coordinator when a flight approaches certain time limits on the 
ground.
    In addition to our customer service plan, American has 
implemented new guidelines intended to prevent extraordinarily 
long ground delays for our customers. Our policy is that 
passengers aboard airplanes on the ground for more than 4 hours 
will be provided an opportunity to disembark if it is safe to 
do so. If we are unable to provide an opportunity to disembark, 
these flights will have a priority in getting to a gate. And, 
unfortunately, generally it's an option that most likely will 
result in a flight's cancellation.
    In the end, however, while American and others in the 
industry have implemented numerous customer service changes on 
the ground, we still have major issues in the air, as you all 
well know.
    The bottom line is that there is not much we can do once an 
aircraft leaves the gate and enters onto a taxiway. At that 
point, we come under the control of the antiquated air traffic 
control system. As a result, I cannot emphasize enough the 
urgent need for implementation of a satellite-based ATC system 
utilizing RNAV/RNP procedures and further developing the 
Automatic Dependence Surveillance-Broadcast system known as 
ADS-B. In particular, RNAV/RNP technology has shown great 
success at airports where it's been deployed. At a limited 
number of airports, we've been able to safely allocate existing 
airspace much more efficiently due to the flexibility that 
RNAV/RNP procedures can provide. We support expanding the 
number of airports using that system as quickly as possible.
    We, at American, are ready to go with respect to RNAV/RNP. 
All of our jets are equipped with RNAV systems, 70 percent with 
RNP, and we plan to equip the rest of the fleet. We would hope 
that all airlines follow suit, if they have not already done 
so.
    Over the long term, such a commitment by all users of the 
high-altitude and high-density airspace to a redesigned and 
modernized air traffic control system will be essential in 
order to make the country's airline industry the dependable, 
efficient, mass-transportation system that we all expect there 
to be.
    Thank you. That concludes my remarks. I'll be available for 
any questions.
    [Laughter.]
    [The prepared statement of Mr. Reding follows:]

   Prepared Statement of Robert W. Reding, Executive Vice President--
                     Operations, American Airlines
    Good morning, Chairman Rockefeller, Ranking Member Lott, and 
members of the Subcommittee. My name is Bob Reding and I am Executive 
Vice President of Operations for American Airlines. I have 
responsibility for all airport, flight and maintenance operations as 
well as the operational planning, safety, security and environmental 
departments for the airline.
    This morning I would like to focus on our current efforts to reduce 
delays, the critical need for investment in the next generation, 
satellite-based air traffic control technology (known as NextGen), and 
the changes we at American have made to improve our service to 
customers when they experience delays. At the outset though, let me 
simply say that no one has articulated more effectively the urgent need 
for NextGen and the importance of a truly fair, stable funding stream 
to support it, than has this Subcommittee. American greatly appreciates 
your tireless leadership in this area.
    As the head of operations for the Nation's largest airline, let me 
assure you that neither we at American, the ATA carriers, or the FAA is 
simply waiting for NextGen to eventually come along and solve all of 
our problems. We are taking tangible steps today to not only reduce 
delays, but to improve our customer service during delays.
    In our view, one of the most important efforts underway to reduce 
delays today is the FAA's plan to mitigate the complexity of the 
current air traffic flow in the New York/New Jersey/Philadelphia 
airspace. American strongly supports FAA's efforts and believes that 
they will bring significant relief to air travelers not only in the 
Northeast but throughout the country. Indeed, delays at the New York-
area airports frequently ripple throughout the entire country. FAA 
estimates that it can reduce delays nationwide by 20 percent by the 
year 2011 by redesigning the air traffic routings in the Northeast 
corridor.
    In addition, American has undertaken several initiatives to improve 
our operations, reduce delays, and enhance our customer service 
efforts. Organizationally, we announced last week executive leadership 
changes with the explicit goal of better aligning our technical 
operations with our airport services. My expectation is that these 
changes will foster greater collaboration and cooperation within the 
company's key operational departments, improving our operational 
reliability and customer service.
    In terms of scheduling, American has actually reduced capacity in 
our domestic system over the past few years and agreed in discussions 
with the FAA to cut over 13 percent of our schedule at Chicago O'Hare. 
These efforts, as well as not adding capacity to delay-plagued JFK 
International Airport, are a significant attempt by American to 
mitigate delays caused by scheduling more flights than today's ATC 
system can handle.
    In addition, at our key hubs in Dallas/Fort Worth and Chicago, we 
have also spread flights more evenly throughout the day, effectively 
``depeaked'' our operations, to alleviate certain chokepoints during 
the day. Finally, we recently decided to add five to 7 minutes of 
ground time, which gives late flights a better chance to catch up and 
keeps fewer planes sitting as they wait for open gates. American, who 
has retained 91 percent of its maintenance in house, is also focusing 
on its maintenance practices to ensure that aircraft get maintained and 
repaired on-time and in position for their scheduled flying.
    Without question, this year has been a challenging one for all 
airlines, their passengers and employees. That's been particularly true 
at American, where we have experienced severe weather beyond anything 
we have seen in decades, leading to a well-publicized tarmac delay. 
While December thunderstorms in Texas were virtually unknown until last 
year, let me assure you that I am not here today to blame the weather.
    Back in 1999, American Airlines and its regional affiliate, 
American Eagle, adopted a Customer Service Plan that is available to 
the public on our website. We do our best every day to abide by that 
plan. This plan provides that during long ground delays we make 
reasonable efforts to ensure that our customer's ``essential needs''--
that is, food, water, lavatory facilities, medical attention, etc.--are 
met. Each airport has a plan with specific procedures to meet these 
essential needs.
    That said, American Airlines has learned a great deal from this 
past year's operational and customer service challenges and has taken 
additional actions. Even before the extreme weather from late December 
through July came along, we had launched a grassroots effort within our 
company to come up with common-sense approaches to ensure we do our 
best to deliver excellent customer service.
    Working with our employee groups, we are focusing on six key areas 
of priority aimed at improving the customer experience at every point 
along the way.
    The six key areas include:

  <bullet> Delays and how we manage them.

  <bullet> Enhanced communication of delay information to our 
        customers.

  <bullet> Gate interactions and the boarding experience.

  <bullet> Flight and cabin crew interaction with our customers.

  <bullet> Cabin interior condition.

  <bullet> Baggage handling and resolution.

    Task forces within the airline are examining all of these strategic 
areas. Upcoming changes include blocking seats in key markets on peak 
holiday travel dates so we can use them to re-accommodate passengers 
whose flights are delayed or canceled. We are programming our computer 
system to recognize when a connecting passenger is not going to make 
the connection so his or her seat can be provided to other travelers. 
We are adding self service machines on the secure side of the terminal 
to make it more convenient for the customer to obtain a new boarding 
pass. As part of our enhanced communications efforts, we are using 
electronic displays at gates and even some airport TVs to inform the 
customer of weather changes. To ensure that our employees can 
successfully handle weather-diverted flights, we are providing our 
diversion-designated airports with appropriate ground service equipment 
to handle aircraft types that would not normally transit that station.
    Additionally, in the event of weather or other delays which require 
us to take our operations off schedule, we now have at our System 
Operations Control Center a diversion coordinator who keeps up with 
diverted flights and how long they have been on the ground in the 
diversion city. Finally, we have also developed new processes in 
coordination with the FAA to monitor the status of our diverted flights 
and ensure that these flights have increased priority for return to 
their original destination.
    In addition to the Customer Service Plan, American has implemented 
a new guideline intended to prevent extraordinarily long ground delays 
for our customers. Our policy is that passengers aboard airplanes on 
the ground for more than 4 hours will be provided an opportunity to 
disembark, if it is safe to do so. If we are unable to provide our 
customers an opportunity to disembark, these flights will have a 
priority in getting to a gate for deplanement, but it will most likely 
result in that flight's cancellation due to operational constraints 
such as crew legalities.
    We still need closer coordination with air traffic control in these 
off-schedule-operations so an aircraft diverted to another city due to 
bad weather is not penalized if it must return to a gate. Today, they 
must go to the end of the line for take-off, after disembarking 
passengers at a gate, even though they may have been on the taxiway the 
longest time awaiting ATC take-off clearance.
    In the end however, while American Airlines and others in the 
industry have implemented numerous customer service changes on the 
ground, we still have major issues in the air, as you well know. The 
bottom line is that there is not much we can do once an aircraft leaves 
the gate and enters onto the taxiway. At that point, we come under the 
control of an antiquated air traffic control system. As a result, I 
cannot emphasize enough the urgent need for implementation of a 
satellite-based ATC system. The technology exists and we must harness 
it and put it to effective use.
    In particular RNAV/RNP technology has shown great success at 
airports where it has been deployed. At a limited number of airports, 
we have been able to safely allocate existing airspace much more 
efficiently due to the flexibility that RNAV/RNP procedures can 
provide. We support expanding the number of airports using that system 
as quickly as possible.
    Another critical tool in development is a fully Automatic Dependent 
Surveillance-Broadcast System, also known as ADS-B, which will increase 
situational awareness for the pilot and allow pilots to make real-time 
decisions regarding traffic separation, leading to enhanced safety and 
efficiency.
    RNAV/RNP is a critical component to NextGen, and we at American are 
ready to go. All of our jets are RNAV capable and 70 percent already 
have RNP equipment installed with plans for every aircraft in 
American's fleet to become RNP equipped. We would hope that all 
airlines follow suit if they have not already done so. Over the long 
term, such a commitment to a redesigned and modernized air traffic 
control system by all users of the high altitude and high density 
airspace will be essential in order to make this country's airline 
industry the dependable, efficient mass transportation system that we 
all expect it to be.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions that you or Members of the Subcommittee may have.

    Senator Rockefeller. Thank you very much, Mr. Reding.
    Let me just say that--to the witnesses--that we will not 
have a chance to, obviously, ask all of our questions, so we'll 
submit them to you. And that's just as important to us, because 
we get those and read them. And I should also point out to my 
colleagues that they have 10 days in which to submit those 
questions.
    Captain Kolshak?

  STATEMENT OF CAPTAIN JOE KOLSHAK, EXECUTIVE VICE PRESIDENT--
               OPERATIONS, DELTA AIR LINES, INC.

    Mr. Kolshak. Mr. Chairman, Vice Chairman, and members of 
the Aviation Subcommittee, I'm pleased to be here today to 
offer Delta's views on the problem of airspace congestion and 
delays.
    On behalf of Delta employees and customers worldwide, I 
want to thank Senators Rockefeller and Lott for their 
leadership in pursuing the real solution to our congestion 
crisis; namely, funding, development, and implementation of the 
next-generation air traffic control system. We commend you for 
tackling this decades-long challenge.
    Congestion and delays have been with us for quite some 
time, but this year, as you know, they've reached a crisis 
point. Delays cost us more than $700 million a year. More 
importantly, our customers pay the price in lost time, 
inconvenience, and frustration. This summer's extreme delays 
and cancellations were concentrated in specific areas of the 
country, like the Northeast and the New York airports, that 
dramatically underperformed. The reasons are varied and 
complicated, and there is no silver-bullet solution. It will 
ultimately take aggressive use of available technology, 
collaborative planning, and better management and performance 
in using existing capacity.
    We all know that delays have increased in the New York 
area, and a prime driver is the lack of airspace. New York 
airports consistently fail to meet their published capacities. 
For example, the design capacity of JFK exceeds 100 operations 
per hour. However, this year even JFK, with four runways 
available, routinely only averaged 68 operations per hour. Mr. 
Chairman, we must make better use of both ground and airspace 
assets in New York. Demand has exploded in New York from every 
class of user, each of which places similar demands on the 
system. FAA data shows that commercial users accounted for only 
53 percent of New York TRACON activity. The remaining activity 
came from business jets and general aviation. Since 2000, 
business jets carrying few people have increased IFR operations 
by approximately 36 percent.
    In my written statement, I've outlined a number of 
initiatives that will help to reduce congestion in the short 
term. One such initiative that will yield major efficiency 
gains is expanded use of RNAV arrivals and departures, as 
mentioned by my colleague. With RNAV capacity, which most of 
today's commercial airlines have, virtually all navigational 
inaccuracy is removed, and aircraft are able to fly arrivals 
and departures and en route tracks with greater precision. 
Atlanta implemented RNAV arrivals 2 years ago, and positive 
results have been gained. We estimate that Delta will save, 
when fully implemented, over $30 million a year, and we've 
reduced delays by 3 to 5 minutes.
    Another thing that must be done is that DOT must appoint a 
czar at the FAA to lead the Northeast Congestion Initiative. As 
was done in South Florida when delays became severe 2 years 
ago, the results were phenomenal. Our arrival performance in 
South Florida improved 44 percent, and delays of over 90 
minutes dropped by 60 percent, year over year.
    But delay--but, despite our best efforts, delays will still 
occur. To mitigate their impact, Delta has very detailed and 
comprehensive plans in place to cancel flights in advance, 
rebook and notify passengers, and work with entities, like the 
Port Authority, to find gates for flights with extended delays.
    Mr. Chairman, we've taken the proper steps to minimize the 
impact of ATC delays and congestion on our customers. We urge 
the Committee to continue to allow carriers to develop 
procedures and commitments based on their unique customer and 
operational requirements.
    Thank you for the opportunity to address you personally on 
these very important issues. I'll be pleased to answer any 
questions you may have.
    [The prepared statement of Mr. Kolshak follows:]

 Prepared Statement of Captain Joe Kolshak, Executive Vice President--
                   Operations, Delta Air Lines, Inc.
    Mr. Chairman, Senator Lott and members of the Aviation Subcommittee 
it is a pleasure to appear before you today to offer Delta's views on 
the continuing problem of airspace congestion and the resulting impact 
on delays.
    First and foremost, on behalf of all Delta employees and customers 
worldwide I want to thank and commend Senators Rockefeller and Lott for 
your leadership and commitment toward addressing the real solution to 
our congestion crisis, namely the funding, development and 
implementation of a modern, NextGen Air Traffic Control System. We are 
indebted to you for tackling this decades-long challenge.
    As I was preparing for this opportunity to speak with you, I 
happened to find some material from as far back as 60 years ago that 
highlighted that the aviation community faced then some of the same 
problems we face today with our Air Traffic Control System today. In 
the 1946 Delta Manual for Employees, the ATC system was described as a 
``modern'' system of VORs, ILS approaches and analog-based radar. In 
over 60 years, little has changed with that system in spite of all the 
technological advances that have occurred. But even more appropriate to 
my testimony here today, I happened to find an article from the July 
26, 1968 issue of Time Magazine. Responding to reports of aircraft 
experiencing extended take-off, en-route and arrival delays of over 2 
hours in the Northeast, then-``Federal Aviation Deputy Administrator 
David D. Thomas laid the blame on congestion. Said he: `What has 
happened is that the airports, particularly in the New York area, are 
finally approaching saturation.' '' Finally, in a 1956 letter to Delta 
employees, one of my predecessors, Charlie Dolson, distributed a 
pamphlet that listed the problems with the ATC system at that time as 
being too complicated, too cumbersome, lacking flexibility, and lacking 
capacity. Also, among its recommendations for the future, it states 
that ``Those responsible for air traffic control planning must develop 
a new ATC system that will be able to efficiently handle today's 
traffic and be capable of expansion so that it will be fully adequate 
for the foreseeable future. . . . This is not quite as large an order 
as it may sound. A lot of the preliminary work has been done [and] the 
solutions for almost all ATC problems are known; practically no 
invention is needed.'' All this sounds painfully familiar five and six 
decades later.
    As you can gather from the quote above, congestion and delays have 
been with us for quite some time, but today, they have reached yet 
another crisis point in certain regions of the country and in 
particular, at certain airports. In those locations demand has once 
again outstripped capacity. For any airline, particularly for Delta, 
where we try each day to provide the best service possible despite 
current ATC issues, it is an untenable situation. The impact has been 
extremely costly to Delta and its customers. We estimate that delays 
cost our airline more than $700 million a year. More importantly our 
customers are paying the price with lost time, inconvenience, and ever-
increasing frustration, and the maddening part is that, unlike in 1968, 
the technology to relieve many of the causes is readily available.
    Let's be clear. Delays and congestion are our enemies, and we 
cannot be successful as a company or an industry if we do not strive to 
achieve best in class on-time and operational performance. Our 
customers both demand and deserve that level of service. This past 
summer's performance in New York and JFK in particular are totally 
unacceptable, and we are taking aggressive steps with airports and 
government agencies to address the situation.
    In our view, the unacceptable delay and cancellation rates for this 
summer--the highest in history--are primarily concentrated in specific 
regions of country like the northeast. As the largest operator in the 
New York area with 564 operations at the 3 principal airports--JFK, EWR 
and LGA--we saw a precipitous decline in on-time performance and 
increase in cancellations over the past year. When compared with other 
parts of our system, NY airports underperformed. The reasons are varied 
and complicated, but just as there is no one cause for the problem, 
likewise, there is no silver bullet for a solution. It is going to take 
outside-the-box thinking, aggressive use of available technology, and 
detailed planning by everyone involved first to mitigate the impact on 
our customers and eventually to solve the problem and allow for the 
inevitable future growth of our air transportation system.
    We have done a detailed analysis of JFK because delays at that 
airport reached record levels this past summer. Our capacity over the 
past 2 years has increased 20 percent--roughly the same increase as the 
second largest operator, JetBlue, and as other carriers that serve the 
airport. Each of us was responding to customer demand, and Delta's load 
factor performance during this period confirms that we are giving our 
customers the flights and destinations they desire.
    In Delta's case, our goal was to restore JFK to its status as the 
preeminent U.S. International gateway. We increased the number of 
international destinations by 65 percent from 20 to 33. And of those 33 
destinations, 21 are to unique markets like Mumbai, Moscow, Kiev, and 
Accra, that no other U.S. carrier serves. Our competition in those 
markets is primarily foreign flag carriers, and in order to be 
successful in those unique international markets, we must feed those 
services with connecting traffic from all across the U.S. since only 50 
percent of our traffic in those markets is local. This is where 
regional jets are essential, since they allow us to offer service to 
smaller communities like Portland, Buffalo and Norfolk. In the markets 
where we were initially forced to provide service with propeller-driven 
aircraft, we have aggressively substituted larger and faster regional 
jets and continue to upgauge to larger jets to reduce congestion and 
delays even further. Our goal remains to connect passengers 
conveniently in those communities with the larger gauge international 
and trans-continental flights serving the markets they desire.
What Is Causing Increase in Delays at JFK in NY Area?
    As I said before, there is no one single cause of the delays and 
congestion in New York, but a common structural issue for the 3 largest 
New York airports is lack of airspace. If one looks at FAA delay 
numbers, the data shows that delays have increased in the New York 
Terminal Radar Approach Control (TRACON) and New York Air Route Traffic 
Control Center (ARTCC) as well as the 3 main commercial airports. Most 
revealing is the sharp decline in the ability of those airports to meet 
their published capacities. In particular, during the period from 
January through May, 2007, for JFK--with 4 available runways--the FAA 
published an average capacity--or call rate--of 84 operations per hour, 
yet the airport averaged only 68 operations per hour. The design 
capacity of JFK is in excess of 100 operations per hour. For a 
comparison, the FAA published a call rate of 75 operations per hour and 
delivered 65 for New York's LaGuardia airport--with only 2 available 
runways, which cannot be used simultaneously. This trend continued 
throughout the summer as actual operations were generally 20 percent 
lower than the call or flow rate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There are many reasons for the lower flow rate. However, as a 
pilot, I noticed that the FAA routinely limited operations at JFK to 
only 2 of 4 runways. While weather is often a factor in reduced runway 
usage, there are many days where usable concrete sits idle while our 
passengers suffer from the resulting delays and congestion. We should 
not set artificial restrictions on operations until we are utilizing 
all available capacity at the airport.
    Mr. Chairman, having identified the under-utilization of ground 
capacity at JFK, we fully understand that the next barrier to reducing 
airport congestion in the Northeast is the efficient use of airspace 
routes in the New York terminal control area. Demand has exploded in 
the New York TRACON by every category of users, each with different 
aircraft-operating capabilities but placing similar demands on the ATC 
system. According to FAA data for July 2007, commercial users combined 
accounted for only 53 percent of NY TRACON activity. The remaining 
activity was filled with the increasing use of business jets and 
General Aviation aircraft. Since 2000, Business jets with limited 
capacity have increased IFR operations approximately 36 percent, and 
their demand on the airspace is in most cases equal to that of 
commercial airliners with hundreds of passengers onboard.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    No one is denying those aircraft the right to utilize the airspace 
and the ATC system. However, the current FAA funding system places the 
bulk of the monetary cost on commercial airline passengers, which is 
unfair. Business jets should not only pay their fair share of air 
traffic management costs, but they should also incur any restrictions 
that are imposed on commercial operators. In the absence of a long term 
solution requiring a more balanced funding mechanism for corporate 
users, the most effective short-term solution is to limit their access 
to the system, just as we have seen at LaGuardia, and as we are likely 
to see at JFK and Newark.
Near-Term Solutions
    In response to the past summer's delays, the industry, government 
and the Port Authority of New York/New Jersey are all collaborating to 
develop near term steps and plans to ensure that we do not have a 
reoccurrence next summer at JFK and in the New York area. It is 
important to recognize that the congestion problems are most severe 
during the summer peak season, so DOT and the operators must begin 
planning now for future peaks at JFK, LaGuardia, and Newark, as well as 
in the Terminal control area, which encompasses 15 airports including 
very large General Aviation facilities like Teterboro. Therefore, any 
near term solution must address the fundamental structural airspace 
problems that affect all operators using the TRACON airspace.
    The FAA recently released its final Environmental Impact Study for 
the redesign of the airspace in the Northeast. This is a long-overdue 
first step in opening up the airspace bottleneck over the Northeast. We 
will continue to work with the FAA to help facilitate timely 
implementation of the new routes.
    Delta and other carriers have put forth a series of specific 
recommendations to address the airspace concerns in the NY region. 
These include:

  <bullet> Accelerating the NY/NJ Airspace redesign Project.

  <bullet> Addressing the reduction in airport throughput (actual 
        operations falling short of the ``called'' rate).

  <bullet> Utilizing available technology to reduce spacing on final 
        approach.

  <bullet> Utilizing multiple runways at EWR and JFK.

  <bullet> Improving surface management (traffic flows between runways 
        and gates).

  <bullet> Expanding the use of Area Navigation (RNAV) procedures where 
        aircraft are able to fly tightly controlled routes.

  <bullet> Eliminating miles-in-trail departure restrictions to 
        airports greater than 500 miles away.

  <bullet> Utilizing ``capping'' and ``tunneling'' techniques to 
        expedite departures.

  <bullet> Realigning/relocating arrival, departure and overflight 
        routes to further facilitate deconfliction.

  <bullet> Creating new routes where practical.

  <bullet> Installing Omnidirectional Airport Lighting on selected 
        runways to aid arrival in hazy conditions.

    Let me briefly highlight two specific initiatives that Delta 
believes will pay large and immediate dividends. First, JFK is an 
airport that was designed to handle a large volume of traffic with an 
appropriate mix of large and small aircraft, commensurate with its 
international gateway status. It has four excellent runways that should 
be capable of handling 100 operations per hour in good weather. As I 
mentioned earlier, the flow rate over the summer often fell well short 
of the ``call rate,'' or level of operations the tower said it could 
handle on that day. The reason was that only two runways were being 
utilized. Fundamentally, any future FAA plans that address congestion 
at JFK must include consistent setting and publishing of operational 
flow rates that optimize ground capacity at the airport.
    The second area that could yield major efficiency gains is expanded 
use of RNAV arrivals and departures. RNAV allows aircraft to fly 
specific vertical and horizontal routes accurately. In the past, 
aircraft relied on less-accurate navigation sources that required 
increased spacing between aircraft due to what was then-acceptable 
navigational inaccuracy. With RNAV capability, which most of today's 
commercial airliners have, virtually all of that inaccuracy is removed 
and aircraft can fly arrivals, departures, and en-route tracks with 
precision. The Atlanta airport implemented RNAV arrivals over 2 years 
ago and the results have been significant. The program, combined with 
other airport improvements, is expected to save Delta approximately $30 
million per year and has reduced delays on average between 2.6 to 4.5 
minutes per departure. This program should be implemented at JFK next 
summer.
    In taking steps in the near term to develop the right solutions, 
FAA should use demand management or rationing only after all other 
available capacity enhancements are in place, and then still only as a 
last resort. We believe a broad range of cooperative steps by the 
operators, including voluntary schedule reductions during peak periods, 
will produce real improvements.
    Delta has already announced plans to ensure we reduce operations 
during the most congested peak periods of the day at JFK next summer, 
but we need the cooperation of other carriers--both foreign and 
domestic--to ensure those operations are not simply backfilled. We 
applaud DOT/FAA for taking the initial step of requiring all carriers 
to submit their schedules for next summer to determine demand levels 
before making decisions about appropriate actions to reduce operations.
    In our view, theoretical concepts like congestion pricing or 
auctions will not push international flights out of JFK's peak hours. 
Instead, they will eventually harm consumers by increasing ticket 
prices. In addition, such pricing mechanisms will harm feeder flights 
from smaller communities by making them uneconomical. Simply put, we 
have to operate throughout the day and at peak hours to meet our 
international schedules, which are dominated by a system of 
international time slots.
    Finally, we believe DOT must appoint a ``czar'' to lead the 
Northeast congestion initiative. This was done in South Florida in 
recent years when delays became severe, and you can readily see the 
positive results. There needs to be one person accountable for boosting 
capacity who is empowered with broad authority to make decisions that 
address individual and regional issues.
Customer Impact
    Ultimately, the primary beneficiary of these improvements will be 
the consumer, who bears the brunt of extended tarmac or taxiway delays. 
We recognize, however, that unforeseen delays will occur, and to 
mitigate their impact Delta has implemented very detailed and 
comprehensive plans both at JFK and throughout our system. At JFK our 
plans include close coordination with the Port Authority of New York/
New Jersey (PANYNJ) to get inbound or outbound flights with extended 
ground delays to a gate. These plans are activated for all delays 
whether they involve extreme weather or other circumstances that lead 
to customer inconvenience.
    Consistent with our Customer Service Commitment adopted in 1999 and 
our internal Operations Control Center (OCC) procedures, Delta has 
enhanced its well-defined processes to ensure that extra provisions 
including adequate food and water, and servicing of lavatories, are 
made available to flights with ground delays or holds exceeding taxi 
time plus 1 hour. In addition, our OCC is notified of any lengthy delay 
and each such flight is closely monitored to promote timely 
communication with the flight crew and station to determine the best 
course of action for our customers, whether it be cancellation, a 
return to terminal, or continuation to destination. For any delay 
reaching 2 hours, Company Senior Executives are notified to inform them 
of the situation and enlist their involvement in the decision-making 
process. As the Chief of Operations, I personally receive these calls, 
and our OCC remains very proactive in making sure our customer's needs 
are met.
    At JFK, we hired an additional 500 front line personnel in the past 
year to ensure that we could better serve our customers needs as we 
grew our operation. We also implemented a plan to meet the needs of 
Delta customers stranded in our two terminals for extended periods due 
to excessive delays or cancellations. These included the purchase of 
extra cots, and preparations to ensure that customers are provided with 
water, snacks, soft-drinks, meal and hotel vouchers, and that all 
unaccompanied minors and elderly or disabled passengers receive special 
attention.
    Mr. Chairman, we have taken proper steps to minimize the impact on 
our customers who experience lengthy delays, missed connections, or 
cancellations due to ATC congestion. We urge the Committee to continue 
allowing the carriers the opportunity to develop procedures and 
commitments based upon their unique customer and operational 
requirements.
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to address you personally on these very important issues. I 
will be pleased to answer any questions you may have.

    Senator Rockefeller. Thank you, sir.
    Mr. Rowe? I failed to identify your airline at the 
beginning. You're Continental.

    STATEMENT OF ZANE ROWE, SENIOR VICE PRESIDENT, NETWORK 
                 STRATEGY, CONTINENTAL AIRLINES

    Mr. Rowe. Thank you. Good morning. My name is Zane Rowe and 
I am the Senior Vice President of Network Strategy for 
Continental Airlines.
    Scheduling an airline with a hub in Newark is a challenge. 
The experience that our passengers and employees endure every 
day in Newark is one of the reasons that we firmly believe that 
business as usual, as to the air traffic control system funding 
and structure, cannot continue.
    Today, we have an aging air traffic control system 
incapable of keeping up with the rising demand of air travel in 
this nation, and especially in the New Jersey and New York 
region. To address the delays that are the result of the aging 
air traffic control system, we must not acknowledge failure by 
mandating slots, caps, or congestion pricing. We must think 
rationally, like this Committee did when it passed its FAA 
reauthorization bill last May. As you have said, in the long 
run we have to modernize the ATC system and become satellite-
based.
    Satellite-based systems will significantly increase the 
capacity of our air traffic control system by more accurately 
pinpointing aircraft and allowing better use of airspace.
    Some argue that the only way to have a quick fix for the 
broken ATC system in the short run is to slot or cap certain 
airports. Slots are knee-jerk reactions to larger ATC problems. 
Even caps to limit growth should be used only as a last resort. 
The New Jersey/New York region has diverse and complex traffic. 
Commercial operations account for only a portion of this 
activity and any fix in the region must encompass all airports 
and all users, both corporate and commercial.
    The general view of those who propose slots is that 
commercial airlines are over-scheduled and this over-scheduling 
and can be fixed by limiting commercial airline flights at 
congested airports. In reality those who favor slotting are 
simply suggesting that we penalize small communities' aviation 
employees and adversely impact economic growth. Slots may 
prevent further flights from being scheduled, but they do not 
promote jobs and commerce, and they do not encourage anyone in 
or out of government to find a solution to the root cause of 
delays.
    Those in search of a quick fix to congestion and delays 
have also proposed congestion pricing as a possible solution, 
in the form of a cost penalty. Congestion pricing is when a fee 
is charged in exchange for access to an airport during a 
specific hour. In theory, the congestion fee will alter airline 
behavior by making it more expensive to fly during peak times, 
the very times passengers demand air travel.
    Continental has already de-peaked its schedule at Newark 
Liberty and, as I submitted in my written testimony, we have 
maintained total airport operations below the published FAA 
level. Newark has fewer flights today than it did ten years 
ago. There is no over-scheduling, and yet, it is consistently 
the most delayed airport in the country.
    The good news is that some relief is possible even in the 
short term. After ten long years, Airspace Redesign, if not 
stopped by Congress, will result in some improvement as early 
as next year. It has been 20 years since the airspace in the 
New Jersey/New York region was redesigned; and, in that time 
the use of corporate jets has risen significantly.
    I have attached to my written testimony a number of 
procedural and software enhancements that are being utilized at 
some other airports around the country which can add capacity 
at Newark and in the region. Many of these enhancements could 
be in place in a matter of months.
    Clearly, we need to explore and move quickly on the many 
operational tools available to us at each individual airport, 
and in the region, as a whole. We must prioritize the use of 
the system to benefit the greatest number of users. We simply 
cannot decide that failure is our only option. And, we simply 
must not decide that business as usual is the path of least 
resistance, politically or otherwise, because that will simply 
result in permanent gridlock.
    My thanks to the Committee for allowing Continental a 
chance to speak on this important topic. I will be happy to 
answer any questions.
    Thank you.
    [The prepared statement of Mr. Rowe follows:]

        Prepared Statement of Zane Rowe, Senior Vice President, 
                Network Strategies, Continental Airlines
Overview
    Good Morning. My name is Zane Rowe and I am the Senior Vice 
President of Network Strategy for Continental Airlines. I am 
responsible for planning and scheduling the airline worldwide and 
needless to say when it comes to scheduling Newark Liberty 
International Airport, the Nation's most delayed airport for most of 
the last 15 years, my job is quite challenging. Continental is the 
world's fifth largest airline operating 3,100 daily flights to 144 
domestic destinations and 138 international destinations via hubs at 
New York/Newark, Cleveland, Houston and Guam.
    When we received word that this committee wanted to ``examine the 
growing occurrence of congestion and delays in the Nation's air 
transportation system'' we knew that Continental needed to be present. 
Scheduling an airline with a hub in Newark is a challenge. The 
experience that our employees and passengers endure every day in 
Newark, not just during the summer of 2007, is one of the reasons that 
we firmly believe that business as usual--as to air traffic control 
(ATC) funding and structure--cannot continue.
    Today we have an aging air traffic control system incapable of 
keeping up with the rising demand of air travel in this Nation and 
especially in the New Jersey/New York region. As long as the weather is 
good and/or FAA's Air Traffic Control decides that it can allow 
reasonable spacing between aircraft while in the jet-highways or on 
final approach (e.g., currently 3 miles depending on aircraft type), 
the system can handle the traffic (in fact, in the last 10 days leading 
up to Tuesday of this week, Continental's system ran over 90 percent 
on-time with Newark's on-time performance reaching as high as 93 
percent). But any change in that baseline formula for en route (known 
as miles in trail) or spacing on final approach and the system moves 
toward gridlock instantly--sunshine or rain.
    Contributing to the delays is the fact that the air traffic control 
system may not always deliver aircraft from the jet-highways in the 
skies to the runways in the most efficient manner. FAA regulations 
specify minimum spacing between aircraft. The amount of spacing depends 
on weather and aircraft size. When there is more spacing between 
airplanes than is required for the circumstances, efficiency is lost 
and the impact is immediate. The landing slots that are lost cannot be 
recovered and delays result.
    For example, if three miles is required between aircraft, the 
landing rate would be about 40 aircraft per hour. If the spacing slips 
to four miles, the landing rate decreases to about 30 aircraft per 
hour, or a 25 percent reduction. Increased spacing on final approach 
reduces the arrival rate at the airport, typically results in FAA 
implementing some type of traffic management initiative, (either a 
ground stop or ground delay program), and causes arrival delays to back 
up across the country. FAA took action earlier this year to address the 
problem of excess spacing on final approach; however it is not yet 
clear if the policy changes have accomplished this objective.
    Our service at Newark and elsewhere in the Northeast depends on the 
safe, efficient and consistent delivery of aircraft to the runways. 
While we continue to work diligently on the delays and cancellations 
within our control, it is difficult to plan when aircraft are not 
delivered to the airport runways in a consistent and efficient manner. 
Certainly some delays and cancellations are Continental's 
responsibility such as maintenance, crew scheduling, holds for baggage 
and late arriving customers to mention a few and we continue to try to 
address these issues every day.
    To address the delays that are the result of the aging ATC system 
we must not look to artificial solutions that acknowledge failure such 
as slots, caps, or congestion pricing. We must think out of the box 
like this Committee did when it passed their FAA Reauthorization bill 
last May. This bill included a $25 fee for modernization of our ATC 
system--this is exactly the kind of forward thinking we need if we are 
to solve the delay problem for our Nation's air travelers.
    As this Committee has recognized, in the long run--we have to 
modernize the ATC system and become satellite-based (instead of land-
based radar). Satellite-based systems will significantly increase the 
capacity of our air traffic system by more accurately pinpointing 
aircraft and allowing better use of airspace (jet-highways) and less 
separation (both en route and on approach to landing).
    As this Committee has also recognized, a satellite-based system is 
highly capital intensive and must be funded through a stable financing 
scheme which allows capital financing and which is funded fairly by the 
users. Fortunately this Committee not only recognizes the importance of 
building and financing the NextGen ATC system on a cost-based formula, 
it has offered a positive and creative option for doing so which, if 
passed, will provide real and effective solutions to our current 
problems. Both the structure and the funding mechanism are crucial 
given the significant amounts of funding necessary and the need to 
drive rational behavior by the users. The current system of forcing 
some users to pay for the use of the system, pay for the future system 
and subsidize other users drives irrational behavior by those who are 
getting subsidized. It is important to make these decisions now--
``Business as Usual'' is no longer an option.
Ground Delay Programs, Ground Stops, Congestion Pricing and Slots--
        Should They Be Part of the Short Term Solution?
    As the Nation's media has well covered these last few months, this 
summer was a miserable experience for many of our passengers. In the 
summer of 2007, our passengers learned that if it was sunny in their 
city of origin and sunny in the city of their destination and even 
sunny between the two cities, the FAA could still use one of its 
``tools'' and impose a departure delay due to ``volume delays''. These 
departure delays, known as ``ground delay programs'' wreak havoc on 
airline schedules and performance because when FAA issues a ground 
delay program for an airport like Newark, all Newark bound airplanes 
from around the country are given new expected departure times. 
Sometimes these departure delays are short (15-20 minutes) and 
sometimes they can be quite lengthy (two hours or more), depending on 
the nature and duration of the disruption.
    A second tool that FAA uses to control the flow of air traffic is 
ground stops. Ground stops result in the FAA imposing a stop or 
cessation of additional departures heading toward the affected airport. 
Unfortunately for Continental and passengers using Liberty 
International, Newark experienced more ground delay programs and ground 
stops for the period January to June 2007 than any other U.S. airport 
(chart below). While helping to manage unplanned service disruptions, 
these FAA programs do not provide long term fixes to the congestion 
issue. In the long term, we need to fund a satellite-based system so we 
can move away from utilizing these short term ``tools'' to ``manage'' 
the delays.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Some argue that the only way to have a ``quick fix'' for the broken 
ATC system in the short run is to ``slot'' or ``cap'' certain airports. 
This decision would be premature, we believe, as the other tools 
currently at hand have not yet been given an opportunity to be 
implemented or proven beneficial. Before we limit the provision of 
aviation to the marketplace and restrict economic growth arbitrarily, 
we must ensure that all other avenues have been explored--and they have 
not. These quick fixes must be a last resort. Additionally, in order to 
be effective, these procedures would have to be applied to all 
operations in the NJ/NY region, similar and competitive airports like 
JFK and Newark Liberty, as well as be broad enough to cover not only 
U.S. commercial operations but other users of the system as well.
    The general view of those who propose slots is that commercial 
airlines are ``over-scheduled'' and that this ``over-scheduling'' can 
be fixed by limiting commercial airline flights at congested airports. 
Let's look at the issue of ``over-scheduling'' for a minute. In New 
York, there is LaGuardia which is already slotted by the FAA presumably 
at a level the government thinks is acceptable. Yet, according to 
government statistics it continues to be one of the most delayed 
airports in the country. New Jersey is home to Newark Liberty 
International Airport, the Nation's most delayed airport for much of 
the last 15 years. In an effort to combat delays at Newark, Continental 
``de-peaked'' its operation (eliminating the normal ebb and flow of hub 
traffic so that there is a steadier level of arrivals and departures 
throughout the day) in 1996. Continental has also deliberately kept the 
total number of airport operations not only below what the FAA has 
historically handled but also below levels 10 years earlier. In fact, 
there are fewer total flights at Newark today than there were in 1997--
yet Newark is consistently the most delayed airport in the country. 
Continental has undertaken these activities despite the fact that there 
was plenty of passenger demand for increased service. In fact, we 
undertook these activities simply to minimize Newark delays all the 
while JFK and other New York City area airports such as White Plains 
have experienced increases in scheduled flights.
    Those who would suggest that the way to ``fix'' the ATC problems is 
to limit the number of commercial passengers who can fly to New Jersey/
New York City by limiting or slotting the commercial airports, are 
simply suggesting that we penalize small communities, aviation 
employees and jeopardize the economics of the region. Slots are not a 
viable long term solution because they stunt the potential for economic 
growth of the region surrounding the airport to be slotted. Slots may 
prevent further flights from being scheduled but they do not promote 
jobs and they do not encourage anyone--in or out of government--to find 
a solution to the root cause of the delays. Slots are simply an 
admission of failure by all parties involved that other solutions to 
delays/congestion do not exist. And, if you look at LaGuardia as an 
example, slots do not solve the delay problem.
    Additionally, imposing slots on the New Jersey/New York City region 
is inherently more risky for U.S. consumers and cities because it can 
significantly harm U.S. carrier competitiveness versus foreign 
carriers. Historically the U.S. has exempted foreign carrier operations 
from being slotted, thus requiring a U.S. carrier to cut its schedule 
to compensate. This would mean that domestic carriers would be forced 
to cut back flights to small feeder cities (e.g., rural communities) 
which is bad news for rural communities that depend upon air service 
links for their economic livelihood. A cut back in domestic operations 
could also have negative impacts on an airline's other existing routes 
as fewer connecting passengers would be moving through the system. This 
cycle where we cut back small cities, hurting our feed to international 
destinations, which could result in foreign carriers increasing their 
service, which could lead to the government forcing U.S. carriers to 
cut back domestic flights even further, could conceivably be endless. 
All the while foreign carriers get free access to U.S. airports when 
U.S. carriers and consumers lose out.
    Those in search of a ``quick fix'' to congestion and delays have 
also proposed congestion pricing as a possible ``solution''. Congestion 
pricing is an idea that charges a fee per departure or arrival in 
exchange for access to an airport during a specific congested hour 
during the day. In theory the congestion fee is set at such a level an 
airline is financially discouraged to operate a flight, or to change 
the operating time to a less congested period. The fee would increase 
during peak times--the very times passengers demand air travel--and the 
fees would be lower during off peak hours. Congestion pricing has been 
used in other industries effectively but those other industries have 
used pricing to smooth demand. If you look at the three primary NJ/NY 
airports, however, you will see that demand cannot be smoothed. 
Operations are at a steady flow all day. And as I have already 
mentioned, Continental has already de-peaked its schedule at Newark 
Liberty. So, what would congestion pricing accomplish? Of course, the 
answer is that congestion pricing will do nothing more than reduce 
service to small communities, reduce job growth and raise fares for 
commercial passengers. One of the major causes of the problem--the 
growth in private jets--would not even be affected as these flights are 
generally not ``scheduled''.
    Ironically, the increased ``revenue'' from these so called market-
based options would quickly become an incentive NOT to fix congestion!
    Slots and congestion pricing are not quick fixes--they are ``knee 
jerk'' reactions to larger ATC problems. Even ``caps'' to limit growth 
should be used only as a last resort. The New Jersey/New York City area 
has diverse and complex traffic. On average, the region's TRACON 
handled just under 4,000 daily departures from a total of 15 airports 
including commercial passenger and cargo flights, charter airlines, air 
taxis, general aviation and military flights. ATC controllers handle 
different aircraft with different speeds and separations. Commercial 
operations account for only a portion of this total activity and any 
``fix'' of the region must encompass all airports and commercial and 
private jet users alike.
    The below illustration attempts to show how all these operations in 
the New York City area overlap and tend to create flight delay/
congestion challenges.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    According to FAA's Airport Capacity Benchmark Report, JFK is 
nearing its capacity limit. As previously noted, Newark is below the 
number of operations it has historically handled and LaGuardia is 
already slotted. It should be clear that we cannot ``fix'' one airport 
without addressing the entire New Jersey/New York City region and all 
types of aircrafts. Any attempt to do so will be unsuccessful because 
delays are not a New Jersey or New York City problem, they are a 
regional problem, encompassing the airports of Newark Liberty; New York 
LaGuardia (LGA); New York JFK; White Plains, NY; Newburgh, NY; 
Teterboro, NJ; Morristown, NJ; Farmingdale, NY; Bridgeport, CT; Islip, 
NY and Caldwell, NJ.
If Not Slots and Congestion Pricing--Then What?
    The good news is that some relief is possible even in the short 
term.
    After 10 long years, Airspace Redesign, if not stopped by Congress, 
will result in some improvement as early as next year. It has been 20 
years since the airspace in the New Jersey/New York region was 
redesigned. In that time major auto highways around the northeast 
region (and the country!) have all undergone major renovations--in many 
cases with the addition of new lanes--to accommodate the local growth 
of businesses and communities. The New Jersey Turnpike, which runs 
along side Newark Liberty has had several additional lanes added over 
the last few years. Yet the jet-highways in the skies have remained 
unchanged despite the significant growth in demand for commercial and 
corporate jet air service to NJ/NY. Complicating the congestion issue 
even further, as the use of corporate jets has risen significantly in 
the last 10 years, these not-so-marginal users of the system are 
holding up full planes of 100 to 300 people or more (737s, 757s or 
larger 777s) as air traffic controllers are forced to work smaller 
corporate jets with their one or two or three executives into an 
airport like Teterboro (TEB).
    Continental is taking a number of steps to provide relief to our 
operation at Newark Liberty by spending millions of dollars on items 
ranging from advanced flight operations software to hiring additional 
employees dedicated to Newark flight operations to introducing a brand 
new aircraft into the Continental fleet which promises to provide 
additional capacity without additional ATC burden. A quick review of 
our actions follows:

  <bullet> Continental will introduce a new, state-of-the-art turbo 
        prop aircraft at Newark, the Q400, which can operate on 
        Newark's shorter, crosswind runway in more weather conditions 
        thus reducing aircraft requirements on Newark's longer runways 
        and relieving pressure on those departure points also used by 
        JFK. The Q400 is also larger than Continental's regional jets 
        which it will be replacing at Newark.

  <bullet> Continental continues to increase flight block times (the 
        amount of time scheduled for a flight including taxi times and 
        flight time) to achieve DOT on-time performance requirements/
        regulations. For example, a flight from Washington National to 
        Newark is ``blocked in'' at an average time of 1:20 when the 
        flight itself takes 36 minutes.

  <bullet> Continental has added passenger capacity at Newark by 
        operating larger aircraft while keeping the number of 
        operations relatively steady over the last few years.

  <bullet> Continental pioneered the use of offshore radar routes which 
        enable the airline to fly out over the ocean east of New 
        Jersey, for aircraft going to the west or south, to avoid 
        excessive taxi delays during periods of congestion and severe 
        weather. Since the airlines have limited access to the military 
        airspace off the East Coast, these routes actually fly 
        considerably offshore to the east of the military airspace, 
        thus ensuring access to the routes when needed.

  <bullet> Continental has invested in SkySolver technology which is 
        used to develop pre-cancellation scenarios. Pre-canceling 
        flights helps the airport and airline to rebound quicker once 
        the severe weather event has passed.

  <bullet> Continental developed a slot substitution program that 
        allows us to manipulate or prioritize company landing slots 
        when FAA imposes ground delay programs.

  <bullet> Continental has doubled the number of Air Traffic Systems 
        Specialists at our operations center in Houston.

  <bullet> Continental has hired additional management and operational 
        employees at Newark Liberty to focus solely on Newark air 
        traffic control issues.

  <bullet> Continental now keeps pilots and flight attendants on the 
        same schedules to avoid multiple downline connecting crew 
        delays.

  <bullet> Continental has increased our crew scheduling buffer 
        (decreasing productivity and increasing layovers) for late 
        night flights departing Newark to reduce crew rest delays the 
        next morning.

  <bullet> For 10 years, Continental has been an active supporter of 
        the NY/NJ/PHL Airspace Redesign project submitting independent 
        comments, attending public meetings, etc.

  <bullet> Continental is actively supporting DOT's task force formed 
        to address the congestion/delay issue in the Northeast.

  <bullet> Continental is also participating in the Port Authority of 
        NY/NJ's task force to address congestion/delays in NJ/NY.

  <bullet> Continental meets regularly with FAA (at all levels) to 
        address performance issues.

    Attached please find more details on the many initiatives which 
could provide some relief to delays in the New Jersey/New York region.
Conclusion
    Delays are the pivotal problem of this Nation's ATC operation and 
they will continue to be so in the future unless we make the hard 
decisions today for the traveler of tomorrow. The idea of fair 
treatment among all users is key to balancing use and cost of the 
system and ensuring the vast majority of flying consumers still have a 
chance of getting to their destination safely and on-time. And, for 
those who maintain they are marginal users and decline to pay their 
fair share based on the belief that they are marginal, we should allow 
for access to the ATC system on a stand-by basis.
    Clearly we need to explore and move quickly on the many operational 
tools available to us at each individual airport and in the region as a 
whole and we must explore our abilities to prioritize the use of the 
system to benefit the greatest number of users. We simply cannot decide 
that failure is our only option. And, we simply must not decide that 
``business as usual'' is the path of least resistance politically or 
otherwise--because that will simply result in gridlock becoming 
institutionalized.
    Again, my thanks to the Commerce Committee for allowing Continental 
an opportunity to speak on this important topic today. We appreciate 
your leadership in these matters and look forward to working with you 
to create a better, more efficient and stable-funded ATC system for 
tomorrow.
                               Attachment
Newark ATC Operational Improvements
  <bullet> EWR Final Approach Spacing

    The spacing between aircraft on final approach determines the 
airport arrival rate, and in conjunction with demand, the need to 
implement traffic management initiatives. Extra spacing on final 
approach, in addition to the minimum required by FAA for safe 
operations reduces airport capacity and efficiency, and causes delays. 
There is evidence that spacing on final approach at EWR is more than is 
required by FAA standards. FAA needs to ensure that aircraft are 
delivered to the runways as efficiently as possible with minimum 
additional spacing beyond applicable FAA standards for the conditions 
at the airport.

  <bullet> Improved Runway Use

    In order to achieve the maximum arrival rate published by FAA for 
EWR, it is necessary to use two runways for landing. The weather and 
wind determine which runways may be used. Specific ATC and flight 
procedures are needed to maximize the availability and use of the 
second arrival runway:

   <ctr-circle> Converging Runway Display Aid (CRDA)

    CRDA is a software tool which enables the air traffic controllers 
to safely sequence aircraft to intersecting or converging runways, 
regardless of weather conditions. FAA should develop CRDA procedures 
for use during both visual and instrument meteorological conditions for 
runways 11 and 22L and runways 11 and 4R to increase the percentage of 
time that two arrival runways are available.

   <ctr-circle> RNAV and RNAV Visual Approaches Runways 4L, 22R and 29

    The primary arrival runways at EWR are runways 4R and 22L. Use of 
runway 4L, 22R, or 29 as the secondary arrival runway is determined by 
the wind and weather. Controller and pilot workload is reduced by 
developing special RNAV procedures with precise, repeatable flight 
tracks for use in combination with instrument and visual approaches to 
runway 4R or 22L. FAA, in cooperation with the users at EWR, should 
publish RNAV procedures to facilitate use of a second arrival runway.

   <ctr-circle> EWR Runway 4L Visual Approaches

    New York TRACON has developed procedures for visual approaches to 
runway 4L in combination with the ILS approach to runway 4R. Under 
certain wind conditions and airport configurations, landing on runway 
4L is more efficient than landing on runway 11 or 29. FAA should 
utilize visual approaches to runway 4L more frequently to ensure a 
second arrival runway is available.

   <ctr-circle> EWR Runway 4R and 29 Intersecting Runways Waiver

    Newark Air Traffic Control Tower has applied for a waiver that 
would improve the safety and efficiency of simultaneous landings on 
runways 4R and 29. The waiver is similar in concept to a waiver given 
to Chicago O'Hare as a means of recovering capacity lost when land and 
hold short procedures were restricted. The waiver will minimize the 
probability of an unnecessary go around, thereby reducing noise, 
emissions, and fuel burn. FAA should expedite the approval of this 
waiver and implement the procedures as soon as possible. FAA should 
review the EWR airport operating configurations to determine if there 
are other R to safely enhance capacity.

   <ctr-circle> Publish RNAV Standard Terminal Arrival Routes (STAR) to 
            Runway 11

    RNAV STAR's reduce pilot and controller workload and 
communications, and improve airspace efficiency. Development of 
dedicated arrival routes to runway 11 will facilitate its use as a 
second arrival runway or as a platform for circling procedures to 
runways 4L, 22R, and 29. FAA should expedite the publication of RNAV 
STAR's for runway 11.

   <ctr-circle> Install Omni-Directional Approach Light System (ODALS) 
            for Runway 11

    During certain times of the day or under reduced visibility 
conditions, pilots have difficulty seeing the airport when approaching 
from the west. This delays the issuance of a visual approach clearance 
to runway 11, and makes controllers reluctant to land on runways 22L 
and 11 simultaneously. An ODALS, or other suitable lighting system, 
would enhance the conspicuity of the runway and permit controllers to 
issue clearance for a visual approach. FAA should expedite the 
installation of an ODALS.

   <ctr-circle> Develop RNP Parallel Approach Transition (RPAT) 
            Procedures for Runway 4L/R and 22L/R

    RPAT procedures are designed to permit approaches to closely spaced 
parallel runways in less than visual approach weather conditions using 
NextGen technologies available in most Continental aircraft rather than 
legacy ground-based navigation aids. Implementation of RPAT at EWR will 
expand the time when two arrival runways are available and reduce the 
number of ground delay programs and ground stops needed to manage 
traffic. RPAT procedures do not require any additional ground 
infrastructure

   <ctr-circle> Develop Simultaneous Offset Instrument Approach 
            Procedures (SOIA) with PRM-like Capability

    An alternative to RPAT is PRM/SOIA. The basic operational benefits 
are similar: two arrival runways in weather less than that required for 
pure visual approaches. SOIA relies on offset localizer approaches, 
which can be used by all current users of the NAS, but require 
equipment to be installed on the airport. The procedures require a PRM-
like surveillance that can be provided by ADS-B or multi-lateration 
(Detroit is in the final phases of approval for this capability.) FAA 
should conduct an assessment to determine which procedures can be 
implemented most quickly.

  <bullet> DCA-EWR Low-Altitude Alternate Route

    Short segment flights to EWR are, on balance, more adversely 
impacted by FAA Traffic Management Programs. Flights from DCA and BOS 
are particularly affected. FAA, with Continental support, has developed 
alternate low-altitude route options for DCA-EWR segments. The purpose 
is to reduce take-off delay awaiting access to the EWR overhead arrival 
stream, as well as to provide a separate arrival flow for Runway 11-29. 
This program should be expanded and used when weather conditions at the 
airport permit.

  <bullet> EWR Business Plan

    The FAA Newark Tower is in the process of formulating a EWR 
Business Plan on how best to operate the airport from an ATC 
perspective on a daily basis. The plan is expected to establish 
specific targeted arrival rates for the various airport configurations 
and weather/wind conditions. The Air Traffic Control Tower, New York 
TRACON, and surrounding en route facilities should be held accountable 
for these standards. The plan should be finalized, approved and 
published as soon as possible.

  <bullet> Air Traffic Control Tower Simulators

    Simulation is used extensively in aviation to expedite and improve 
initial training and to permit frequent recurrent training. The USAF 
uses tower simulators to train its controllers and FAA has begun 
deploying these devices to select locations around the NAS. As 
retirements accelerate and training demands increase, it is imperative 
that simulation technology be available for EWR and the other NY metro 
towers. These simulators will speed training, improve safety, and 
ensure that training activities do not adversely impact airport 
capacity and efficiency.

  <bullet> Airspace Redesign

    FAA issued the Record of Decision for the New York/New Jersey/
Philadelphia Metropolitan Area Airspace Redesign Project on September 
5, 2007. The ROD indicates implementation will take up to 5 years and 
will occur in several ``qualitatively different stages.'' The first 
stage, which can implemented fairly quickly, and without changes in 
current airspace structure or operations in adjacent facilities, 
includes several items which will improve EWR operations:

   <ctr-circle> Departure dispersal headings;

   <ctr-circle> Additional airway parallel to existing Jet Route 80 for 
            departures;
   <ctr-circle> RNAV arrival and departure routes and sectorization 
            changes in New York Center designed to reduce complexity 
            and add en route capacity at higher altitudes;

   <ctr-circle> RNAV procedures for TEB arrivals and departures.

    The FAA should review all elements of the airspace redesign 
project, and move forward expeditiously with short-term changes that 
will improve the arrival and departure performance at EWR. (Note: Near-
term changes have been identified and provided to FAA for review and 
consideration.)

  <bullet> New York Integrated Control Complex (NYICC)

    The airspace redesign project preferred alternative includes 
creation of a new unique air traffic control facility that combines 
airspace currently handled by NY TRACON, NY Center and portions of 
other adjacent en route facilities and uses terminal separation rules 
(3 nm) rather than standard 5 nm en route separation. Intuitively, the 
authorization to use terminal separation rules in a larger geographical 
area and to higher altitudes will increase airspace capacity. FAA must 
begin the development of the NYICC as soon as possible and expedite the 
expansion of terminal separation rules in the project area.

  <bullet> Accelerate EWR ASDE-X Implementation and Provide Data 
        Distribution Box for ATC and Airlines

    ASDE-X technology improves ground safety and controller situational 
awareness. It enables FAA and the airlines to better manage ground 
traffic during irregular operations. ASDE-X is being installed at EWR. 
The installation should be expedited to the extent possible and the 
coverage expanded to include the airline ramp areas. A data 
distribution capability should be included to process multiple FAA 
surveillance sources and provided to the airlines. A similar package is 
being installed on an expedited basis at JFK.

  <bullet> Accelerate LAAS/GBAS Installation for EWR/TEB

    The Local Area Augmentation System provides GPS precision approach 
capability. It appears FAA is in the final phase of LAAS equipment 
certification. A singular station can provide approach capability for 
multiple runways at a single airport and often at adjacent airports. 
Expedited installation of a LAAS station serving EWR and TEB will 
facilitate development of advanced flight procedures that could be used 
to enhance the safety and efficiency of arrivals and departures. FAA 
should procure a LAAS station for EWR and work together with the 
operators at EWR and TEB to test new flight procedures.

    Senator Rockefeller. There are, in life, speed readers, and 
there are speed speakers. You all fall in the second category.
    [Laughter.]
    Senator Rockefeller. Just one question from me, and that 
has to do with the fact that, only one of the three commercial 
airlines mentioned general aviation. The question is, partly, 
what are the rights of people to be landing on-time, if planes 
that are--corporate jets carry two or three, but they're taking 
every second of time from the air traffic controllers. So, my 
question to any of you--and probably only one or two should 
answer, so everybody else can ask--what percentage of the 
delays do you think, in the New York, New Jersey, Philadelphia 
area can be attributed to general aviation aircraft using air 
traffic control resources? And, second, if the FAA implements 
measures to limit operations at airports in congested airspace, 
will those limits extend to general aviation airports in the 
same airspace? To wit, if controls are in place in Newark and 
Kennedy, should they not also be imposed in Teterboro?
    Mr. Rowe. I'd be happy to start the answer and then defer 
to any of my colleagues here to complete it.
    I think--to your point, Senator, it's a great point, and 
one that's of grave concern to us. In our written testimony, we 
included a chart that showed how intertwined not only the four 
main airports are in the region, as well as any additional 
airports and airspace. So, any answer to congestion, I think, 
needs to be dealt with on a regionwide basis. And, as we are so 
intertwined with general aviation--we don't have the specific 
percentages that we think they're causing, as far as delay--but 
it is clearly impacting scheduled carriers, and a lot of 
proposals, in fact, impact scheduled carriers and, by default, 
incentivize other passengers where there are two or three on a 
corporate jet. So, it's a grave concern. It's a great point 
that you mention.
    Mr. Kolshak. Senator, I'll just add a couple of factoids. 
In the New York airspace, 50--only 53 percent of the traffic is 
borne by commercial aircraft, the rest is general aviation 
``business jets.'' There are 15 airports in the New York 
TRACON, and we're narrowly focusing on three--LaGuardia, 
Newark, and JFK. And I fully agree that, if there is a 
solution, it has to be spread beyond those airports. If we 
treat those airports as a symptom, we're not curing the 
problem. We have to cure the basic problem. It's beyond those 
three airports, and it's clearly a lack of capacity in the New 
York airspace. And the solution is not a long-term solution--
there is a long-term solution, and that's Next Generation, 
which you've been a great supporter of, but there are short-
term initiatives. And we--Bob and I both mentioned one of them, 
and that's RNAV, and we could implement that tomorrow, just 
like we did in Atlanta, and that would provide real, tangible 
solutions to delays. The other one is to appoint one person--we 
call him a czar--in charge of the three different entities 
within the FAA--the towers, the facilities, the TRACON and the 
en route sectors--so that we can cure this from a systemic 
view, not a one-off, not a silo-based approach.
    Mr. Reding. Chairman, I would just like to add one item. 
And I agree with my colleagues that it has to be a system-wide 
solution, but I need to distinguish between the general 
aviation aircraft that some of us fly on the weekend, and we 
just fly around in small aircraft----
    Senator Rockefeller. Well, let me make that very clear.
    Mr. Reding. We are talking about business jets.
    Senator Rockefeller. Ninety percent of all general aviation 
aircraft are excluded from our bill.
    Mr. Reding. Exactly, Mr. Chairman. So, we want to make that 
point. It is the traffic that uses the high-altitude, high-
density airspace, and that is the traffic that adds to the woes 
in the New York airspace. But we have to include the Teterboros 
and the White Plains and the other airports that have those 
business jets utilizing the same airspace that the commercial 
jets utilize.
    Senator Rockefeller. And the same time of the ATC folks.
    Mr. Reding. And the same time. And we are very concerned 
about the advent of the very light jets----
    Senator Rockefeller. Right.
    Mr. Reding.--that are to come, and we will have thousands 
of these jets added to, already, our existing problems.
    Senator Rockefeller. It's another joy for you to consider.
    Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Gentlemen, you've been talking systems. 
And I think that, not only systems, but policies, have affected 
this congestion and the delays during this past year. Let me 
just give you one example. I'm sure you know I fly more and 
longer hours than probably any other Senator. And I recall, 
once, getting to a hub, and, as we tried to change planes, we 
were told that the crew hadn't arrived yet, they were coming in 
from another place. We would wait. After waiting 3 hours, we 
were told we could get on the plane, because the crew had 
arrived. But, once we got on the plane, the crew told us the 
pilot hadn't arrived. So, we waited another 2 hours on the 
plane, and the pilot arrived. When he arrived, he announced he 
was sorry to say that, because of the two delays, that the 
ground crew had put the fuel on another plane, but it put the 
food on a different plane. So, we waited another 2 hours. The 
net result was that we got to our destination after the airport 
had closed, they had to call baggage handlers to come back to 
work to unload the plane.
    Now, the system is stressed, but your policies are 
stressing people. And I think you have to look at this system. 
I know there are a lot of labor-relations problems in what I'm 
saying, but you have to look at this system and eliminate these 
delays that cause us to miss connections because of crew 
problems. And I hope that we can get into that as we go, 
because I--as I said, I probably go to more airports in a year 
than any other Senator, and I say that the people who are 
waiting in those waiting rooms are very distressed this year. I 
have never seen so many of delays related to crew problems and 
to service problems, of any time in the last 39 years. So, I 
hope that you'll look at that. I don't need an answer, I just 
hope you'll look at it.
    Thank you.
    Senator Rockefeller. Thank you, Senator Stevens.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    We can all agree on the unpleasantness and the cost of 
delays, but finding the source of these is--doesn't have a 
simple answer.
    One of the things that I've seen, Mr. Sturgell, is a 
statement by former FAA Administrator Blakey. She said, in 
today's New York Times, ``Airlines need to take a step backward 
from scheduling practices that are disconnected from reality, 
in that some schedules aren't worth the electrons they're 
printed on.'' Now, she served 5 years in that capacity, and we 
had statements like this--and these problems didn't occur 
overnight. She also said, as well as a FAA spokesman, Ian 
Gregor--said, ``There's no such thing as an unsafe staffing 
level, because FAA will slow traffic and put more space between 
the planes if staffing got too low.''
    We--you, Mr. Sturgell, testified, yesterday, that 
controller staffing was adequate, and there are 14,800 on 
staff. I'm talking about controllers. But FAA's own document 
showed that certified controllers--those fully capable--numbers 
have fallen to an 11-year low, 11,467. And when we make claims 
that there are 14,800 on staff, there is something amiss.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman,

    The holiday travel season is coming and Americans are already 
making plans to be with family and friends. But after last year's 
debacle at the airports, I am concerned more passengers will be 
stranded because of delays and canceled flights. It's clear Congress 
needs to act.
    Last year was the worst year for flight delays since 2000. One in 
four planes was late. This year has been worse. Newark Liberty 
International Airport had the worst delays in America. For travelers 
who fly between Washington and the New Jersey-New York area, a thirty-
six minute flight is often stretched into 2 hours.
    After 5 years of the FAA sitting on the sidelines and seemingly 
being asleep at the controls, the agency has finally showed some 
leadership to end delays and address the needs of travelers. This week, 
it announced plans to limit flights at Newark Liberty International and 
John F. Kennedy Airport starting in March 2008. While this is one 
option that should be carefully considered, it is not enough and we 
can't simply fix all our problems by arbitrarily cutting the number of 
flights.
    Our air travel system is still overburdened. And these changes will 
not relieve all the stress. We must build a better future for passenger 
transportation--a future that affords our travelers more choices. 
Without choices, airline companies will over-book and over-schedule--in 
order to make money.
    Already, passenger rail is the travel option greater numbers of 
people prefer. More people travel by train between New York and 
Washington, D.C. than fly. It's more convenient, and those trains are 
more energy-efficient and on-time. Amtrak continues to reach record 
ridership levels.
    The bill Senator Lott and I wrote, the ``Passenger Rail Investment 
and Improvement Act of 2007,'' was unanimously reported out by this 
Committee. Last week, the Senate Finance Committee voted to fund our 
bill with two-point-seven (2.7) billion dollars worth of new passenger 
rail projects. Senators Lott, Kerry, and Smith helped push that train 
down the track.
    Our Amtrak bill will make passenger rail a real option for 
travelers--and complement our aviation system. It can free up airport 
slots for flights under four hundred (400) miles so those slots can be 
used for long-distance routes.
    And it will get passenger rail into our towns and cities, making it 
more convenient and a realistic alternative.
    Somebody has to fix the mess that America's travelers are left in. 
We must also have a balanced transportation system and an adequate rail 
network can go hand in hand with a robust aviation system to 
accommodate our travelers.
    Thank you Mr. Chairman. I look forward to hearing from our 
witnesses.

    How's your agency going to be able to safely and 
efficiently handle record amounts of air traffic, and mitigate 
delays, when there are fewer certified controllers than any 
year since 1996? And why are you content to make matters worse 
for travelers by slowing them down if you can't maintain enough 
controllers to do the job?
    Now, I recognize that you have just started as the ``Acting 
Administrator'' and it's a very tough job. While we look at the 
problems at the FAA they're not yours directly, but you're the 
one who is responsible for answering for FAA right now.
    Mr. Sturgell. Senator Lautenberg, as I said yesterday, and 
you pointed out, we do have a controller workforce plan. We've 
been operating under it the last several years now. That plan 
calls for us to staff the system at 14,807 controllers by the 
end of this fiscal year. We are currently above that number, 
and expect to finish up the year well above that number. With 
respect----
    Senator Lautenberg. Fully certified.
    Mr. Sturgell. With respect to fully certified versus 
certified controllers who have moved to new locations, who are 
in training, and developmentals, there are several stages of 
developmentals, and, in each stage, you are qualified to work 
traffic for the stage that you have trained on. We have always 
used developmental controllers to staff those positions, and 
they have always been included in prior years' staffing 
agreements, when there were agreements with NATCA, the 
controllers union. The numbers included developmental 
controllers, because everyone recognized they do carry out work 
on positions for which they are trained.
    Senator Lautenberg. Mr. Chairman, I don't want to encroach 
on our colleagues' time, but there are further questions that 
have to be asked here. Are we going to try to----
    Senator Rockefeller. We hope to----
    Senator Lautenberg.--convene----
    Senator Rockefeller. We hope to. That's why we're doing a 
quick first round----
    Senator Lautenberg. Thank you very much.
    Senator Rockefeller.--to see how long we can delay the 
vote. Senator Lott is taking care of that.
    [Laughter.]
    Senator Rockefeller. Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    I might observe, however, in my part of the country we 
don't have any slots. We'd be glad to make slots, if you wish 
and----
    [Laughter.]
    Senator Dorgan.--and we'd make them available, as many as 
you wish, free of charge.
    [Laughter.]
    Senator Dorgan. And, by the way, there is no congestion. 
So, that's one way--and the same would hold true with West 
Virginia, I assume.
    Senator Lott. You've got more congestion up there, right?
    Senator Dorgan. Well, we want more airline service up 
there. That's what we want.
    [Laughter.]
    Senator Dorgan. Let me try to understand it. I think there 
is something going on, and I agree with you, the problems are 
the weather, and the government. But I think there is another 
problem, and I do think a portion of these delays--the first 5 
months, 26 percent delayed or canceled; Atlanta, 40 percent--60 
percent on-time, the rest--so, I mean, I think there is 
something else going on. And, frankly, I think there is a 
portion of it--and I think Senator Stevens referred to it--the 
number of companies going into bankruptcy, coming out of 
bankruptcy, I think, with some pretty ragged management 
attention to some of these issues, and maybe that's a function 
of trying to move in and out of bankruptcy, I don't know. But I 
think the American travelers are mighty upset. And maybe--we 
shouldn't be upset at the weather. I don't want anybody flying 
through bad weather. I don't want to do it, myself. We should 
be upset that we're far behind with respect to modernization. I 
understand that. And we have a responsibility to do something 
about that.
    But I also think there is this other issue with respect to 
the carriers. And we do need better management systems to try 
to reduce some of those delays that exist. And I won't go 
through the stories, but I'm a frequent traveler, I've seen the 
same kind of sloppy management occasionally. And I do think 
it's an issue.
    But let me say this. This country needs the airlines. We 
need them badly. And we need a system that works. All of us 
need to work together to try to find solutions here. And I do 
want to say, though, that, whether it's West Virginia or North 
Dakota, perhaps rural Minnesota--we just talked about corporate 
jets--the fact is, there are going to be coming, in the future, 
these very light jets, and much of that's going to be 
commercial, not private; it's not going to be--it's not going 
to be a corporation running a jet around with two people, it's 
going to be a commercial operation that someone uses to decide, 
``I can make a business out of this, serving areas that aren't 
served, with jet service on a four-or five-passenger plane.'' 
So, that is going to have to be integrated into this system. 
And the only way that can happen, I think, is with 
modernization and much additional capability. So, I think, 
while we talk about the corporate jets, at the moment, we don't 
have a lot of them flying around North Dakota, a lot of them 
fly on that eastern corridor, I understand. But, in the future, 
my hope is we have a lot of the very light jets in commercial 
operations providing air service where air service doesn't now 
exist.
    So, Mr. Chairman, I appreciate your calling the hearing. I 
do think there are serious problems. I understand the weather, 
I understand the government piece of this. I hope the carriers 
also understand scheduling and other issues are a part of 
airline management that does, I think, need to be improved on 
behalf of passengers, as well.
    But I thank the witnesses for their testimony. I know we 
have a very short time, so I will defer, and I will submit 
questions to the witnesses. And I have never heard witnesses 
talk quite as fast as they did this morning.
    [Laughter.]
    Senator Rockefeller. It was awesome.
    Thank you, Senator Dorgan.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you, all of you.
    I just wanted to follow up a little bit about--with you, 
Mr. Sturgell--about some of Senator Lautenberg's questions. I 
come at this as a new Senator. We had our FAA reauthorization 
hearing. I supported the passenger facility charge. It was a 
difficult decision to make because of the concerns that I had 
about some of the modernization that we needed to do. And I 
wanted to ask a few questions about that.
    But my first question, to follow up on Senator Lautenberg's 
question--was just, are we facing a hiring crisis now with air 
traffic controllers, where so many are retiring? And what are 
your plans to address this?
    Mr. Sturgell. Well, I think we've recognized, for several 
years, the looming retirements with the air traffic controller 
workforce. I mean, it's a matter of math. We hired a whole lot 
of controllers after the strike in the early 1980s, and they 
have all reached, pretty much, retirement age, or getting close 
to it. And so, several years ago we developed a hiring plan to 
address these retirements, and we've been marching to that plan 
ever since. And I think, if you look at the charts, we're going 
to be hiring, well over 1,000 controllers a year, probably for 
the next decade, as we replace a generation of controllers that 
is set to retire. Our plan lays out how we're going to do that. 
Last year, we updated it to include specific facilities. It 
talks about training levels, as well.
    Senator Klobuchar. Do you think it's on track right now?
    Mr. Sturgell. I think it's on track. And I think, if you 
look at the operations per controller today we are controlling 
fewer operations per controller than we were in 1999 and 2000. 
So, I'm confident that, overall, the system is staffed 
adequately. And when you look at the safety numbers, at the ops 
errors, at the runway incursions, at the time on position, at 
the overtime, they all reflect the trends positively. Now, are 
we going to have individual facilities, as we go through this, 
that might have some unexpected retirements and create some 
short-term problems? Sure. And we'll manage through that. But, 
generally, I thank we're on path, where we need to be.
    Senator Klobuchar. I had a question for the three from the 
airlines, who talked a lot about the causes for all of this 
delay. I think--about only 72 percent of the flights are going 
to be on time this year, or that's the projection. What do you 
think would be the best thing that we could do, as a policy 
matter, to fix that? Your first priority, the three of you.
    Mr. Kolshak. You know, if I could just jump in here, 
Senator, as I mentioned in both my oral and written testimony, 
there are both short-term and long-term fixes. There are short-
term, immediate fixes that we can do, two of which I mentioned; 
one being, increase the capacity in the Northeast, which is the 
primary area for delays. If I look at Delta's system, most of 
our delays, or delays throughout the system, either originate 
or are caused by congestion in the Northeast. We can increase 
capacity through things like RNAV--area navigation. All of our 
aircraft--and I think all of, virtually, American's, and most 
of the major airlines' aircraft--have the capability to fly 
those procedures today. They just have to be built, designed, 
and programmed into the aircraft, we'll fly 'em tomorrow. That 
would increase capacity.
    The other thing that has to happen is, the FAA needs to 
take a systemic view to the New York airspace, combining the 
three different silos, like they did in South Florida, to solve 
the problem, measuring the throughput of the system. If you 
look in the New York TRACON, the throughput of the system, year 
over year, is actually lower. Somebody's got to look at that. 
Somebody's got to question it. It's beyond just weather. And 
then we have to increase the flexibility of the ATC system. 
Most major areas have funnel points, and we need to increase 
the number of arrival fixes and departure fixes to increase 
capacity.
    Mr. Reding. Senator, if I may add one point, I totally 
agree with Joe's comment. Another point I would make, on a 
short-term perspective, is the incident, just a couple of days 
ago. Memphis Center basically losing their datastream, causing 
an incredible amount of trauma. We ended up canceling 89 
flights, hundreds of flights were delayed by over 2 hours, just 
for American Airlines alone, as everybody scrambled to reroute 
the traffic to keep it away and keep it out of harm's way, 
because of Memphis Center outage.
    I would recommend that the FAA go through their facilities 
to make sure they have a disaster recovery plan, should there 
be an interruption to power, should there be an interruption in 
their datastream, just like we have at the airlines. We could 
not afford to have our Systems Operations Center be out of 
commission for 3 hours. So, we have disaster recovery plans 
that have multiple streams of data capability, multiple streams 
of power coming into our critical facilities. In addition, 
we've found that the facility technicians at the FAA have been 
substantially reduced. And that's why we have less outages than 
others.
    Senator Klobuchar. Mr. Rowe, I'll get your answer later. I 
wanted to let my colleagues ask a question before we have to go 
for the vote.
    Senator Rockefeller. I'm going to interrupt an animated and 
important bipartisan conversation by calling on Senator Lott.
    [Laughter.]

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Mr. Chairman, we've got a vote on. I'm going 
to have to go to the floor, so I'll be brief.
    Let me just say, first of all, thanks to the panel for 
being here. I think this is an important discussion. Obviously, 
a lot of the discussions have been about the congestion in the 
New York area, because, I guess, about a third of the flights 
are in that area. Is that a correct statistic?
    You know, I've made the point to everybody involved in 
aviation in the past that this is one of the areas where 
Members of Congress feel the most strongly, because we have to 
endure the indignities of everybody else, you know, flying and 
being delayed and congestion and missing flights.
    So, I would say, to the industry representatives here, I do 
think that you've got to use more common sense in some of the 
decisions you make. And, you know, those of us that, you know, 
have had our flights canceled, and delayed, and sit on the 
tarmac, you've got to do a better job.
    However, like so many of the things that we complain about 
in the Congress, we looked around, and we found the enemy, and 
it is us. You know, we expect magnificent service, and we 
expect you to deal with all this congestion, yet we have not 
been willing to face up to what needs to be done to deal with 
the problem.
    I do think that the congestion problem is going to continue 
to grow until we begin to make tougher decisions. Are we going 
to have an extra charge when you go into congested areas? Are 
we going to have to have administrative decisions to cut back 
flights in the congested areas? But, more importantly, are we 
ever going to take the steps that are necessary to have 
modernization? Modernization won't solve all of these problems, 
but it'll go a long way.
    To the credit of the Chairman and this committee, we have 
faced it, we've made recommendations, and we're still committed 
to that. But, unfortunately, the wheels have come off in the 
Finance Committee, in the House, in trying to find a way to 
come together in a bipartisan, nonpartisan way, with all the 
different committees involved--Appropriations, Finance, Ways 
and Means, Commerce, House and Senate--we've got a long way to 
go.
    But I'm still absolutely committed to it. We need your 
help, and we need the support of the administration. The FAA 
needs to do more. You know, the airlines need to do more. And, 
frankly, business and corporate and small aircraft have got to 
do their part, too.
    Everybody has been at this table earlier this year and 
said, ``Yes, we need modernization, we support modernization,'' 
but everybody says, ``We ain't gonna pay for it.'' And so, 
we're going to have to do this. And everybody's going to have 
to bear part of the responsibility.
    But, in regard to the--everybody blames the weather, and 
nobody wants to fly in bad weather, but can--what can FAA do 
better to help get around this weather problem? I just think 
more could be done in that area.
    Mr. Sturgell, are y'all addressing that?
    Mr. Sturgell. We are. We're addressing it in several ways. 
Our Airspace Flow Program, which we started last year, we 
expanded this year. We expect to continue to expand that to 
help us deal, today, with the weather. We also need to get 
better at weather forecasting, and we're investing money, both 
on the research side and tactically, to improve that 
capability, as well, trying to integrate and provide some of 
our weather data to the airlines, also. But, you're correct to 
point out, it is, one of the toughest problems we deal with. 
We're trying to design approaches that'll allow us to move 
equal amounts of aircraft during good weather, as well as bad 
weather.
    Senator Lott. Are you--we understand that you can, and you 
are, redesigning how you deal with the New York airspace. Is 
that process underway?
    Mr. Sturgell. It is underway. We issued the Record of 
Decision earlier this month. We have implementation teams 
meeting next week, and we're going to move forward with this as 
quickly as we can.
    Senator Lott. Thank you, Mr. Chairman, for having the 
hearing. We're going to go forward, trying to do our part, and 
we need to count on the administration, the airlines, the 
entire industry, to do their part. This is critical for the 
future of our country and transportation, and we've got to do a 
better job than we've been doing.
    Thank you.
    Senator Rockefeller. Thank you, Senator Lott.
    A final question, Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    And, as my colleague from Mississippi pointed out, one of 
the things about air travel and air service that--our 
constituents always want us to know and to experience what 
their plight is like. And this is one issue where we really do, 
because--at least, I am one of the members of this body that 
travels back and forth to my home state on a weekly basis, and 
I have to say that if this is the experience--my experience is 
the experience that a lot of my constituents have, the 
traveling public has, their lives kinda stink when it comes to 
getting to and from their destinations.
    I mean, this is a big problem. Sixty-nine percent, in June 
and July, this summer--only 69 percent of the flights actually 
showed up when the airline said that they would. And this is--I 
realize, as has been noted, there are--you know, you don't want 
to take risks with weather and that sort of thing, but 
passengers are extremely frustrated by the experience they're 
having with air travel. And I sit in these airport gate areas 
all the time with my constituents on flights that are either 
canceled or delayed, and it seems to me something has to 
change. And I know part of that responsibility does center 
right here, we've got to get some things done, in terms of 
modernization, and that's going to take action by the Congress. 
But there have got to be some things, too, that the DOT, the 
FAA, that the airlines can do to make this system work better 
than it does.
    And I've actually introduced legislation, some of which was 
included in the FAA reauthorization bill, that just requires 
more disclosure and more transparency. If you've got 
chronically delayed or canceled flights, you know, it seems, to 
me at least, that a passenger, a customer, ought to know about 
that prior to booking a ticket. And I've had pushback to some 
of these suggestions, from the airlines. But the fact of the 
matter is, if you're going to trust the market to work, you at 
least have to have--passengers and customers have to have 
information to make good choices and good decisions. Some of us 
fly into areas of the country where we don't have a lot of 
choices, and that's what makes this even more difficult.
    My impression is that one of the issues that is at work 
here, too, is the fact that you've got smaller planes, higher 
frequency, therefore more operations coming into and out of 
these airports. And that, I expect, in a state like mine, 
where--but it seems to me, at least, even in the larger 
airports, it's creating more congestion, because you've got 
more RJs flying and fewer full-body-type aircraft.
    And I guess I would pose that question of the airlines. Is 
that something that is affecting the delays, the on-time 
arrivals and everything else?
    The performance just continues to go down, and people are 
tired--I mean, I think people in--who travel regularly just 
think it's a race to the bottom with air service in this 
country. And we can't accept that. It's just--it's costing too 
much, in terms of productivity and lost time.
    I'm curious, I guess, to what the airlines comment is 
regarding the issue of having smaller planes and higher 
frequencies, and how that's impacting congestion in the air.
    Senator Rockefeller. That's----
    Senator Thune. And can that be addressed?
    Senator Rockefeller. That's a lot of questions that you're 
not going to be able to answer, because we've only got 6--or 5 
minutes left in the vote. So, pick your poison.
    Mr. Reding. Just a couple of very short points.
    Number one, under small aircraft, as far as American is 
concerned, most of those small aircraft have replaced turboprop 
aircraft, and that's because our customers demanded that. Our 
smaller aircraft are able to serve our small communities much 
more efficiently than a large aircraft can. So, we think that 
the reason RJs are operating in the airspace system is because 
of customer demand that we have that we're attempting to meet, 
both to smaller communities and because the customers demanded 
jets instead of turboprops. So, in most of our locations today, 
where we used to operate turboprops, we basically just operate 
the regional jets, at about the same size as the turboprops 
were.
    With regards to, what can we do quickly to improve the 
customer experience--and we are as frustrated as anyone is to--
obviously, to extended delays. Yesterday, I was delayed by a 
hour on an afternoon flight coming out of Dallas. Weather in 
Dallas, excellent. Weather in Washington was excellent. Why 
were we delayed? We had en route weather, and the way we are 
scheduling our aircraft today is, we have to stay on one 
highway that goes from Dallas to Washington. If we have RNAV/
RNP en route, we have thousands of highways we can use that 
allows us to route these aircraft automatically around the 
weather and--reducing a substantial amount of these delays. And 
we can do that tomorrow, with the FAA's help.
    Senator Rockefeller. Senator Thune, I really apologize to 
you, but it's already a 7 minute time that you've used. We have 
3 or 4 minutes left to get to another building to vote. So, I 
enormously regret this, we're going to have to actually adjourn 
the hearing, because we'll be voting until 1 o'clock, unless, 
of course, you want to sit here, and then we'll recess it.
    [Laughter.]
    Senator Thune. Mr. Chairman, could I then--I have a couple 
of additional questions that I also would like to submit----
    Senator Rockefeller. Could----
    Senator Thune.--for the record----
    Senator Rockefeller.--you submit them?
    Senator Thune.--as well as a statement? But I just think--
--
    Senator Rockefeller. But--can I just finish, please? 
Because I've got--I'm going to go vote.
    Senator Thune. OK.
    Senator Rockefeller. I mean, that's--make up your own mind.
    Senator Thune [presiding]. That's--I'm happy to--I'm happy 
to adjourn the hearing, if you want to go vote.
    Senator Rockefeller. All right, you do that.
    Senator Thune. Let me just ask one last question, if--
again, of the airlines. And I--and it has--it comes back to 
this issue of disclosure and transparency and having 
information ahead of time. I mean, don't you think that a lot 
of customers have a right to know which flights are chronically 
delayed or chronically canceled before they purchase their 
tickets? I mean, doesn't that--isn't that something that makes 
sense? Because I think it--it would be nice to know--for 
example, the story in The New York Times about this one flight, 
Newark to Chicago, that's late 80-some-percent of the time. I 
mean, I think that's information that would be really useful 
for consumers to know.
    Mr. Kolshak. Senator, I totally agree with you, is that--
I'm not sure that all of my colleagues would agree--that, in 
terms of making the information available via our website, we 
are certainly prepared to do that. Requiring our reservation 
agents on every single flight to disclose that information 
becomes very cumbersome and very expensive. However, in terms 
of putting on our website, making it available to the 
customers, we have absolutely no problem in doing that.
    Senator Thune. OK.
    Mr. Reding. And from American's perspective, we agree with 
Delta on that, we don't want to cause an undue burden in 
disclosing that information. Of course, our focus also is, in 
eliminating those flights, we don't want to have any flights 
that are 80 percent late. Let's look at the root cause, and 
then we adjust our schedules so we can take those flights off 
of that list, and we focus on those flights to make sure they 
have improved reliability for our customers.
    Mr. Rowe. And I would agree, from Continental's 
perspective, with the two gentlemen on my right. We have a 
number of initiatives that we are working on internally in the 
company, and we have our Customer First Commitments which are 
on our website today. So, we are working actively at trying to 
build more transparency into our operation.
    Senator Thune. All right. Well, I thank you for--again, for 
your testimony. And I have some questions, like I said, posed 
for our government folks around the panel today, but I'll 
submit those for the record.
    And I guess, with that, the hearing is adjourned.
    Thanks.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Chairman Rockefeller, I want to thank you for holding a hearing 
today on such an important issue.
    Anyone who has traveled recently certainly recognizes that the 
delays travelers are encountering at airports are a national problem 
that needs our immediate attention.
    I was appalled, as many Americans were, to see passengers trapped 
in airplanes sitting on runways for sometimes as much as 11 hours 
without adequate food or water, overflowing restrooms, and no 
opportunity to deplane.
    That is why I am pleased that the Committee included provisions 
from the Boxer-Snowe bill to require airlines to provide necessities 
such as food, water and working restrooms to passengers who are 
stranded on planes.
    Our legislation also gives passengers the option to deplane after 3 
hours if deemed safe by the pilot to do so.
    Although language for mandatory deplanement after 3 hours is not 
included in the FAA Reauthorization bill, I strongly favor requiring a 
time-frame for deplanements and I look forward to working with the 
Committee to include an appropriate timeframe.
    The Department of Transportation's Inspector General Report 
released 2 days ago criticizes the airlines for lacking clarity in the 
terminology they use in their customer service plans for extended 
delays.
    This isn't the first time we have given the airlines the 
opportunity to address the situation of stranded passengers on the 
tarmac, and despite those efforts back in 1999, little has changed.
    When it comes to the safety and convenience of travelers, now is 
not the time for plans that are vague and lack consistency.
    For anyone who has traveled with a small child or with parents, who 
may need medical attention, this legislation is not rocket science, it 
is common sense.
    I think I share the same sentiment as many Americans that while 
this hearing and the FAA Reauthorization are certainly a step in the 
right direction, there is much more work to be done and we need to do 
our part to ensure all parties are allocated the resources needed to 
make the system work better.
    The FAA and the airlines need to work together to alleviate the 
delays. Right now, there is too much congestion caused by too many 
flights scheduled at the same peak time.
    I am counting on the parties who have joined us here today to work 
together to resolve this problem in a timely manner so we can all get 
where need to be safe and on time.
    Thank you, Mr. Chairman.
                                 ______
                                 
           Prepared Statement of Patrick Forrey, President, 
          National Air Traffic Controllers Association (NATCA)
Introduction
    The National Air Traffic Controllers Association (NATCA) is the 
exclusive representative of over 14,000 air traffic controllers serving 
the Federal Aviation Administration (FAA), Department of Defense and 
private sector. In addition, NATCA represents approximately 1,200 FAA 
engineers, 600 traffic management coordinators, 500 aircraft 
certification professionals, agency operational support staff, regional 
personnel from FAA's logistics, budget, finance and computer specialist 
divisions, and agency occupational health specialists, nurses and 
medical program specialists. NATCA's mission is to preserve, promote 
and improve the safety of air travel within the United States, and to 
serve as an advocate for air traffic controllers and other aviation 
safety professionals. NATCA has a long history of supporting new 
aviation technology, modernizing and enhancing our Nation's air traffic 
control system, and working to ensure that we are prepared to meet the 
growing demand for aviation services.
    Aside from the millions of air travelers who experienced the pain 
and frustration of this summer's record level of flight delays first-
hand, nobody had a better view of the congested runways, taxiways, gate 
ramps and airways than this Nation's air traffic controllers. These 
controllers worked record amounts of hours and overtime in a high 
stress work environment, where most facilities were understaffed, to 
try and move the system along as efficiently as possible, while keeping 
safety above all as our highest priority and guiding principle.
    As part of our commitment to serving the flying public and watching 
out for air travelers' best interests, we have created a website 
devoted to helping travelers avoid flight delays and receive advice 
from the people with the front-row perspective on the National Airspace 
System--the air traffic controllers. NATCA launched www.avoiddelays.com 
in 2006 as flight delays began their ascent into record territory. Then 
this spring, we added some enhancements to improve the site, including 
the addition of tips from controllers at each of the busiest airports 
across the country, offering words of wisdom as to the best times to 
fly, and many other nuggets of useful information about the operation 
at those airports.
    But despite NATCA's best efforts, no amount of assistance has 
seemed sufficient thus far in 2007. As The Washington Post stated in an 
editorial 2 weeks ago, ``This summer in air travel was terrible.'' The 
delays were the worst since the Federal Government started keeping a 
running total in 1995.
As New York Goes, So Goes the Nation
    The problems this summer mostly revolved around the highly 
congested New York airspace, where one-third of all flights pass 
through daily. Three of the five worst airports for delays--Newark 
Liberty International, John F. Kennedy International and LaGuardia--all 
serve the New York metropolitan area. As the Post reported, ``time and 
again, trouble at those airports means trouble almost everywhere 
else.''
    In her final public remarks 2 weeks ago, former FAA Administrator 
Marion Blakey cited New York, but she also talked about Chicago's 
O'Hare International Airport, where in 2004, the FAA forced the 
airlines to reduce the number of take-offs and landings between 7 a.m. 
and 8 p.m. to 88 per hour, down from a high earlier this decade of 130 
or more. As a result, according to the Post, delays were reduced by 
24.5 percent in 2005.
    However, NATCA's research shows that O'Hare is still one of the 
most congested and overscheduled airports in the country and that is 
having an effect on the increasing delays. O'Hare, the three New York 
airports and Philadelphia International round out a ``Top Five'' list 
of the most overscheduled airports in the country, which NATCA believes 
is the number one reason for the surge in delays in 2007.
    As early as 2000 and 2001, when NATCA made regular appearances 
before this committee and also before various Senate committees that 
were working to try and solve the problem of flight delays, we talked 
directly, and in great detail, about the problem of ground capacity and 
airline over-scheduling, identifying this as a major concern. Below is 
from our testimony in May 2001:

        ``An airport's capacity to handle air traffic is a function of 
        its size, the layout of its runways, the air traffic patterns, 
        both arriving and departing, and the time-frame in which a 
        surge of traffic must be dealt with due to airline scheduling. 
        Our system is built to allow for unfettered discretion in 
        adding demand. However, you can not add limitless demand to a 
        finite system. Case in point is what happened at New York's 
        LaGuardia Airport last summer (2000) when airlines filed for 
        600 slot exemptions within about a week. Market forces failed 
        to limit the number of flights at LaGuardia, so the FAA and the 
        New York/New Jersey Port Authority had to step in.''

        ``Delays occur every day at every major U.S. airport. Schedules 
        are made to reduce operating costs and maximize revenue without 
        regard for other airlines, terminal airspace or airport 
        capacity. At `peak' times, dozens of planes are simultaneously 
        taxiing for take-off or queuing above the airport in a finite 
        amount of terminal airspace. This is where the laws of physics 
        kick in. Given runway capacity, only a certain number of 
        flights can depart and arrive within a specified time period. 
        Therefore, scheduling during peak hours contributes to delays 
        at busy airports even in good weather. All scheduled flights 
        will not be able to arrive on time. Responsible scheduling of 
        flights within airport capacity limits will go a long way 
        toward alleviating delays.''

    Here we are again, more than 6 years later, and NATCA's message on 
this subject has not changed: Scheduling during peak hours contributes 
to delays at busy airports even in good weather. All scheduled flights 
will not be able to arrive on time. Responsible scheduling of flights 
within airport capacity limits will go a long way toward alleviating 
delays.
    We were pleased to hear Administrator Blakey echo our position in 
her farewell speech when she told the Aero Club of Washington, ``The 
airlines need to take a step back on scheduling practices that are at 
times out of line with reality. . . . I predict passengers will 
continue to be fed up with delays, and that's got to be taken more 
seriously by our airlines.''
    However, these comments were too little, too late, coming at the 
end of the summer travel season and not before, when controllers knew 
over-scheduling would be the reason for a surge in delays. NATCA agrees 
with Chairman Costello, who said the administrator waited too long to 
criticize airlines for over-scheduling, and said she should have made 
her remarks in January ``when they might have had some effect on the 
summer travel season.''
    NATCA is aware that many pilots share our view that ground 
capacity, not air capacity, is where the problems lie in our 
overcrowded system. In a recent article in an aviation magazine, pilot 
J. Mac McClellan wrote: ``The point of this--other than the obvious, 
that New York is a pain in the butt at rush hour--is that pavement, not 
airspace, is the fundamental congestion problem.'' (Flying Magazine, J. 
Mac McClellan, September 2007, ``Left Seat: There Is Plenty of 
Airspace'')
Atlanta's New Runway Is an Example of How Capacity Can Be Increased and 
        Delays Decreased
    The best evidence that supports NATCA's position that current 
problems are ground-based is at Atlanta Hartsfield-Jackson 
International Airport.
    Before the new runway was opened last year, the departure rate per 
hour was 96 in clear weather; what is known as ``VFR'' (visual flight 
rules) conditions.
    But with the new runway--making three total for arrivals and 
departures--the VFR departure rate increased to 114 aircraft per hour 
and 104-106 aircraft per hour in less ideal weather conditions. The 
arrival rate now stands at 126 aircraft per hour in VFR conditions, 112 
per hour in less ideal weather conditions and 96-104 in poorer weather 
conditions, known as ``IFR'' (instrument flight rules).
    Additionally, Atlanta has built a taxiway (Taxiway Victor) that 
goes around Runway 26L/8R, a designated departure runway, virtually 
decreasing the possibility of runway incursions by 95 percent according 
to ATL controllers and ensuring a continuous flow of departures off the 
north side of the airport. Once again, concrete, when used correctly, 
can decrease delays off the airport and almost all possibilities of 
runway incursions and read-back/hear-back errors in communications 
between pilots and controllers.
    The bottom-line is simple: Atlanta's fifth runway was opened on May 
27, 2006. A comparison of operations and delays was run from May 27 to 
September 30, 2006 against the same time period in 2005. ATL had an 
increase 3,097 Total Operations and had 13,927 fewer delays in 2006.
Exactly How Airline Overscheduling Is Driving the Surge in Flight 
        Delays
    The following, from an operational perspective, is a quick review 
of five airports facing a chronic delay situation: JFK, EWR, ORD, LGA, 
and PHL. All data comes from the Enhanced Traffic Management System 
(ETMS)--a tool used by Traffic Management staff to predict, on national 
and local scales, traffic surges, gaps, and volume based on current and 
anticipated airborne aircraft. That data allows traffic management 
staff to use optimal airport configurations to maximize capacity at 
each airport.
New York-JFK
    At New York-JFK Airport, the optimum arrival configuration for 
runways 13L/31L means a 56 airport arrival rate (14 aircraft per 
quarter hour) and a 32 airport departure rate (eight aircraft per 
quarter hour). One of the optimum departure configurations is runway 
22R/31L, which allows for a 52 airport departure rate (13 aircraft per 
quarter hour) and a 35 airport arrival rate (11 per quarter hour).
    On a typical Tuesday in August (Aug. 7, to be exact), there were 57 
flights scheduled to take off from JFK between 8 a.m. and 9 a.m.--which 
is more than top airport capacity, according to the FAA's Operational 
Evolution Plan guidelines covering capacity benchmarks for the airport 
in perfect weather conditions. That day, Aug. 7, only 38 of those 
flights took off. As reported by USA Today, ``the overload cascaded 
into the next 2 hours.''

  <bullet> From 9 a.m. to 9:59 a.m. on Sept. 7, 59 flights are 
        scheduled to depart, which is more than the FAA's listed 
        airport capacity of 32-52 per hour.

   <ctr-circle> A minimum of 7 flights will automatically be delayed.

  <bullet> In terms of arrivals, 35 flights are scheduled to arrive in 
        the 30-minute block between 5:15 p.m. and 5:44 p.m. Optimum 
        rate only allows for 28 flights to physically touch down in 
        that timeframe.

   <ctr-circle> Another 7 flights will be instantly delayed.

  <bullet> In a USA Today story focusing on JFK's problems on July 9, 
        it was reported, ``Officials at JetBlue, the seven-year-old 
        carrier that has become JFK's leading airline, carrying 11.6 
        million passengers into and out of the airport, have taken the 
        unusual step of endorsing limits on flights because they say 
        that at peak times, airlines are scheduling more flights than 
        JFK can handle.''

  <bullet> The evidence indicates there is no impact of general 
        aviation or business jets on the congestion and delay problems 
        at JFK. On April 30, 2007, there were 972 air carrier take-offs 
        and landings, 289 air taxi (regional jets) and SIX (6) GA 
        aircraft using JFK. On an average day in August: 1019 air 
        carrier take-offs and landings; 317 air taxi (regional jets); 
        30 GA.

Newark
    At Newark-Liberty International Airport, on the morning of Sept. 5, 
controllers arrived at work and discovered that they would instantly 
need to start issuing delay information to specific flights. The 
reason? Between 9-10 a.m., there were 57 flights scheduled to depart 
the airport. But Newark can only handle 45. That meant 12 flights right 
off the bat were instantly delayed before the beautiful sunny morning 
could even progress any further.
    A more detailed look:

   <ctr-circle> In the 3 hours from 5-8 p.m., when the airport can 
            accept 46 arrivals per hour for a total of 138, there were 
            160 scheduled arrivals. Those late arrivals put a heavier 
            burden on the ``big'' 8 p.m. departure hour when 51 
            departures were scheduled.

   <ctr-circle> Adding in all the late arrivals, there are more than 60 
            planes needing to depart in that hour when the airport can 
            only support 44-45.

    There are many reasons for delays that are never mentioned:

   <ctr-circle> Every arrival at EWR must eventually cross the 
            departure runway. That's why the 44 rate, but, a few times 
            each hour one of those arrivals fails to clear the runway, 
            extending the wait for the next departure.

   <ctr-circle> Every so often the first plane lined up at the runway 
            is not ready to go, or has a maintenance issue. That plane 
            must be moved aside, extending the wait for the next 
            departure.

   <ctr-circle> The acceptance of overflow arrivals to the crosswind 
            runway during periods when they are not necessary. Landing 
            10 overflows, and 35 main runway arrivals, when we could 
            have landed 45 on the main runway only, is unnecessary, and 
            on a North flow it kills 10-15 departure slots.

   <ctr-circle> The bottom line is that once the airport is scheduled 
            beyond its capacity, any operational issue will only worsen 
            delays built into the system by airline over-scheduling.

Chicago-O'Hare
    At Chicago O'Hare International Airport, for the optimum arrival 
configuration, the airport uses three runways: 4R, 10 and 9R. The 
maximum rate for arrivals is 100 per hour (25 per quarter hour). 
Maximum departure rate is also 100.
    But on Sept. 7, for example, there were many 15-minute periods in 
which both the scheduled number of both arrivals and departures 
exceeded 25. For example, from noon to 1 p.m. CDT, in what controllers 
call the ``noon balloon,'' the airlines scheduled 26 arrivals from 
noon-12:15 p.m., 28 from 12:16-12:30 p.m., 21 from 12:31-12:45 p.m. and 
29 from 12:46-1 p.m. That's a total of 104, which is four more than the 
airport could handle if everything had gone perfectly.
    Also on Sept. 7, the delays were scheduled to mount. And that's 
before any aircraft touched the runways. At 8:15 a.m., there were 41 
departures scheduled. But the airport can only handle 25 as previously 
stated. This means there were 16 flights that automatically were 
delayed due to the laws of concrete and physics. Those 16 flights 
spilled into the next half hour, which already had 16 flights 
scheduled, bringing the total for that 15-minute block to 32, which is 
seven more than the airport could handle and which spilled into the 
next half hour, where there were 19 flights scheduled.

  <bullet> At 10 a.m., there were 39 departures scheduled, meaning that 
        if everything went perfectly, 14 flights were late just by 
        sheer volume delays caused by overscheduling.

  <bullet> At 1 p.m., there were 50 departures scheduled, with another 
        28 waiting to depart at 1:15 p.m. and 26 more at 1:30 p.m. 
        Between 1-2 p.m. CDT, the total departures scheduled were 123. 
        The airport can only handle 100.

New York-LaGuardia
    At New York-LaGuardia Airport, the optimum configuration for 
runways 13/22 means a 40-44 airport arrival rate (11-12 per quarter 
hour) and 40 airport departure rate (10 per quarter hour).
    NATCA looked at 1 day earlier this month and went through the 
schedule before the traffic started. Under optimum configurations LGA 
will be able to depart 10 aircraft per hourly quarter, 40 per hour.

        4:15-14:29L (Local Time) 17 aircraft are proposed for 
        departure, 7 aircraft will be delayed to the next quarter 
        creating a backlog.

        14:30-14:44L another 10 aircraft are proposed for departure, 7 
        aircraft remain in the backlog.

        14:45-14:59L 11 aircraft are proposed for departure, 1 aircraft 
        will be delayed to the next quarter, totaling 8 backlog.

        15:00-15:14L 13 aircraft are proposed for departure, 3 
        additional aircraft are added to the backlog, totaling 11 in 
        the backlog.

        15:15-15:29L 7 aircraft are proposed for departure, 3 aircraft 
        can be departed from the backlog, 8 aircraft remain in the 
        backlog.

        15:30-15:44L 10 aircraft are proposed for departure, 8 aircraft 
        remain in the backlog.

        15:45-15:59L 6 aircraft are proposed for departure, 4 aircraft 
        can be departed from the backlog, 4 remain in the backlog.

        16:00-16:14L 14 aircraft are proposed for departure, 4 aircraft 
        are added to the backlog, 8 are again in the backlog.

        16:15-16:29L 10 aircraft are proposed for departure, 8 remain 
        in the backlog.

        16:30-16:44L 8 aircraft are proposed for departure, 2 aircraft 
        can be departed from the backlog, 6 aircraft remain in the 
        backlog.

        16:45-16:59L 7 aircraft are proposed for departure, 3 aircraft 
        can be departed from the backlog, 3 aircraft remain in the 
        backlog.

        17:00-17:14L 12 aircraft are proposed for departure, 2 
        additional aircraft are added to the backlog, totaling 5 
        aircraft in the backlog.

        17:15-17:29L 4 aircraft are proposed for departure, all 5 
        aircraft can be departed from the backlog, for the first time 
        since the 1415-1429L timeframe, the backlog is empty.

    The controllers will not recover the time for nearly 3 hours. 
Neither do the passengers on the delayed aircraft.

Philadelphia
    Finally, at Philadelphia International Airport, the optimum 
configuration for West operation, runways 27R/26/35, means a 52 airport 
arrival rate and airport departure rate (13 per quarter hour). For East 
operation, runways 9L/8/35: 48 airport arrival rate and airport 
departure rate (12 per quarter hour).

  <bullet> Under optimum configurations PHL will be able to depart 12-
        13 aircraft per hourly quarter, 48-52 per hour. The following 
        breakdown for Sept. 7 demonstrates the cascading effect over-
        scheduling has on delays that effectively deliver scheduled 
        delays:

        9:45-9:59L 15 aircraft are proposed for departure, depending on 
        configuration 2-3 aircraft will be delayed to the next quarter 
        creating a backlog.

        10:00-10:14L another 15 aircraft are proposed for departure, 
        again depending on configuration another 2-3 aircraft will be 
        delayed to the next quarter, totaling 4-6 in the backlog.

        10:15-10:29L 17 aircraft are proposed for departure, again 
        depending on configuration another 4-5 aircraft will be delayed 
        to the next quarter, totaling 8-11 backlog.

        10:30-10:44L 8 aircraft are proposed for departure, depending 
        on configuration 4-5 additional aircraft can be added from the 
        backlog, 4-6 remain in the backlog.

        10:45-10:59L 9 aircraft are proposed for departure, depending 
        on configuration 3-4 additional aircraft can be added from the 
        backlog, 1-2 remain in the backlog.

        With only 3 aircraft proposed from 11:00-11:14L, the backlog of 
        traffic is absorbed.

    Here's the situation in the afternoon:

        17:45-17:59L 19 aircraft are proposed for departure, depending 
        on configuration 6-7 aircraft will be delayed to the next 
        quarter creating a backlog.

        18:00-18:14L an additional 18 aircraft are proposed for 
        departure, again depending on configuration another 5-6 
        aircraft will be delayed to the next quarter, totaling 11-13 in 
        the backlog.

        18:15-18:29L an additional 17 aircraft are proposed for 
        departure, again depending on configuration another 4-5 
        aircraft will be delayed to the next quarter, totaling 15-18 
        backlog.

        18:30-18:44L 9 aircraft are proposed for departure, depending 
        on configuration 3-4 additional aircraft can be added from the 
        backlog, 11-15 remain in the backlog.

        18:45-18:59L 11 aircraft are proposed for departure, depending 
        on configuration 1-2 additional aircraft can be added from the 
        backlog, 9-14 remain in the backlog.

        19:00-19:14L 10 aircraft are proposed for departure, depending 
        on configuration 2-3 additional aircraft can be added from the 
        backlog, 6-12 remain in the backlog.

        19:15-19:29L 3 aircraft are proposed for departure, depending 
        on configuration 9-10 additional aircraft can be added from the 
        backlog, 3 remain in the backlog.

        With only 3 aircraft again proposed from 19:30-19:44L, the 
        backlog of traffic is absorbed.

     The controllers will not recover the time for an hour and a half. 
Neither do the passengers on the delayed aircraft.
Fewer Eyes Watching More Planes Equals Greater and Longer Delays
    Understaffing remains the number one issue for this Nation's air 
traffic controller workforce and this year, we have witnessed its 
effects on the efficiency of the system and our ability to squeeze as 
much capacity out of the system as possible. For 8 years now, NATCA has 
warned the FAA and the flying public about a coming wave of retirements 
and the need to plan proactively to build the next generation of 
controllers, instead of waiting for veterans to leave to hire their 
replacements, as the FAA has done, because it takes 2-3 years on 
average to complete the thorough and arduous training process. History 
will show that our fears were justified.
    In fact, NATCA said the following in our testimony before this 
committee on May 3, 2001 on the subject of flight delays and the fact 
that more controllers were needed to avoid a staffing crisis that would 
worsen any delay problem: ``The thousands of controllers hired during 
the post (1981 PATCO) strike recovery period will reach retirement 
eligibility in just a short period of time. Retirements will 
dramatically increase until 2007, when they will peak at 8.4 percent of 
the workforce. By 2010, cumulative retirements will exceed 50 percent 
of the workforce. We need to ensure that there are enough qualified and 
trained air traffic controllers to handle today's increasing workload 
and to prepare for the coming wave of controller retirements. Mandatory 
overtime, six-day work weeks and understaffed shifts are what air 
traffic controllers will be facing if something is not done now to 
prepare for this crisis. Currently, there are not enough controllers to 
fill the gap.''
    All of these things have occurred, including the mandatory 
overtime, six-day work weeks and understaffed shifts, which permeated 
the controller work environment this past summer.
    The FAA waited until just the past 2 years to begin hiring our 
veteran controllers' replacements, 3 years too late in our view. In 
fact, in 2004, the year the FAA should have hired more than 1,000 new 
prospective controllers to be ready to work this summer's record number 
of planes and passengers, the agency instead hired 13.
    As a result, there are now just 11,467 experienced and fully 
certified air traffic controllers on staff in our 314 facilities as of 
May 26, 2007, according to FAA figures. That is the lowest number in 11 
years, since there were 11,355 on staff at the end of the 1996 Fiscal 
Year. It's also 1,113 controllers less than what we had on staff on 9/
11, the day our growing and thriving system was ground to a halt by the 
unspeakable horror of those terrorist attacks. According to an 
Associated Press story from Sept. 2, the FAA is projecting 800 
retirements in the 2007 Fiscal Year that ends this Sunday. This number 
has been revised upward not once but twice by the FAA since June 2006, 
with the reason being that more controllers are leaving the workforce 
due to the work rules and pay cuts imposed on controllers on Sept. 3, 
2006. As of Aug. 1 of this year, there were already 697 retirements 
according to NATCA's own research. We expect that the final tally of 
retirements will reach or exceed 800, meaning this country is even less 
able than ever before to handle the growing number of flights and 
mitigate the resulting delays.
    Nowhere is the relationship between traffic, staffing and delays 
more apparent than at New York's John F. Kennedy International Airport. 
In 2001, JFK Air Traffic Control Tower handled an average of 1,000 
take-offs and landings per day. This summer, the airport has set 
numerous records with the tower handling an average of 1,400 take-offs 
and landing per day. This is a 40 percent increase. Over the same six-
year span, staffing at the tower has fallen from 37 fully certified 
controllers down to 28, which has resulted in regular occurrences of 
combining two positions into one due to staffing shortages. This means 
fewer eyes watching record high numbers of planes. This is first and 
foremost a safety concern, but is also one of the secondary factors 
that has made JFK the poster child for flight delays in 2007, behind 
over-scheduling by air carriers.
    As the FAA has stated in the media on numerous occasions and also 
in its own controller workforce plan, its first priority is safety. 
Thus, the FAA has made it clear that if it does not have enough 
staffing, it will worsen the delay crisis by putting more space between 
planes as an added safety margin. On Aug. 17, FAA Spokesman Ian Gregor 
was quoted in the North County Times (Calif.) as saying the following: 
``Safety is always our top priority. In the worst-case scenario, if we 
did have a bunch of people call in sick (in the case of a tuberculosis 
outbreak, which is what this story was about), we'd reduce services. We 
could keep planes further apart. Normally we have them three to five 
miles apart. We could separate them further and slow down the volume.'' 
NATCA believes this is a sad commentary on the predicament the FAA has 
placed itself in by allowing a staffing crisis to develop and worsen. 
There should always be enough staffing to overcome its employees' needs 
to use accrued sick and vacation leave and still be able to keep the 
system running at full capacity and efficiency. Yet we are now in a 
situation where the FAA has staffed the system to budget, leaving no 
flexibility and no room to avoid falling off the razor's edge when 
staffing prevents them from opening up every available control position 
in its tower and radar facilities. Nearly every one of the 314 
facilities in the country is now below the safe staffing levels agreed 
to by the FAA and NATCA in 1998.
    Understaffing is one of the reasons why delays have worsened at the 
five airports discussed earlier in this testimony: New York-LaGuardia, 
New York-JFK, Newark, Philadelphia and Chicago O'Hare. The charts below 
detail this situation:

        (LEGEND: ``Authorized'' is agreed-upon staffing levels between 
        NATCA and the FAA before last year's FAA imposed work rules; 
        ``Funded'' is what the FAA has committed to spending to staff; 
        ``CPCs'' is certified professional controllers on staff; 
        ``Trainees'' are developmental controllers; ``TMCs'' are 
        traffic management coordinators; ``Staff'' are staff 
        specialists; ``Supes'' are supervisors; ``CPC eligible end of 
        07'' indicates experienced controllers soon to reach retirement 
        eligibility; and ``CPC eligible end of 08'' indicates 
        experienced controllers who will reach retirement eligibility 
        by the end of next year:
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
How Fewer Controllers Translates Into More Space Between Planes and, 
        Thus, More Delays
    There is a clear link between understaffing and delays. Below are 
some examples of what has occurred:

  <bullet> Earlier this month, United Airlines Flight 169 from O'Hare 
        to Minneapolis was intentionally held to an altitude of 22,000 
        feet due to understaffing in the North Area of the FAA's 
        Chicago Air Route Traffic Control Center in Aurora, Ill. UAL 
        operations called to ask why the aircraft was held down and 
        they were told that it was due to staffing.

  <bullet> Also earlier this month, an episode of understaffing at 
        Kansas City Center meant that the FAA would be unable to hold 
        inbound traffic from O'Hare due to staffing.

  <bullet> In a San Francisco television news story this month about 
        the unprecedented number of new controller resignations at 
        Oakland Center in Fremont, Calif., it was reported that the 
        trainees at Oakland Center need to be brought up to speed by 
        the FAA sooner rather than later; otherwise, air travelers will 
        be the ones who suffer. The television station's aviation 
        consultant, Ron Wilson, said, ``They're (the controllers) not 
        going to control more planes than they can handle, and the only 
        way to do that is (for the FAA) to lessen the flow into these 
        airports which they will do with San Francisco, which is the 
        main Bay Area airport, and it will result in delays.''

  <bullet> According to controllers at Oakland Center, there is a 
        systemic impact of delays to one airport affecting the traffic 
        flows to other airports. There is a rise in the complexity 
        factor for sectors working holding and through traffic 
        simultaneously without adequate staffing to have two 
        controllers at each position. Additionally, inefficient flow 
        times means airlines miss their departure windows. That causes 
        airborne delays and sequencing problems that further impact the 
        flows of traffic.

  <bullet> According to controllers at Indianapolis Center, delays are 
        being caused routinely by the following factors: Additional in-
        trail restrictions on internal departures from major airports, 
        additional in-trail restrictions on adjacent centers/
        facilities, stopping departures during push times when traffic 
        exceeds capacity and choosing less than optimum cruising 
        altitudes and routes to avoid sectors/areas without adequate 
        staffing.

    The following are just a number of examples of filtered log reports 
and Internal Advisories generated by a Traffic Management Unit 
depicting the impact that staffing shortages are having on the National 
Airspace System. These are examples of traffic management initiatives, 
increased spacing between flights, being justified and caused by 
staffing, as well as, an incident where a manager approved the closure 
of an assistant controller position, [D-Side] that had previously 
required to be a staffed position.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Putting More Planes in the Air With Modern Technology Won't Solve the 
        Delay Problem Without More Concrete
    Without more runways, taxiways, ramps and gates--in a word, 
pavement--it won't matter what we do in the airspace to increase 
capacity to allow more aircraft to use the NAS. While NextGen and new 
technologies such as ADS-B are exciting, hold enormous potential for 
the future of our system and have NATCA's full support and pledge of 
participation, the key to unlocking the gridlock we are seeing in the 
system lies on the ground, at the airports.
    Runways are under construction at only three major airports. These 
are Charlotte, NC; Seattle, WA; and Washington Dulles. An example of 
the benefits from these new runways is at Seattle where currently the 
space between the two runways delays traffic when weather conditions 
deteriorate. Once the new runway is operational it will allow a 
dedicated operation for departures and arrivals which is more efficient 
and safer.
    No amount of airspace capacity-enhancing modernization will enable 
us to overcome the laws of physics and wake turbulence, which dictate 
the absolute maximum number of aircraft that can use a runway in a 
given amount of time.
    The FAA has tried a large-scale expansion of the airspace just 
recently and it did nothing to stem the rising tide of delays. In 
January 2005, Domestic Reduced Vertical Separation Minimum (DRVSM) was 
instituted nationwide. DRVSM reduced the vertical separation standard 
between aircraft from 2,000 feet to 1,000 feet for altitudes between 
29,000 and 41,000 feet. The point is it effectively doubled the 
capacity between those altitudes. However, we saw no improvement in 
delays. Why? Because there is only so much concrete at the airports.
    In a press release on Aug. 25, 2005, the FAA promoted DRVSM by 
saying the following: ``A doubling of high-altitude airspace routes 
between 29,000 feet and 41,000 feet (is) an action that gives pilots 
and air traffic controllers additional choices by allowing aircraft to 
fly more direct routes at the most fuel-efficient altitudes. DRVSM 
saves fuel, which saves the airlines money. In addition, more efficient 
routes can reduce flight times. DRVSM simultaneously adds airspace 
routes, increases capacity, and maintains the same high level of 
safety. DRVSM also makes working today's volume of traffic less complex 
for air traffic controllers. This reduces the potential for error and 
provides more options for controllers to help aircraft avoid turbulence 
and bad weather. In the summer of 2003, the FAA estimated that DRVSM 
would save airlines and other aircraft operators $5.3 billion over 10 
years, a conservative estimate considering the increase in jet fuel 
since 2003. The FAA estimated the cost of implementing DRVSM was about 
$869 million, primarily to airlines due to re-equipping older aircraft. 
The first-year savings are estimated to be about $393 million.''
    While controllers may have been able to help aircraft avoid 
turbulence and bad weather, we are certain that DRVSM did nothing to 
mitigate flight delays, as evidenced by the record surge the past 2 
years.
    Air traffic controllers support modernization and we hope the next 
FAA administrator will heed calls by the GAO, this Congress and others 
to work with controllers to build the system of tomorrow. But we must 
not get carried away. A modernized air traffic control system is a 
decade away and it will not solve delays, address the ground capacity 
problem at our busiest airports or keep the airlines from 
overscheduling these airports. NextGen won't stop bad weather or bring 
planes closer than they already are while about to land or take off. We 
could increase the amount of planes we have in the air right now with 
current technology but we don't have anywhere to put them on the 
ground. NextGen won't solve that.
    Additionally, without a strong, motivated, well-staffed controller 
workforce, all the high tech equipment in the world counts for little. 
We can't wait until the next generation or beyond. People are the most 
important part of the air traffic infrastructure and, because of 
decisions by this generation of FAA leaders, we don't have enough of 
them controlling aircraft to support today's traffic demands, let alone 
tomorrow's.
Conclusion
    America's air traffic controllers have a front-row seat to the 
flight delay crisis in the National Airspace System. This summer we 
witnessed from towers, centers and approach control facilities the 
highest level of flight delays in recorded history. With passenger 
levels expected to continue to increase, we can only anticipate the 
delays to continue to grow if not addressed quickly and 
comprehensively.
    Despite years of warnings from NATCA and other industry groups, the 
Agency failed to properly plan for the expected rise in flight levels. 
In 2001, NATCA cautioned that scheduling at peak hours at busy 
airports, even in good weather, would contribute to increased delays. 
Those fears have come to fruition as more passengers have been stuck on 
runways and stranded at airports this year than any other on record. 
Instead of addressing the issue of over-scheduling and adding more 
runways capacity, the Agency has instead hung its hat on a 
technological solution that, under the best case scenario, is a minimum 
of 13 years from implementation.
    While equipment modernization will aid in mitigating air traffic 
congestion, it is by no means a cure-all for the aviation delay 
dilemma. Air traffic controllers support modernization efforts, and we 
hope the next FAA Administrator will heed calls by the GAO, this 
Congress and others to work with controllers to build the system of 
tomorrow. But a modernized air traffic control system is over a decade 
away and it alone will not solve delays.
    In the long-term, ground capacity restrictions at our busiest 
airports are going to continue to be a leading cause of congestion. New 
runway capacity must be added at our busiest airports to coincide and 
compliment the airway capacity expansions that are expected to be 
provided by NextGen. The amount of airspace in the sky is irrelevant if 
we have no place to land the planes on the ground.
    In the near-term, we must ensure that as we plan for NextGen we do 
not lose sight of the NowGen. The chronic over-scheduling by airlines 
at the Nation's busiest airports will intensify the runways capacity 
limitations. Steps can be put into place to ensure that the busiest 
facilities are not overwhelmed, causing bottlenecks that ripple 
throughout the system.
    Meanwhile, understaffing of air traffic control facilities will 
continue to exacerbate the inefficiencies of the current system. As the 
NTSB warned earlier this year, we cannot continue to push our 
controller workforce beyond its limits. Controller fatigue rates are 
increasing at frighteningly high levels as air traffic continues to 
grow at unsustainable rates.
    The U.S. National Airspace System is the safest and most efficient 
in the world, but as evidenced by this hearing, it may soon lose that 
distinction. Eleven-hundred fewer certified controllers currently watch 
the skies then on 9/11, when 5,200 aircraft were landed safely in 90 
minutes. An additional 70 percent of the current workforce is soon 
facing retirement. Efforts are going to have to be made to stabilize 
our controller workforce and allow the segment of the U.S. economy that 
is increasingly dependent upon air travel to keep moving.
    NATCA is taking a proactive role in trying to help the flying 
public avoid delays to the greatest extent possible. We have launched a 
public information campaign which includes our website, 
www.avoiddelays.com. We encourage Members of this Committee and the 
flying public to visit the site and to provide their input.
    We appreciate the opportunity to submit testimony before the 
Committee to provide our input on the aviation congestion crisis. We 
also welcome opportunities to work with the FAA in a collaborative 
manner to help fulfill the promises of NextGen and to address the delay 
problems of the NowGen.
                                 ______
                                 
      Prepared Statement of Raymond M. Flynt, President and CEO, 
                      Travelers Aid International
    Chairman Rockefeller, Senator Lott, Members of the Subcommittee:

    Thank you for the opportunity to submit a statement for the record 
regarding the important issue of Congestion and Delays: The Impact on 
Travelers and Possible Solutions.
    With its mission to assist people who are in transition--or 
crisis--and disconnected from their support systems, Travelers Aid has 
provided ``A Helping Hand Along the Way'' to travelers for more than 
155 years. In addition to inner-city locations that assist stranded 
persons, Travelers Aid has a network of programs at twenty-five North 
American airports. At those airport locations, Travelers Aid, using 
over sixteen hundred volunteers, assisted more than six and one-quarter 
million people last year with information, directions, and problem 
solving during the course of their travels. Travelers Aid is a leader 
in airport customer service, and the focus of this testimony relates to 
the traveling consumer and the changes they have endured in recent 
years.
    We recall that today's headlines regarding air traffic delays first 
surfaced in the summer of 2001, when the media was filled with stories 
of an air travel system straining with record numbers of travelers. The 
need to modernize the Nation's air traffic control system and increase 
runway capacity (requiring many years of planning) were cited as the 
long-term fix. Then came September 11, 2001, after which the Nation's 
airlines were no longer operating at record capacity. Airline survival 
became the story in the summer of 2002.
    After airplanes were used to attack the World Trade Center, many 
people avoided air travel completely, and there was a steep decline for 
several years in foreign visitors to the United States. New security 
requirements at airports, including the guidance for passengers to 
arrive an hour and a half to 2 hours before flying (even longer for 
international travel) have prompted consumers to change their traveling 
habits as witnessed by the growing number of passengers on Amtrak's 
northeast corridor. Anecdotal evidence suggests that because of the 
requirement for earlier arrival at airports, many passengers have opted 
to drive instead of flying for trips that could be accomplished in four 
or 5 hours.
    In an effort to remain profitable, airlines have reduced their 
personnel at airports. Automated check-in kiosks have permitted fewer 
customer service agents, and reductions in the number of baggage 
handlers has slowed the process of getting checked luggage to travelers 
at the end of their trip. (Note: When liquids were first banned on 
flights in August, 2006, this had an impact on the number of people who 
decided to check baggage rather than surrender liquid items during the 
TSA security screening.) Our experience during the last 6 years is that 
consumers are savvy, and it doesn't take long for them to adapt their 
behavior to new regulations and procedures.
    In 2007, we are seeing record numbers of airline passengers, and 
the problems observed earlier are with us once again--only this time 
within an environment that has changed significantly over the past 
several years. In their groundbreaking book MEGATRENDS, authors 
Naisbett and Aburdene noted that in an increasingly technological 
world, hi-touch would be the antidote to high tech. Travelers Aid's 
experience with travelers suggests that this is true. As the air travel 
experience becomes more complicated and more stressful (increased 
security, new regulations, fewer airline customer service personnel, 
growing delays, overbooked flights, and lost luggage), more and more 
travelers are turning to Travelers Aid. With air travel this year 
expected to top the 737 million passengers handled in 2006, on any 
given day an airport is like a small city; teeming with people who are 
traveling out of business necessity, enjoying a vacation, or traveling 
for a multitude of specific reasons (e.g., funerals, family illness, 
job searches). Like every city, the population includes those who are 
anxious or inexperienced about their travels; elderly or people with 
disabilities; people on medication; and those trying to cope with an 
unexpected change in their itinerary. Every day, Travelers Aid sees 
people with travel-related problems:

  <bullet> Missed a connecting flight and have to reschedule.

  <bullet> Forgot medication or their medication remains in checked 
        luggage.

  <bullet> Need extra assistance finding their way.

  <bullet> Arrive expecting to be picked up, but a flight delay creates 
        a disconnect with their ride.

  <bullet> Need assistance in mailing back a precious item that TSA 
        would ask them to surrender.

  <bullet> Those who arrive at the wrong airport (Yes, it happens! 
        e.g., Dallas when they wanted to go to Dulles).

    The Internet has transformed the way people plan their travels, and 
has also helped keep costs competitive while providing more consumer 
choices. Not that many years ago a person would normally contact an 
airline to arrange their trip from, for example, New York to Los 
Angeles. Now after researching a variety of options on the Internet, a 
person may reserve airline ``A'' from New York to Chicago, while 
scheduling airline ``B'' from Chicago to Los Angeles. If the first 
flight is delayed sufficient to cause the person to miss the connecting 
flight, then the traveler confronts additional challenges of re-booking 
fees, etc. from the second airline (which has no investment in the 
earlier leg of the passenger's trip). This is another example of the 
type of traveler assisted by Travelers Aid.
    Our volunteers are knowledgeable and experienced in common travel 
problems, and know how to assist frustrated and sometimes angry 
travelers. Through person-to-person interaction, Travelers Aid provides 
up-to-date information to help people make decisions, shares our 
expertise of how other travelers have handled similar situations, and 
acts as an ombudsman to assist the traveler with airline or airport 
personnel.
    Travelers Aid--once a fixture at rail stations when trains were the 
most common source for interstate travel--has been a part of the 
country's major airports for more than four decades (LAX, SFO, DCA, 
IAD, JFK, ORD, DTW). Travelers Aid is a critical customer component, 
and because of our use of volunteers, a cost-effective way to help 
travelers. With the post 9/11 security measures consuming much more of 
traveler's time, many people now refer to the ``hassle'' of air travel. 
Add in the growing numbers of delays for flights and/or passenger 
luggage, and the stress levels are higher than ever at airports. We at 
Travelers Aid are there to help reduce the stress of modern travel. In 
addition to services provided at each of the airports that Travelers 
Aid serves, we maintain an active network to keep those airport 
programs connected. Because a passenger's journey encompasses a minimum 
of two airports--and often a third with connecting flights--a Travelers 
Aid volunteer at Dallas/Fort Worth Airport, for example, can contact 
the Travelers Aid program at the destination airport to alert them 
regarding a passenger who (because of age, infirmity, or other factors) 
may require the services of Travelers Aid upon their arrival.
    As a result of this networking capacity, we believe that we can do 
much more at airport locations that currently do not have a Travelers 
Aid presence. As a matter of public policy, airports should be 
encouraged to incorporate Travelers Aid programs that can assist air 
passengers by providing up-to-date information, directions, and 
problem-solving in order to make their journey go a little smoother. 
The result for the airport is a more pleasant and stress-reduced travel 
experience.
    We are always happy to serve as a resource for the Subcommittee on 
Aviation Operations, Safety, and Security regarding issues affecting 
air passengers.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                           Robert A. Sturgell
    Question 1. What do you believe is an acceptable time-frame for 
keeping passengers on a plane?

    Question 2. What is the minimum amount of service that should be 
provided to passengers for food, water, and lavatory facilities for 
passengers stranded on a flight for 4 hours?
    Answer. In response to both your questions, the Department is 
seriously concerned about the treatment of airline consumers, 
particularly those involved in lengthy on-ground delays. Clearly, 
stranding passengers aboard aircraft for hours on end simply is not 
acceptable, nor is failing to have sufficient food, water, and lavatory 
facilities for them when delays are lengthy.
    That is why Secretary Peters asked the Department's Inspector 
General to investigate the issue and provide her a report, along with 
specific recommendations for dealing with the problem. The Inspector 
General's report was issued September 25, 2007, and the Secretary 
directed DOT staff to carefully consider the recommendations in his 
report.
    Rulemakings are needed in order to implement a number of the 
recommendations in the Inspector General's report. On November 20, the 
Department published three rulemakings in the Federal Register to 
address the Inspector General's recommendations. In an advanced notice 
of proposed rulemaking (ANPRM), we set forth a number of proposals, 
including requirements that airlines create legally binding contingency 
plans for extended tarmac delays, respond to all consumer complaints 
within 30 days, publish complaint information online, and provide on-
time performance information for their international flights in 
addition to their domestic flights.
    The Department also issued a notice of proposed rulemaking (NPRM) 
that would require airlines to include all canceled flights and tarmac 
delays in their monthly delay reports, something they are not currently 
required to do. The Department also has issued an NPRM (as follow-up to 
a previously published ANPRM) to increase the required financial 
compensation for passengers involuntarily ``bumped'' from their 
flights.

    Question 3. Are airlines currently required to track baggage?
    Answer. Although there is no government requirement for airlines to 
track baggage, under contract law, airlines must pay passengers damages 
for which they are responsible, associated with lost, pilfered, 
damaged, and delayed luggage. Accordingly, it is the Department's 
experience that all major airlines have in place a baggage tracking 
system, some of them apparently sophisticated. In addition, pursuant to 
14 CFR 234.6, DOT currently requires each of the largest airlines 
(those accounting for 1 percent or more of domestic scheduled passenger 
revenue) to keep track of and report monthly to the Department the 
number of baggage reports they receive involving lost baggage, pilfered 
baggage, damaged baggage, and delayed baggage. Carriers must include in 
their reports to DOT all reports made to the carrier, whether or not 
the report results in a claim for compensation.

    Question 4. What steps should be taken by the airlines to reduce 
the number of baggage claims filed?
    Answer. Although the Department is considering several initiatives 
to improve protections for airline consumers, it has not yet studied 
baggage claim issues and would first need to examine them to determine 
what steps airlines could take to reduce baggage claims from current 
levels. The Department does regularly increase its minimum baggage 
liability limits, currently set at $3,000 per passenger, which provides 
an incentive for carriers to avoid baggage problems and to provide 
increased protection for consumers who do experience problems. DOT's 
Aviation Consumer Protection Division also meets monthly with most 
major airlines and, as necessary, uses that forum to emphasize to 
carriers the need to do everything they can to reduce baggage claims as 
much as possible.

    Question 5. Would the FAA consider requiring airlines to track the 
nature of baggage claims filed?
    Answer. In any examination of the baggage issue, including a 
reexamination of the reporting of baggage claims with DOT by carriers, 
the Department would consider the need for carriers to report the 
nature of baggage claims they receive.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                Robert A. Sturgell and Hon. D.J. Gribbin
    Question 1. Is the Administration considering requiring so-called 
``HOT Lanes'' at Newark Airport?
    Answer. The New York Aviation Rulemaking Committee (ARC) is 
considering all options for the airports in the New York region. The 
ARC is still meeting weekly and exploring options to address air 
congestion in the New York area. The ARC has five working groups to 
focus on the details of various congestion mitigation approaches, one 
of which is looking at eliminating the current ``First-Come, First-
Served'' air traffic policy.
    Aviation ``HOT lanes'' would involve giving priority to aircraft 
for which a fee has been paid during peak times and/or place priority 
on commercial flights, priority on flights equipped with avionics, 
larger aircraft etc.

    Question 2. Does the FAA's ``Aviation System Performance Metric'' 
program provide reasonable guidance for maximum operations at each 
airport? If you set limits on the number of operations at Newark 
Liberty International Airport or JFK International Airport, what would 
you base such limits on?
    Answer. Actual operational numbers are maintained in the Aviation 
System Performance Metric (ASPM) database. The database includes 
information on reported runway throughput, air traffic control-
determined airport arrival and departure rates, aircraft taxi-in and 
taxi-out times, on-time performance relative to schedule, and similar 
data to allow us to review various performance indicators.
    Limiting the operations at a particular airport would be based on a 
review of ASPM data, coordination with air traffic control facilities 
to establish any local operational issues or expectations of capacity 
enhancements or delay reduction measures, an assessment of actual 
airport capacity compared to theoretical capacity, and delay reduction 
goals. Although the FAA establishes the final operational or scheduling 
targets, there is an opportunity for customer input.
    The number of operations that can be accommodated at an airport 
depends on many factors including:

        1. Meteorological conditions.

        2. Airport runway layout (intersecting vs. parallel runways).

        3. Dual purpose runways (shared arrivals and departures).

        4. Taxiway layout to include the availability of high-speed 
        turnoff taxiways.

        5. Procedural and/or airspace limitations.

        6. Fleet mix.

        7. Airline scheduling practices.

    Question 3. How many airline consumer complaints has the Department 
received since 2000 (please list by year, and by type of complaint--
general categories are fine, as reported)?
    Answer. A list of airline consumer complaints received by the 
Department, by year and general type of complaint is attached.

    Question 4. How many airline consumer complaints has the Department 
investigated (please list by year, and by type of complaint--general 
categories are fine, as reported)?

    Question 5. How many airline consumer complaints have resulted in 
DOT taking enforcement action (please list by year, and by type of 
complaint--general categories are fine, as reported)?

    Question 6. How many airline consumer complaints have resulted in 
an offender agreeing to either a civil penalty or other action (please 
list by year, and by type of complaint--general categories are fine, as 
reported)?
    Answer. In response to your questions regarding consumer complaints 
leading to investigations, enforcement actions, and civil penalties 
(questions 4-6), the Department's Aviation Enforcement Office does not 
maintain its records in that manner. However, we can inform you that, 
with respect to recent investigations, DOT's Aviation Enforcement 
office began 20 investigations in early 2007 concerning chronically 
delayed flights and it received more than 2,000 consumer complaints 
during 2006 in its ``Flight Problem'' category, many of which involved 
or were prompted by delayed flights. Similarly, in late 2006 that 
office began investigations of 20 airlines for compliance with DOT's 
on-time performance notice rule and during 2006 that office received 
more than 1,000 consumer complaints in the category ``Reservations/
Ticketing/Boarding'' and more than 1,000 more in the category 
``Customer Service,'' some of which could include on-time notice 
issues.

    Question 7. How much money in civil penalties has the Department 
collected from airline enforcement activities since 2000 (please list 
by year, and by type of complaint--general categories are fine, as 
reported)?
    Answer. A list of assessed civil penalties arising out of 
enforcement actions by DOT's Aviation Enforcement Office, by year and 
general type of case is attached.
                               Attachment

               Airline Consumer Complaints Filed With DOT
                          [2000-September 2007]
------------------------------------------------------------------------
                    All Airlines--Calendar Year 2000
-------------------------------------------------------------------------
                                                                Pct. of
      Complaint category              Total complaints           total
                                                              complaints
------------------------------------------------------------------------
Flight Problems                                       9,242        39.5
Customer Service                                      4,461        19.1
Baggage                                               3,470        14.8
Reservations/Ticketing/                               1,713         7.3
 Boarding
Refunds                                               1,076         4.6
Oversales                                               888         3.8
Miscellaneous (includes                                 872         3.7
 Frequent Flyer)
Fares                                                   864         3.7
Disability                                              676         2.9
Discrimination (Except                                   76         0.3
 Disability)
Advertising                                              56         0.2
Animals                                                   1         0.0
------------------------------------------------------------------------
    Total                                            23,395       100.0
------------------------------------------------------------------------
      The following totals are in addition to the total complaints:

    Opinions: 1,731        Compliments: 164        Info Requests: 995
------------------------------------------------------------------------



------------------------------------------------------------------------
                    All Airlines--Calendar Year 2001
-------------------------------------------------------------------------
                                                                Pct. of
      Complaint category              Total complaints           total
                                                              complaints
------------------------------------------------------------------------
Flight Problems                                       5,480        33.2
Customer Service                                      2,862        17.3
Baggage                                               2,490        15.1
Reservations/Ticketing/                               1,611         9.8
 Boarding
Refunds                                               1,347         8.2
Fares                                                   666         4.0
Miscellaneous (includes                                 651         3.9
 Frequent Flyer)
Oversales                                               639         3.9
Disability                                              508         3.1
Discrimination (Except                                  184         1.1
 Disability)
Advertising                                              61         0.4
Animals                                                   6         0.0
------------------------------------------------------------------------
    Total                                            16,505       100.0
------------------------------------------------------------------------
      The following totals are in addition to the total complaints:

    Opinions: 1,305        Compliments: 79        Info Requests: 826
------------------------------------------------------------------------


------------------------------------------------------------------------
                    All Airlines--Calendar Year 2002
-------------------------------------------------------------------------
                                                                Pct. of
      Complaint category              Total complaints           total
                                                              complaints
------------------------------------------------------------------------
Flight Problems                                       2,031        21.5
Customer Service                                      1,712        18.1
Baggage                                               1,422        15.0
Reservations/Ticketing/                               1,160        12.3
 Boarding
Refunds                                               1,107        11.7
Fares                                                   523         5.5
Disability                                              475         5.0
Oversales                                               455         4.8
Miscellaneous (includes                                 317         3.3
 Frequent Flyer)
Discrimination (Except                                  193         2.0
 Disability)
Advertising                                              68         0.7
Animals                                                   0         0.0
------------------------------------------------------------------------
    Total                                             9,463       100.0
------------------------------------------------------------------------
      The following totals are in addition to the total complaints:

     Opinions: 963        Compliments: 51        Info Requests: 889
------------------------------------------------------------------------


------------------------------------------------------------------------
                    All Airlines--Calendar Year 2003
-------------------------------------------------------------------------
                                                                Pct. of
      Complaint category              Total complaints           total
                                                              complaints
------------------------------------------------------------------------
Flight Problems                                       1,260        21.1
Baggage                                               1,081        18.1
Reservations/Ticketing/                                 881        14.7
 Boarding
Refunds                                                 719        12.0
Customer Service                                        695        11.6
Disability                                              375         6.3
Fares                                                   305         5.1
Oversales                                               288         4.8
Miscellaneous (includes                                 257         4.3
 Frequent Flyer)
Discrimination (Except                                   85         1.4
 Disability)
Advertising                                              37         0.6
Animals                                                   2         0.0
------------------------------------------------------------------------
    Total                                             5,985       100.0
------------------------------------------------------------------------
      The following totals are in addition to the total complaints:

    Opinions: 912        Compliments: 23        Info Requests: 1,302
------------------------------------------------------------------------


------------------------------------------------------------------------
                    All Airlines--Calendar Year 2004
-------------------------------------------------------------------------
                                                                Pct. of
      Complaint category              Total complaints           total
                                                              complaints
------------------------------------------------------------------------
Flight Problems                                       1,730        23.2
Baggage                                               1,425        19.1
Reservations/Ticketing/                                 929        12.5
 Boarding
Customer Service                                        881        11.8
Refunds                                                 659         8.8
Miscellaneous (includes                                 540         7.2
 Frequent Flyer)
Disability                                              525         7.0
Oversales                                               346         4.6
Fares                                                   226         3.0
Discrimination (Except                                  119         1.6
 Disability)
Advertising                                              71         1.0
Animals                                                   3         0.0
------------------------------------------------------------------------
    Total                                             7,454       100.0
------------------------------------------------------------------------
      The following totals are in addition to the total complaints:

   Opinions: 1,072        Compliments: 38        Info Requests: 1,668
------------------------------------------------------------------------


------------------------------------------------------------------------
                    All Airlines--Calendar Year 2005
-------------------------------------------------------------------------
                                                                Pct. of
      Complaint category              Total complaints           total
                                                              complaints
------------------------------------------------------------------------
Flight Problems                                       2,234        25.6
Baggage                                               2,035        23.3
Reservations/Ticketing/                                 989        11.3
 Boarding
Customer Service                                        942        10.8
Refunds                                                 840         9.6
Disability                                              511         5.8
Oversales                                               375         4.3
Miscellaneous (includes                                 325         3.7
 Frequent Flyer)
Fares                                                   299         3.4
Discrimination (Except                                  129         1.5
 Disability)
Advertising                                              58         0.7
Animals                                                   4         0.0
------------------------------------------------------------------------
    Total                                             8,741       100.0
------------------------------------------------------------------------
      The following totals are in addition to the total complaints:

   Opinions: 885        Compliments: 44          Info Requests: 2,053
------------------------------------------------------------------------


------------------------------------------------------------------------
                    All Airlines--Calendar Year 2006
-------------------------------------------------------------------------
                                                                Pct. of
      Complaint category              Total complaints           total
                                                              complaints
------------------------------------------------------------------------
Flight Problems                                       2,162        26.0
Baggage                                               1,936        23.3
Customer Service                                      1,019        12.2
Reservations/Ticketing/                               1,007        12.1
 Boarding
Refunds                                                 774         9.3
Disability                                              430         5.2
Oversales                                               341         4.1
Fares                                                   252         3.0
Miscellaneous (includes                                 247         3.0
 Frequent Flyer)
Discrimination (Except                                  114         1.4
 Disability)
Advertising                                              40         0.5
Animals                                                   3         0.0
------------------------------------------------------------------------
    Total                                             8,325       100.0
------------------------------------------------------------------------
      The following totals are in addition to the total complaints:

   Opinions: 1,003        Compliments: 41        Info Requests: 1,852
------------------------------------------------------------------------



------------------------------------------------------------------------
                  All Airlines--January-September 2007
-------------------------------------------------------------------------
                                                                Pct. of
      Complaint category              Total complaints           total
                                                              complaints
------------------------------------------------------------------------
Flight Problems                                       3,581        34.4
Baggage                                               2,303        22.1
Reservations/Ticketing/                               1,115        10.7
 Boarding
Customer Service                                      1,075        10.3
Refunds                                                 798         7.7
Oversales                                               403         3.9
Disability                                              360         3.5
Miscellaneous (includes                                 347         3.3
 Frequent Flyer)
Fares                                                   301         2.9
Discrimination (Except                                   82         0.8
 Disability)
Advertising                                              33         0.3
Animals                                                   8         0.1
------------------------------------------------------------------------
    Total                                            10,406       100.0
------------------------------------------------------------------------
      The following totals are in addition to the total complaints:

    Opinions: 699        Compliments: 48        Info Requests: 1,683
------------------------------------------------------------------------


                          U.S. Department of Transportation Aviation Enforcement Office
                                    [Assessed Civil Penalties: 2000 to 2007]
----------------------------------------------------------------------------------------------------------------
                                                  Unauthorized       Civil       Other
                                  Advertising      operations       rights     consumer    Reporting    Totals
----------------------------------------------------------------------------------------------------------------
2000                                        0             75,000     100,000           0      90,000     265,000
2001                                  354,000             30,000      30,000      30,000           0     444,000
2002                                  315,000          1,127,500     700,000      30,000           0   2,172,500
2003                                  385,000            348,000   5,775,000      60,000      40,000   6,608,000
2004                                  175,000          1,132,500   4,095,000     105,000     120,000   5,627,500
2005                                  334,500          2,078,000     205,000   1,370,000           0   3,987,500
2006                                  349,000            762,500     295,000     770,000      60,000   2,236,500
2007 \1\                              310,000            620,000     145,000     155,000           0   1,230,000
----------------------------------------------------------------------------------------------------------------
\1\ Data for 2007 is based on civil penalties assessed from January 1 to October 26, 2007.

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                Robert A. Sturgell and Hon. D.J. Gribbin
    Question 1. On Tuesday of this week, the Memphis TRACON lost 
certain communications and radar for a period of approximately 3 hours. 
During this time, certain airports across the country were affected by 
this system failure and planes were canceled or severely delayed 
throughout the day. This also left many planes full of people on the 
tarmac for multiple hours. What was the systematic failure?
    Answer. On September 25, 2007 at 11:25 a.m. CDT the Memphis Air 
Route Traffic Control Center experienced a major telecommunications 
infrastructure failure that interrupted radar, voice communications 
data, and backup emergency services. At the time of the outage, there 
were approximately 220 aircraft in Memphis Center airspace.

    Question 1a. What contingency plans do you have for such failures?
    Answer. The FAA has a contingency plan at each air traffic control 
(ATC) facility, known as an Operational Contingency Plan (OCP). Our 
Automated Contingency Tool 2 (ACT2) enables all ATC facilities to share 
their OCPs with one another in real time throughout the National 
Airspace System (NAS). The OCP developed by each ATC facility outlines 
the roles and responsibilities and instructions for executing an OCP 
for the parent and supporting facility or facilities. FAA Order 
1900.47B Air Traffic Organization Operational Contingency Plan 
describes the responsibility for development and execution of the OCP 
by all ATC facilities that are supported by the ACT2.
    Operational contingency planning is designed to facilitate an 
orderly transfer of ATC services and airspace from a facility 
experiencing a loss of service capability during an emergency. The 
resulting continuity helps mitigate the impact to the NAS and ensures 
ATC services are minimally interrupted or not at all. The Air Traffic 
Control System Command Center (ATCSCC) serves as the central authority 
and focal point for the maintenance and implementation of OCPs for the 
NAS.
    OCPs can be triggered by natural disasters, major system failures, 
or other events, that directly affect personnel, the safe delivery of 
operational ATC services, or other technical capabilities. To the 
maximum extent possible, when a facility such as the Memphis Air Route 
Traffic Control Center becomes incapacitated or unusable, all affected 
airspace should be assumed by their pre-designated Support Facilities.
    OCPs are constantly updated in the ACT2 as administrative, 
operational requirements, and lessons learned change. OCP tabletop 
exercises at all levels are conducted at least yearly. Lessons learned 
and recommendations from these exercises are documented in the ACT2.

    Question 1b. How were you able to handle all the traffic in the air 
and on the ground at Memphis and other airports across the country 
(LIT)?
    Answer. Following facility contingency procedures contained in FAA 
Order 1900.47B, Memphis Center declared ``ATC-0,'' the condition that 
activates emergency transfer of air traffic control responsibilities to 
surrounding facilities.
    The outage did not disable all communications and surveillance 
(radar) facilities at Memphis ARTCC. Air traffic control specialists at 
Memphis Center and the Command Center, initiated coordination with 
surrounding and underlying air traffic control facilities to initiate 
reroutes around the center's airspace for aircraft that were already in 
the air and approaching Memphis Center. These facilities included 
Atlanta, Kansas City, Indianapolis, Houston and Fort Worth Centers, 
Memphis Tower, Nashville Tower, Fort Campbell Army Air Field, 
Huntsville Tower, Columbus Air Force Base, Springfield Approach 
Control, Jackson Tower, Little Rock Tower, Meridian Approach Control, 
Razorback (Fayetteville) Approach Control and Fort Smith Tower.
    Memphis Center controllers also used transmissions relayed through 
other aircraft to reach those aircraft on the lost frequencies. In 
addition, air traffic control specialists at the Nashville, TN Airport 
Traffic Control Tower used tunable radios to contact aircraft stranded 
on inoperable Memphis Center frequencies. As aircraft were contacted 
they were switched to adjacent and underlying air traffic control 
facilities.
    Clearing of the airspace and divestiture of Memphis ARTCC airspace 
were completed approximately 1 hour after the Memphis ARTCC declared 
ATC-0. The Air Traffic Control Systems Command Center convened telecons 
with the surrounding facilities and aircraft operators to provide 
information on the status of Memphis ARTCC. As Memphis ARTCC 
operational capabilities were restored, plans for resumption of air 
traffic service were developed and coordinated.
    At 2 p.m., ZME canceled ATC-0 and by 2:25 p.m. CDT, operations were 
normal. There were 582 delayed aircraft with no operational errors or 
deviations reported.

    Question 2. I also understand that the FAA has been discussing 
plans to consolidate much of the ATC responsibilities across the 
country. One such plan is to move certain operations, equipment, and 
staff from Little Rock National to Memphis. Can you explain some of the 
ATC consolidation planning being done at the FAA?
    Answer. Facility consolidation enables the FAA to modernize more 
quickly, thus providing air traffic controllers and technicians a 
better working environment and more up-to-date technology. If FAA is 
unable to modernize and draw down its excess and aging infrastructure, 
its long term fiscal viability will be in jeopardy. By taking advantage 
of opportunities to consolidate facilities, the FAA expects to save 
money in reduced infrastructure, reduced facility operating costs, and 
reduced staffing costs, and take advantage of the advanced automation 
capabilities that we now have in our facilities.
    FAA is faced with a significant backlog of terminal ATC facility 
replacement projects. It is FAA's policy to consider relocating or 
consolidating functions anytime the construction of a new ATCT is 
considered. Since 1993, FAA has safely consolidated approach control 
services at 22 airports and 3 military bases, including Los Angeles 
International Airport, into one Southern California TRACON. TRACON 
consolidations have already been successful in high-traffic regions 
across the country, including in New York, Washington, D.C., and in 
both Southern and Northern California FAA towers and en route centers 
average 27 and 43 years old, respectively. The average replacement cost 
for tower/TRACON projects is $30 million.

    Question 2a. If you go forward with consolidation, and one of these 
consolidation facilities suffers a systematic failure comparable to 
Memphis, how would a consolidated FAA ATC system react?
    Answer. A consolidated FAA ATC system would react just as Memphis 
Center did during the telecommunications infrastructure failure on 
September 25, 2007. FAA Order 1900.47B, Air Traffic Organization 
Operational Contingency Plan, establishes the ATO procedures, 
requirements, and responsibilities to develop, coordinate, support, 
maintain, revise, test, train, document, and implement OCPs for FAA air 
traffic control (ATC) facilities, Federal contract towers (FCT), FAA 
flight service stations (FSS), and contract automated flight service 
stations (AFSS).

    Question 2b. Has the DOT IG considered this type of consequence in 
FAA's planning?
    Answer. In 2004, the FAA received a report from the DOT OIG 
documenting the results of an OIG audit on FAA's OCPs for its air route 
traffic control centers (ARTCCs). The audit found that the FAA's OCPs 
did not accommodate prolonged/catastrophic disruptions at ARTCCs and 
recommended an analysis of a full range of alternatives for quickly 
restoring air traffic control services during a prolonged service 
disruption at ARTCCs.
    In response, the FAA conducted an in-depth trade study and 
engineering analysis and has developed a plan to ensure the continuity 
of air traffic services. FAA's Business Continuity Plan (BCP) 
designates selected areas of the William J. Hughes Technical Center as 
the backup en route center. FAA has worked closely with the DOT OIG in 
the development of the BCP, which is our interim response to 
contingency planning.
    The Technical Center is well-equipped to serve as the backup en 
route center. The resident laboratories can be quickly configured to 
emulate an operational en route facility including automation, 
surveillance, and voice and data communications. Live data feeds ensure 
that controllers have up-to-the minute air traffic information for safe 
and efficient operations. The ``spare'' center will provide a rapid, 
long-duration solution to restore normal air traffic services for an 
inoperative facility. This strategy would be enacted as the next step 
following a contingency operation and would remain in effect until the 
facility is reconstructed or repaired and full en route services can be 
restored. This plan ensures a state of readiness so that FAA can 
continue to deliver essential air traffic services.
    In the future, the Next Generation Air Transportation System 
(NextGen) will have continuity built in so that operations can transfer 
seamlessly from facility to facility when there is an outage. 
Foundational NextGen programs such as System Wide Information 
Management (SWIM), Data Communications and National Voice Switch will 
enable this capability.

    Question 3. I have an amendment to S. 1300, the FAA reauthorization 
bill that would require the FAA to conduct a needs assessment prior to 
consolidation into Memphis. It would also allow for a public comment 
period and publicly published criteria for consolidation as well as an 
independent study by the ATC Modernization Board to study consolidation 
recommendations from the Secretary and report them to Congress and the 
President. What type of assessments and studies are currently taking 
place to support a consolidation plan?
    Answer. FAA's future planning studies analyze the NAS in a myriad 
of different ways in order to find opportunities for advancing the 
overall system. There are currently studies of the NAS in its entirety, 
and studies that examine the detailed elements and components, 
including realignment plans, which help support and allow system growth 
as transition plans to NextGen are developed.

    Question 3a. Do you believe you should conduct thorough studies on 
any and all plans to consolidate?
    Answer. Yes, the FAA's future planning studies are and should be 
conducted using rigorous and definitive processes for the evaluation of 
facility realignment or consolidation. FAA analysis ensures safety and 
existing services are maintained or enhanced. In most cases, the 
services are improved by realignment due to the availability of 
enhanced tools and surroundings for the controllers.

    Question 3b. Why would the FAA invest $30 million into state-of-
the-art equipment (STARS and other new equipment) in Little Rock in 
2000 and propose to dispose of it in less than 4 years?
    Answer. At this time, the FAA does not have any plans to move 
Little Rock (LIT) operations, equipment, or staff to Memphis and there 
are no plans to dispose of the STARS or other new equipment currently 
used at Little Rock.

    Question 4. A lot of your plans for modernizing the FAA and NextGen 
not only call for consolidation and new technologies, but also 
privatization. Was a private/non-governmental company at all 
responsible for the Memphis incident?
    Answer. The outage at Memphis was attributable to a failed 
component within AT&T's network. The FAA, like all Federal agencies, 
relies on the commercial telecommunications infrastructure, but the FAA 
takes measures to mitigate the risk of a failure sustained by single 
telecommunications carrier. In this case, the mitigations were not 
sufficient to overcome the combination of factors that led to the 
serious outage. As a result, the FAA is reviewing configurations and 
available infrastructure at all major facilities to determine if 
additional options are available to improve the diverse routing of 
critical services.

    Question 4a. What are the identified risks of moving Air Traffic 
Control functions outside of the FAA?
    Answer. The question of the risks of moving Air Traffic Control 
functions outside the FAA can be best answered by looking around the 
world where such a movement has already occurred. The question is no 
longer whether or not such a movement can be successful, but rather 
what is needed to best ensure success.
    The separation of the ``Provision'' of air navigation services (the 
air traffic control functions) from the ``Regulator,'' the government 
entity that regulates it, is a well established practice around the 
world. The International Civil Aviation Organization (ICAO), a body of 
the United Nations, includes in its guidance materials that the Air 
Navigation Service Provider (ANSP) function be separate from the 
Regulator function. Furthermore, European Commission legislation 
mandates the separation of the ANSP from its Regulator. This separation 
can be achieved by placing the ANSP and Regulator in different 
organizations, or by making the two functions separate and distinct in 
the same organization, as is currently the case here in the United 
States with the Air Traffic Organization and the Office of Aviation 
Safety being distinct groups within the FAA.
    There are several examples where the Provision of air navigation 
services (the air traffic control functions) have been separated from 
those of the government Regulator (the rest of the FAA). In such cases, 
the ANSP organization has either:

        1. remained part of the government as a ``corporate'' entity, 
        or

        2. become a public-private partnership with the government 
        retaining partial ownership, or

        3. separated completely from the government and been totally 
        privatized.

    Regardless of the nature of the new ANSP organization, the factor 
that has been most crucial to its success has been ensuring that the 
relationship between the Regulator and ANSP is crafted appropriately. 
This is referred to as the Governance of the Provider by the Regulator.
    International experience has shown that if the Governance is well 
established, there would be little risk involved with moving air 
traffic control functions out of the FAA. However, if the Governance of 
the ANSP is not well established there are several risks:

        1. The Provider's performance in the areas of safety and 
        security may suffer unless strong regulation and oversight are 
        in place. Measures to ensure compliance with standards are 
        essential.

        2. Efficiency and economy of the service Provider could suffer 
        without the proper economic regulations in place. Proper 
        governance would include financial incentives to improve 
        efficiency.

        3. Public confidence in the air transportation system can erode 
        if there is not a sharp distinction between the Provider and 
        the Regulator, negatively impacting the industry's overall 
        well-being.

    Question 4b. What are the identified safety and security risks 
associated with consolidation?
    Answer. The FAA recently embarked on a comprehensive study of the 
risks to our staffed air traffic control facilities. This study will 
address all forms of risk to our current facilities including the 
previous collocations at the large TRACON Facilities. This will allow a 
comparison between the relative risk to our current facilities and the 
facilities where functions have been collocated. The study will be 
complete in March of 2008.

    Question 5. What does the FAA currently have available on their 
website for consumers to find real-time and historical information and 
statistics for airports, flights and airlines?

    Question 6. Would it be beneficial for the FAA, airports, airlines 
and consumers to know exact details on all delays and cancellations 
(real-time and historical)?

    Question 7. Would determining this information help identify flaws 
and assist in correcting?
    Answer. In response to Questions 5, 6, and 7, the Department has 
always felt that information is essential to ensure that consumers are 
able to make reasonable choices in air transportation and also to 
assist it in making decisions in the public interest. The Department 
already collects and makes available to the public a vast amount of 
information regarding airlines, airports, and their performance, 
through Federal Aviation Administration activities, the Aviation 
Enforcement Office, and the Bureau of Transportation Statistics. For 
example, the FAA currently provides, via the web, information covering. 
The Department also makes available on the web its monthly Air Travel 
Consumer Report, which contains, among other things, on-time 
performance data and statistics covering complaints, baggage reports, 
and denied boarding. That information can be found at the following 
site: http://airconsumer.ost.dot.gov/reports/index.htm. In addition, 
the Department's Bureau of Transportation Statistics (BTS) maintains 
extensive summary and detailed information on its website for the 
public about flight delays from 1987 to the most recent month 
available. Examples of that information, along with the website where 
it may be found is as follows:

  <bullet> Users can find on BTS' website summary tables that compare 
        on-time performance by year, by month nationally and for major 
        airports. http://www.bts.gov/programs/airline_information/
        airline_ontime tables/.

  <bullet> A more detailed web application, Flight Delays at-a-Glance, 
        allows users to look at annual and monthly performance 
        nationally, for all airports and for all reporting airlines. It 
        also provides the user with information by individual airline 
        at specific airports. http://www.transtats.bts.gov/
        HomeDrillChart.asp.

  <bullet> BTS maintains a webpage dedicated to causes of delays, which 
        provides users with monthly cause of delay reports since June 
        2003 nationally and by airport and by airline. It also provides 
        calculations to help the user find weather's share of delays 
        and the breakdown of delays attributed to the National Aviation 
        System. http://www.transtats.bts.gov/OT_Delay/
        OT_DelayCause1.asp.

  <bullet> A user is able to search for on-time performance by day, 
        including minutes of delay, by flight number, airline, airport 
        or route. The detailed statistics portion of this search 
        application provides even more detailed information including 
        tail numbers. http://www.bts.gov/programs/
        airlineine_information/airline_on
        time_statistics/.

  <bullet> The on-time performance database on BTS' TranStats 
        application allows users to perform more complex analysis and 
        sorting of monthly, year-to-date and annual data since 1987. 
        http://www.transtats.bts.gov/Fields.asp?Table_ID=236.

    The FAA provides real-time status information on general airport 
arrival or departure delays on fly.faa.gov. This same information can 
be accessed from a cell phone or personal digital assistant (PDA) at 
www.faa.gov/wireless/. Consumers can receive specific airport updates 
by e-mail to a cell phone, PDA, or e-mail address. This information is 
not stored for historical review.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                           Hon. D.J. Gribbin
    Question 1. While nearly full aircraft are good for the airline 
business, they can cause problems when trying to rebook passengers 
after flight cancellations. What role does your Department believe 
passenger load factors played in the summer travel season and how do 
2007 load factors compare to previous years across the airline 
industry?
    Answer. Load factors in July 2007 reached an all-time high for 
combined domestic and international system flights. The July system 
load factor for domestic and international flights was 86.0 percent, 
topping the previous high of 85.8 percent in June. The July load factor 
for domestic flights was 86.4 percent, matching the previous high of 
86.4 percent in June.
    Load factors have been steadily increasing in recent years. The 
record load factors in July of this year were up from July 2006 when 
the system load factor was 85.0 percent and the domestic load factor 
was 84.9 percent. They are up considerably from July 2000, the worst 
previous year for delays, when the system load factor was 78.1 percent 
and the domestic load factor was 77.2 percent.
    Higher load factors mean that there are fewer available seats for 
delayed or bumped passengers. It is more difficult to re-accommodate 
passengers on other flights when planes are full or nearly full.

    Question 2. This summer, a 15-year-old Alaskan girl from Juneau 
boarded a plane and flew to Seattle without her parents' permission in 
an effort to meet someone she met over the Internet. The incident 
exposed what I would consider a potential loophole concerning air 
travel and children between the ages of 13 and 17. Does the Department 
of Transportation have the authority to bring industry stakeholders and 
other interested parties together to discuss voluntary steps the 
industry could take to curb or eliminate unsupervised teenage air 
travel? What steps does the Department believe could be taken by the 
industry, as a whole, to address unsupervised teenage air travel and 
ticket purchase?
    Answer. The Department has the authority to communicate with our 
carriers with respect to any air transportation issues. Individual air 
carriers have the authority to establish contract of carriage rules 
precluding the sale of tickets to, or the transport of, unaccompanied 
minors of whatever age they should choose. Starting at age 12 on most 
carriers (age 15 on some carriers), a child can travel alone and the 
airline does not require unaccompanied-minor procedures. An 
unaccompanied-minor procedure is a process that typically requires a 
parent to fill out a form, the airlines to have employees chaperone the 
minor, and an adult, known to the parent and identified on the form 
that the parent filled out, to show identification when picking up the 
minor.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                       Hon. Calvin L. Scovel III
    Question 1. What improvements did you see on the part of the 
airlines and the DOT since 2001, when you issued your last report on 
extended airline delays on the tarmac?
    Answer. There are certain areas where the airlines' Customer 
Service Commitment provisions are working well, but greatest progress 
is not directly associated with whether a flight is delayed or 
canceled. These areas are: quoting the lowest fare, holding non-
refundable reservations without penalty, responding in a timely manner 
to complaints, and paying larger sums for lost luggage. However, as we 
found in our 2006 review \1\ of selected Commitment provisions, the 
airlines must refocus their efforts on airline customer service by 
resuming efforts to self audit their customer service plans, 
emphasizing to their customer service employees the importance of 
providing timely and adequate flight information, disclosing to 
customers chronically delayed flights, and focusing on the training for 
personnel who assist passengers with disabilities.
---------------------------------------------------------------------------
    \1\ OIG Report Number AV-2007-012, ``Follow-Up Review: Performance 
of U.S. Airlines in Implementing Selected Provisions of the Airline 
Customer Service Commitment.'' November 21, 2006.

    Question 2. What do you believe is an acceptable time-frame for 
keeping passengers on a plane?
    Answer. We believe that there should be a requirement that airlines 
set a time limit on delay durations before returning to a gate or, when 
a gate is not available, deplaning passengers using mobile air stairs, 
loading them onto buses, and returning to the terminal. However, we 
realize that a ``one-size-fits-all'' time limit may not be practical or 
reasonable and that certain procedures may need to be tailored to 
individual airlines and airports and will heavily depend on the 
situation. There may be situations or conditions that make it difficult 
to bring passengers back to a gate during long, on-board delays. Some 
of the main obstacles to this are the physical layouts of the airports. 
Some airports, by virtue of their design and modern facilities, may be 
able to safely accommodate aircraft movement. Other airports, because 
of their layout design (narrow taxiways), may not be able to 
accommodate aircraft moving about and off-loading passengers safely.
    Also, weather factors can limit off-loading options. For example, 
deplaning passengers onto metal mobile stairs is not feasible during a 
lightning storm. Likewise, it may not be necessary to deplane 
passengers at JFK after 2 hours, since typical Friday afternoon delays 
there normally last that long. However, a 2 hour, onboard delay at 
Austin might require deplaning activities to commence. Airlines and 
airports need to work together to determine the various situations that 
can occur and devise plans for handling those occurrences.

    Question 3. What additional steps do you think Congress should take 
to help alleviate delays for passengers?
    Answer. Congress may want to consider making the Airline Customer 
Service Commitment mandatory for all airlines. Many of the provisions 
of the Airline Customer Service Commitment are already governed under 
existing Federal regulations, such as baggage liability limits, proper 
accommodations for passengers with disabilities and special needs, 
prompt ticket refunds, and denied boarding compensation. There are also 
provisions that Federal regulations require to be in the airlines' 
contracts of carriage, such as disclosing policies for flight 
cancellations and ticket refunds.
    We are not opposed to a legislative mandate that would require 
airlines to: (1) define what constitutes a long, on-board delay; (2) 
set a time limit on delay durations before deplaning passengers; (3) 
incorporate such policies in their contracts of carriage and post them 
on their websites; and (4) work with airports to minimize long, on-
board delays. With regard to other issues, such as the provision of 
meeting passengers' essential needs, a consistent policy across the 
industry would certainly be helpful to customers. We would certainly 
endorse that.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                       Hon. Calvin L. Scovel III
    Question 1. I authored section 412 of the Committee-reported 
version of S. 1300 to require the Secretary of Transportation to better 
enforce airline consumer protections. Do you have suggestions for 
improving the requirements of this legislation, or other 
recommendations for how the Department can make passenger/consumer 
rights more of a priority?
    Answer. Section 412 expands the Department's authority to 
investigate consumer complaints regarding, among other things, flight 
cancellations, problems in obtaining refunds for unused tickets or lost 
tickets or fare adjustments, and deceptive or misleading advertising.
    The Office of the Secretary has such authority, through the Office 
of General Counsel, to initiate investigations based on airline 
passenger complaints and shall, by law, investigate all complaints it 
receives from air travelers with disabilities. In our 2006 review on 
airline customer service issues, we found that the Department oversees 
and enforces air travel consumer protection requirements with a focus 
on investigation and enforcement of civil rights issues, including 
complaints from passengers with disabilities. Investigations based on 
other airline passenger complaints, such as availability of advertised 
fares and consumers' ability to redeem frequent flyer award, are 
limited and the Department can only take enforcement action when 
violations occur.
    We have made other suggestions for how the Department can make 
passenger/consumer rights a higher priority. In our November 2006 
report, we recommended that the Department, among other things:

  <bullet> revisit its current position on chronic delays and 
        cancellations and take enforcement actions against air carriers 
        that consistently advertise flight schedules that are 
        unrealistic, regardless of the reason.

  <bullet> determine whether (a) the maximum denied boarding 
        compensation amount needs to be increased and (b) denied 
        boarding compensation needs to be expanded to cover aircraft 
        with 31 to 60 seats.

  <bullet> examine through rulemaking proceedings the need to 
        standardize the reporting of airline data on frequent flyer 
        redemptions so that customers can make a more meaningful 
        comparison of the benefits of each airline's frequent flyer 
        program.

    In our September 2007 report,\2\ we made another series of 
recommendations to the Department to improve the accountability, 
enforcement, and protection afforded air travelers. Three such 
recommendations address the airlines' on-time performance and require 
all airlines that report on-time performance to the Department pursuant 
14 CFR Part 234 to:
---------------------------------------------------------------------------
    \2\ OIG Report Number AV-2007-077, ``Actions Needed To Minimize 
Long, On-Board Delays,'' September 25, 2007.

  <bullet> establish specific targets for reducing chronically delayed 
---------------------------------------------------------------------------
        or canceled flights.

  <bullet> post on-time flight performance information on their 
        Internet sites.

  <bullet> disclose to customers at the time of booking, without being 
        asked, the prior month's on-time performance rate for those 
        flights that have been delayed (i.e., for 30 minutes or longer) 
        or canceled 40 percent or more of the time.

    Question 2. At my request the Senate included $2.5 million in its 
FY 2008 Transportation Appropriations bill to enhance the resources of 
the DOT Office of Aviation Enforcement and Proceedings. In what ways 
could this office use this funding to be more effective? And what more 
will DOT be able to accomplish with this level of funding?
    Answer. In our 2006 review of selected airline customer service 
areas, we found that the Department's Office of Aviation Enforcement 
and Proceedings had not conducted onsite compliance primarily because 
travel funds--especially those for enforcement and compliance 
purposes--have declined significantly since 2003. Between 2003 and 
2005, travel funding for compliance and enforcement purposes declined 
from $51,000 to $3,500.
    In the absence of on-site reviews, the Office must rely on self 
certification by the air carriers and other providers of air services. 
Certifications may be appropriate in some cases but should not supplant 
physical verification, especially in cases resulting from severe 
consumer harm (e.g., a pattern of civil rights violations). To the 
extent possible, the Department should make enforcement a priority and 
direct sufficient resources for staff to conduct onsite compliance 
verification.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                       Hon. Calvin L. Scovel III
    Question 1. On Tuesday of this week, the Memphis TRACON lost 
certain communications and radar for a period of approximately 3 hours. 
During this time, certain airports across the country were affected by 
this system failure and planes were canceled or severely delayed 
throughout the day. This also left many planes full of people on the 
tarmac for multiple hours. What was the systematic failure?
    Answer. According to the Federal Aviation Administration's (FAA) 
internal report, a circuit card in a telecommunications component at a 
telephone company central office in Oakdale, Tennessee, failed. When 
the failure occurred, 60 telecommunications lines, including the 
primary and alternate FAA Telecommunications Infrastructure (FTI) 
service connections to the Memphis Air Traffic Control (ATC) and 
surrounding ATC facilities, were lost. This affected flight data, 
radar, and communications and resulted in 566 flight delays. The 
failure could occur at other locations because the FTI design for 
Memphis is in use at other critical FAA facilities, such as the Atlanta 
and Jacksonville ATC centers.

    Question 1a. What contingency plans do you have for such failures?
    Answer. FAA has standardized contingency plans for such failures. 
Basically, when all ATC capability is lost at an FAA facility, all 
aircraft waiting to depart are grounded, while all aircraft flying in 
the facility's airspace are instructed to contact an adjacent facility 
for ATC instructions. This contingency plan has been used successfully 
in response to a number of FTI-related ATC outages. The Memphis outage 
was the largest FTI-related outage so far. These contingency plans 
maximize safety but do so at the expense of scheduling and can lead to 
massive numbers of delays.

    Question 1b. How were you able to handle all the traffic in the air 
and on the ground at Memphis and other airports across the country 
(LIT)?
    Answer. The Memphis outage caused 566 flight delays. FAA handled 
the affected air traffic via contingency planning. During the outage, 
controllers diverted traffic to other centers and used the assistance 
of terminal and command center operations to help with aircraft in 
flight.

    Question 2. I also understand that the FAA has been discussing 
plans to consolidate much of the ATC responsibilities across the 
country. One such plan is to move certain operations, equipment, and 
staff from Little Rock National to Memphis. Can you explain some of the 
ATC consolidation planning being done at the FAA?
    Answer. To date, FAA has not released a formal plan for 
consolidating ATC facilities. Approximately 2 years ago we met with FAA 
officials and learned that the Agency was looking at several options to 
consolidate facilities, most notably the terminal radar approach 
control (TRACON) functions. This included co-locating the Little Rock 
TRACON into the Memphis TRACON. We also understand that Congress was 
briefed on this issue last year after concerns were raised that 
consolidation efforts were ongoing without congressional notification. 
Since then, we are not aware of any additional activities regarding 
consolidating ATC facilities.

    Question 2a. If you go forward with consolidation, and one of these 
consolidation facilities suffers a systematic failure comparable to 
Memphis, how would a consolidated FAA ATC system react?
    Answer. A consolidated ATC facility functions in the same way as 
the smaller facilities that it replaces. Therefore, the same type of 
contingency plan would be implemented for a systemic outage at a 
consolidated facility as at a smaller facility. That being said, 
because a consolidated facility is responsible for a greater amount of 
airspace and a larger number of airports, the impact of an outage at a 
consolidated facility would be larger than at a smaller facility that 
controlled just one airport and a smaller airspace.

    Question 2b. Has the DOT IG considered this type of consequence in 
FAA's planning?
    Answer. No. The Office of Inspector General has not reviewed the 
consequences of a systematic failure at a consolidated air traffic 
control facility.

    Question 3. I have an amendment to S. 1300, the FAA reauthorization 
bill that would require the FAA to conduct a needs assessment prior to 
consolidation into Memphis. It would also allow for a public comment 
period and publicly published criteria for consolidation as well as an 
independent study by the ATC Modernization Board to study consolidation 
recommendations from the Secretary and report them to Congress and the 
President. What type of assessments and studies are currently taking 
place to support a consolidation plan?
    Answer. We are unaware of any current assessments or studies to 
support a consolidation plan. However, we note that the Agency's 
reauthorization proposal includes a provision setting up a process for 
consolidating air traffic facilities. The process includes the 
Administrator recommending facilities and services that could be 
realigned or consolidated to a Base Realignment and Closure Commission 
or ``BRAC''-style commission, which would then make a decision on those 
recommendations. Both the President and the Congress would have the 
opportunity to review and approve or disapprove the recommendations.

    Question 3a. Do you believe you should conduct thorough studies on 
any and all plans to consolidate?
    Answer. We believe that FAA and the proposed ATC Modernization 
Board should conduct a complete analysis of any potential ATC facility 
consolidations to ensure they are cost effective.

    Question 3b. Why would the FAA invest $30 million into state-of-
the-art equipment (STARS and other new equipment) in Little Rock in 
2000 and propose to dispose of it in less than 4 years?
    Answer. Consolidating Little Rock into FAA's Memphis area facility 
was not envisioned when Standard Terminal Automation Replacement System 
(STARS) was procured. In fact, FAA does not use STARS at its large 
consolidated facilities; a more capable system, Common Automated Radar 
Terminal System, is used at facilities such as Potomac or Southern 
California. It is not yet clear to us whether STARS is capable of 
handling requirements of a large consolidated facility.

    Question 4. A lot of your plans for modernizing the FAA and NextGen 
not only call for consolidation and new technologies, but also 
privatization. Was a private/non-governmental company at all 
responsible for the Memphis incident?
    Answer. Yes, the telecommunications equipment that failed and 
caused the Memphis outage was owned and maintained by the local 
telecommunications provider in the Memphis area (Bell South).

    Question 4a. What are the identified risks of moving Air Traffic 
Control functions outside of the FAA?
    Answer. We have not examined the risk of moving air traffic control 
facilities outside of FAA. We do think a primary risk in moving ATC 
functions outside of the FAA would be the loss of direct, governmental 
oversight of the readiness of the ATC equipment. Today, FAA personnel 
certify, inspect, and maintain ATC equipment on a daily basis. Moving 
functions outside the control of FAA places the equipment in the hands 
of third-party providers, such as local telephone companies that 
control the functioning of the FTI network. An extraordinary level of 
oversight is required.

    Question 4b. What are the identified safety and security risks 
associated with consolidation?
    Answer. One risk associated with consolidating FAA air traffic 
control facilities, and one which warrants FAA's attention, is that 
consolidation could increase vulnerability to a catastrophic failure. 
If an air traffic control facility suffers a total failure; whether it 
is equipment, software, or access by unauthorized personnel; air 
traffic control services are interrupted in the covered airspace. Since 
these services are now provided at separate locations, a single 
facility failure does not interrupt all air traffic services, as was 
the case with Memphis. However, if a consolidated facility were to go 
down, then a larger geographical area would be affected, increasing the 
likelihood of delays rippling through the air traffic control system.
    Another area that warrants attention is how air traffic control 
facility consolidation changes FAA's current approach for developing 
and fielding technology and whether a new approach will be required. 
Although the ATC system is not unique in the aggregate, each en-route 
domain requires some site-specific modifications (i.e., site 
customization) due to such things as weather, traffic flows, and 
terrain differences. This requires some enhancement and additional 
testing once systems are fielded. Currently, testing and fielding 
practices are limited to requirements of that specific airspace. 
However, in a consolidated environment the system development and 
fielding of software or hardware would increase in complexity since a 
failure would impact a larger ATC area. FAA will have to develop and 
institutionalize quality assurance practices (for both hardware and 
software) to ensure that facilities can effectively and safely manage 
additional airspace should the need arise.

    Question 5. What does the FAA currently have available on their 
website for consumers to find real-time and historical information and 
statistics for airports, flights and airlines?
    Answer. The most current delay information posted on FAA's Internet 
site is the Real-Time Airport Status provided by the FAA's Air Traffic 
Control System Command Center (http://www.fly.faa.gov/flyfaa/
usmap.jsp). The status information provided on this site indicates 
general airport conditions; it is not flight-specific.
    The Department's Bureau of Transportation Statistics (BTS) provides 
historical information and statistics on delays, cancellations, and 
diversions (http://www.bts.gov/programs/airline_information/
airline_ontime_tables).
    Air carriers that account for at least 1 percent of domestic 
scheduled passenger revenues submit monthly reports to the BTS. These 
reports are used, among other things, to determine the percentage of 
(1) flights departing and arriving on time by airport; (2) flights 
delayed, canceled, and diverted; and (3) the flights delayed by cause. 
BTS posts the flight performance statistics it receives from the air 
carriers on its Internet site, by month and year to date, and has been 
doing so since July 2003. The Department also incorporates these 
statistics in its monthly Air Travel Consumer Report.
    On-time performance for a specific flight is also available (http:/
/www.bts.gov/programs/airline_information/airline_ontime_statistics/), 
but the data is for the preceding month and is not real-time data. Two 
of the three largest independent online travel agencies also provide 
on-time percentages for flights that are being booked, even for 
airlines that do not report that information on their own Internet 
sites.
    The only real-time information for specific delays and 
cancellations is available, through querying, on airlines' Internet 
sites. Consumers can query by flight number to find out if a flight is 
on-time, delayed, or canceled.

    Question 6. Would it be beneficial for the FAA, airports, airlines 
and consumers to know exact details on all delays and cancellations 
(real-time and historical)?
    Answer. We have not examined the benefits of providing aviation 
industry stakeholders, including consumers, with exact details on all 
delays and cancellations, real-time or historical. Determining the 
exact details can be very difficult, and there may be multiple causes. 
There may also be technical limitations that make this difficult or 
expensive to implement.

    Question 7. Would determining this information help identify flaws 
and assist in correcting?
    Answer. Again, determining the exact details on delays and 
cancellations can be very difficult, and there may be multiple causes. 
We note that historical data on delays and cancellations are available 
on the BTS' Internet site and are used by BTS and the Department to do 
trend analysis and to find patterns of chronically delayed and canceled 
flights--by airport, by carrier, and by flight number. These data are 
reported in the Department's monthly Air Travel Consumer Report.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                            Robert W. Reding
    Question 1. Do you believe the actions of American Airlines on 
December 29, 2006, when passengers were confined on a plane for as much 
as 9 hours with the Airline Customer Service commitment to ``Meet 
Customers' essential needs'' during long, on-aircraft delays?
    Answer. We did meet the essential needs of providing food, water, 
lavatories, and medical assistance for customers on the flight to which 
you refer during its long delay, and we are particularly proud of the 
patience and professionalism of the flight crew that day under 
exceptionally trying circumstances. But we readily acknowledge that we 
should have made better efforts to deplane the passengers earlier than 
we did, and we have vowed not to repeat such lengthy delays in the 
future.
    The details of what happened with this flight have been reviewed 
extensively by the Inspector General of the Department of 
Transportation. That review included a debriefing of the event by a 
member of our in-flight crew correcting much of the misinformation 
reported in the media. Never in the history of our company have we had 
such unique and catastrophic weather conditions as we did on the day in 
question. In retrospect, we did not handle it well in some instances. 
But we have learned a great deal from that experience and have 
implemented policies and procedures, and deployed newly developed 
technology, to assure that such long onboard delays will not happen 
again.
    With that said, it is critical to emphasize that all of our 
decisions that day were made with maximum emphasis on the safety of our 
passengers and crews. We have a conservative policy about operating in 
adverse weather conditions. We have not and will not change that 
policy. While we deeply regret the discomfort that was experienced by 
many of our customers on those flights, we will never do anything to 
compromise safety.

    Question 2. Please define what ``essential needs for food, water, 
lavatory facilities, and medical attention'' are as mentioned in your 
testimony.
    Answer. We have developed detailed contingency plans at every 
domestic airport to address aircraft with lengthy tarmac delays. This 
means providing adequate water, snacks, working restroom facilities, 
and basic medical assistance. In each case, the airport team has an 
operational contingency plan that is unique for that location and 
includes coordination with the local airport authorities and other 
airlines serving the airport when appropriate. Each plan designates a 
local control person to coordinate activities of the local team and 
communicate with our central operations team at headquarters.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Robert W. Reding
    Question 1. What is your company doing to address flights that are 
regularly delayed (more than 50 percent of the time)?
    Answer. We review our most delayed flights on a regular basis and 
either adjust schedules or cancel operations in response. On a daily 
basis, we coordinate with the FAA Air Traffic Command Center to address 
ad hoc operational issues and attempt to maximize air space capacity 
efficiencies.

    Question 2. Do you currently inform customers before purchase of a 
fare whether any leg of their itinerary is regularly delayed (more than 
50 percent of the time)?
    Answer. We inform customers speaking with our Reservations agents 
about flight dependability when requested. In addition, we are in the 
process of adding this information to our website so that customers 
making reservations on aa.com will be able to see the dependability 
data for the flight they are planning to purchase.

    Question 3. Does your company schedule below the maximum number of 
operations provided by the FAA's Aviation System Performance Metric at 
each airport where your company operates?
    Answer. Yes. The FAA's Aviation System Performance Metric applies 
to all operations at a given airport. We are not aware of any airport 
in which American's schedules exceed the maximum operations for that 
facility. In some circumstances, however, the total number of all 
airline operations at a given airport may exceed the maximum. When such 
a situation arose at Chicago O'Hare a few years ago, the FAA convened a 
meeting of the carriers to discuss the situation. As a result of that 
process, both American and United made significant and voluntary 
schedule reductions during the most congested hours. Unfortunately, 
several airlines decided to add flights to ORD AFTER we canceled or 
moved our flights out of those critical time periods and the FAA had no 
way to prevent them from doing so.

    Question 4. Given the complex logistics of commercial airline 
operations, do you believe that after a certain amount of time, 
passengers should be given the option to deplane a departing flight 
that has backed away from the gate but has not yet taken off? If so, 
what is an appropriate time limit? Should this be a Federal standard or 
guideline or should carriers be allowed to set and publish their own 
policies? If not, why not?
    Answer. Yes. We have a self-imposed standard that requires us to 
allow our passengers the opportunity to deplane or we return to a gate 
after a 4-hour delay unless there is a high likelihood that the flight 
is about to depart or there is a safety concern such as lightning, etc. 
We do not object to a Federal rule requiring each airline to have a 
well-defined policy about departing flights, but we believe that each 
carrier should be allowed to define its own guidelines and never 
compromise safety or a Captain's ultimate authority.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                            Robert W. Reding
    Question 1. What impact did the September 25, 2007 shutdown of 
Memphis Air Traffic Control systems have on your business?
    Answer. It had a major operational and cost impact on American and 
American Eagle. As a result of the shut down, the two carriers canceled 
148 flights and took substantial delays on hundreds of others. The cost 
to the carriers was in the millions of dollars.

    Question 2. How did your airline react to meet the needs of your 
customers during the Memphis shutdown?
    Answer. We implemented the Customer Service Plan and local 
contingency plans discussed above. This resulted in the cancellations 
that we took. We are not aware of any flights in which we failed to 
provide essential amenities or services.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                          Captain Joe Kolshak
    Question 1. Delays that occur in New York can have a severe impact 
and ripple effect on traffic across the entire national system; 
including flights to Alaska through lower 48 hub airports. One solution 
that has been promoted by several economists is the concept of 
``congestion pricing'' at capacity constrained airports. What are your 
thoughts on using congestion pricing as a ``demand management'' tool at 
airports that are capacity constrained, such as LaGuardia in New York?
    Answer. Delta agrees that delays experienced in New York this year 
simply cannot be repeated again next summer. To that end, we adjusted 
our schedule for summer 2008 to smooth out our operations, operate 
fewer flights during the peak congestion period and increase the 
average number of seats per aircraft flying to and from JFK. On your 
specific question, theoretical approaches like congestion pricing fail 
to recognize the realities of the marketplace, the complexities of 
international airline networks, and the fact that there are no good 
substitutes at an international hub like JFK for peak afternoon 
operations. Congestion pricing is ultimately a tax that will force U.S. 
carriers to cut flights and increase fares. It will drive out service 
to small communities and reduce the frequency of flights U.S. carriers 
offer to JFK. The ripple effect of those cuts in service would be felt 
throughout Delta's system, both domestically and internationally. Small 
community service provides a full 25 percent of the feed to support 
Delta's unique international flights. Reducing feed reduces the 
economic sustainability of much of Delta's international service and 
will force U.S. passengers to use foreign flag carriers connecting over 
Europe to reach destinations Delta offers on a direct basis from JFK 
like Kiev, Accra, Nice and Budapest. This flies in the face of the 
Administration's efforts to liberalize aviation agreements and provide 
new opportunities for U.S. passengers to reach international 
destinations on U.S. carriers. The fact is that there are 15 commercial 
and non-commercial airports in the NY Terminal Radar Control area 
(TRACON), and commercial airline operations represent only 53 percent 
of the total operations. Each of the commercial airports in the New 
York region is operating significantly below both its FAA-published 
design capacity and the capacity rates ``called'' by the FAA each day 
based on factors like weather, turbulence, etc., for each airport. The 
root problem is not a lack of runway space or over-scheduling. There is 
ample concrete for commercial airlines to operate their existing 
schedules. The problem is ineffective management of this complex 
airspace, and we believe there are a number of steps the FAA can take 
immediately to help improve its management of the New York airspace and 
reduce delays.

    Question 2. This summer, a 15-year-old Alaskan girl from Juneau 
boarded a plane and flew to Seattle without her parents' permission in 
an effort to meet someone she met over the Internet. The incident 
exposed what I would consider a potential loophole concerning air 
travel and children between the ages of 13 and 17. What is Delta 
Airlines' policy on allowing teenagers between the ages of 13 and 17 to 
travel and purchase tickets without parental consent? What specific 
policies does Delta have in place to deter unsupervised teenage travel 
and ticket purchase? What steps do you believe could be taken by the 
industry, as a whole, to address unsupervised teenage air travel and 
ticket purchase?
    Answer. Delta defines an unaccompanied minor as a child between the 
ages of 5 and 14 and publishes our policies with regard to travel by 
unaccompanied minors on our website and will provide the information 
during the phone reservation process upon request. Children ages 5-7 
years can only fly on nonstop or direct flights with no change of 
planes. Children ages 8-14 years can fly on nonstop or connecting 
flights, and children 15-17 are not required to have unaccompanied 
service but we will provide it when requested. An unaccompanied child 
may not be booked on the last connecting flight of the evening in order 
to prevent the need for an overnight stay in a hotel. Delta personnel 
are trained on our policies for accepting children traveling alone and 
are also trained to use their judgment to question the age of young 
passengers traveling alone to ensure that they are traveling 
consistently with our unaccompanied minor procedures. Delta only allows 
minors between the ages of 514 to travel alone if the adult responsible 
for the child complies with our unaccompanied minor policy and 
attendant procedures. Application of this policy and procedures is 
mandatory if a child does not travel in the same compartment with an 
adult at least 18 years old or the child's parent/legal guardian. Our 
unaccompanied minor policy requires identification of a responsible 
adult who will bring the child to the airport and the adult responsible 
for meeting the child at his or her destination. A Delta flight 
attendant will keep tickets and other travel documents throughout the 
flight, and children under the age of 15 will not be seated in an exit 
row. An unaccompanied minor will not be released to anyone other than 
the person previously designated by the parent or guardian to pick the 
minor up, and the adult designated must show identification and sign an 
acceptance of responsibility form.
    In this electronic age, deterring unsupervised travel by teenagers 
poses a tremendous challenge as we have to strike the right balance 
between customer convenience provided through on-line ticketing and 
kiosk check-in, and the safety and security of our passengers including 
children and teenagers. We rely on the good judgment of our front-line 
personnel to question the age of any customer who appears to be too 
young to travel unaccompanied, and, as outlined above, have training 
procedures in place to ensure that our front-line personnel are 
equipped with the tools they need to prevent travel by an unauthorized 
unaccompanied minor.

    Question 3. In 2007, at Delta Airlines, how many flight delays and 
cancellations were caused by airline crew problems including, but not 
limited to, duty time requirements? How does this data compare to 
historical crew duty time related disruptions? What is Delta doing to 
improve crew member related flight delays and cancellations?
    Answer. While it is difficult to measure precisely the number of 
delays we can attribute directly to crew rest requirements, and while 
those that we can attribute directly comprise a very small percentage 
of the total number of delays we sustained (between 6-9 percent of the 
total), it does appear that we experienced a slightly higher number of 
delays directly attributable to pilot rest requirements this year than 
last. Flight attendant delays directly attributable to crew rest issues 
appear to have stayed the same (approx. 2 percent). As for 
cancellations due to crews timing out, in the New York area airports 
results were mixed--crew-related cancellations were slightly higher in 
July of 2007 vs. July of 2006, but were actually lower in August and 
September of 2007 than they were in August and September 2006.
    Ultimately, passenger delays and cancellations experienced across 
the Delta system in the New York area this year were mostly 
attributable to weather, inefficient management of very congested 
airspace, and inaccurate forecasting from the FAA--not inefficient 
scheduling of crews. On a daily basis, the FAA reported throughput 
rates to our operations control center for the New York region's 
airports that were much higher than the agency was able to execute, 
making it very difficult to predict which flights would operate on time 
and which would not. Ultimately, given the number of systemic delays we 
experienced in the New York area this summer, it is not surprising that 
we saw a slight increase in the number of delays related to crew rest 
issues over last year. Regardless, those increases are symptoms of the 
larger airspace management failure, not the cause.
    We work very hard to ensure that crew rest issues do not lead to 
delays or cancellations for our passengers, but it is very difficult to 
schedule flight crews to account for systemic delays. Ultimately, if a 
crew cannot legally complete the leg it is scheduled to fly it must be 
removed from a flight for FAA-required rest. We are taking steps we can 
to mitigate the impact of crew rest issues by hiring additional pilots 
and flight attendants to ensure we are adequately staffed, but 
ultimately until the airspace management issue is fixed we will not be 
able to plan with a high degree of accuracy to account for systemic ATC 
delays that will extend the crew duty day.

    Question 4. While nearly full aircraft are good for the airline 
business, they can cause problems when trying to rebook passengers 
after flight cancellations. What role did passenger load factors play 
in the summer travel season and how do 2007 load factors compare to 
previous years at Delta?
    Answer. Delta's load factors were between 3 percent and 5 percent 
higher in 2007 than they were in 2006, with the New York area airports 
seeing the greatest increase. However, this is not an unanticipated 
issue--nor was it the cause of delays and cancellations we saw over the 
summer. For over 10 years the FAA and others in the aviation industry 
have been projecting a steady increase of passengers desiring to fly, 
and yet the Nation's air traffic control infrastructure is still 
operated with analog communications and radar-based navigation that has 
not permitted a commensurate expansion of airspace capacity. This means 
that to meet passenger demand, we have to operate our flights with more 
people onboard, and it also means that when we face delays and 
cancellations it is more difficult to recover and rebook inconvenienced 
passengers. Ultimately, with the dramatic increase of non-commercial 
high performance jet traffic in New York we have seen (a full 47 
percent of New York TRACON activity is noncommercial) an ineffective 
FAA management of the New York airspace, and delays and congestion have 
been inevitable and recovery from such delays is much more challenging. 
Delta is doing its part to reduce the causes for delay and congestion 
that we can control, especially in the New York airspace, including 
reducing the number of our operations at JFK during the peak afternoon 
travel period and increasing the size of aircraft we operate in the New 
York market. But, there is only so much we can do. The FAA must address 
the core issues of antiquated air traffic control infrastructure and 
ineffective airspace management so that passenger demand can be met and 
delays and congestion can be significantly reduced.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Captain Joe Kolshak
    Question 1. According to the Inspector General's report, Delta Air 
Lines has not provided a time to deplane passengers stranded on 
departures or arrivals, why?
    Answer. Several factors generally contribute to the instances in 
which passengers face extended tarmac delays. Those include unusual or 
severe weather patterns, Air Traffic Control (ATC) delays and resulting 
directives, localized ATC system failures and related airport and 
airspace capacity challenges. These are usually beyond the control of 
individual airlines, they change rapidly and continuously, and they are 
exacerbated by the fact that our national airspace ATC system is built 
on outdated technology that was deployed decades ago, artificially 
restricts airspace capacity, and is in desperate need of replacement. 
In order to respond to these factors in a manner that serves our 
passengers and our operations most effectively, air carriers currently 
have and must maintain the operational flexibility to respond to each 
of these situations on a case by case basis.
    Delta has developed and implemented a two-pronged strategy for 
dealing with extended tarmac delays. Our Operations Control Center 
(OCC) conducts extensive morning, afternoon, and evening operational 
planning sessions to identify potential weather systems, reroute 
aircraft, and selectively reduce or cancel flights and rebook affected 
passengers to ensure the greatest number of passengers arrives at their 
final destinations. This generally results in less significant impact 
on Delta's passengers when extreme weather events occur. For example, 
during the 2007 Valentines' Day ice event that hit New York City we 
canceled nearly 81 percent of the 167 operations scheduled, rather than 
seeking to operate those flights and leaving passengers stranded on the 
tarmac. Of the small fraction we operated that took lengthy tarmac 
delays, the majority of those were international flights whose 
passengers would have been even more inconvenienced had the flights 
been canceled and had they had to wait for days to be able to board 
other flights to their overseas destinations.
    We proactively notify passengers of any schedule changes, provide 
additional onboard provisioning, continuously update passengers on the 
status of delays, and automatically re-accommodate them on other 
flights as quickly as possible when necessary. Operationally, we track 
each of our aircraft to determine if, despite our proactive planning 
efforts, any flights experience significant delay after departing a 
gate or landing. Our OCC seeks accelerated resolution of delays that 
last for an hour or more on arrival or 2 hours on departure, and alerts 
Delta's senior management to any delay that exceeds 2 hours in order to 
identify additional steps that may be taken to resolve the delay, 
including communication with other carriers, the FAA, or the relevant 
airport's senior management.
    Especially in the case of unexpected delays, the dynamics of each 
flight's situation change rapidly. Delays that are originally expected 
to be thirty minutes can often turn into an hour or longer. For 
example, after the June 8 localized FAA ATC computer system shut-down, 
multiple Delta flights bound for New York's JFK airport experienced 
delays upon landing over 2 hours because of the ATC-induced gridlock at 
the airport--there simply were no available gates in which to deplane 
those passengers. Similar results occur during unexpected severe 
weather events, congestion-related ATC delays, and responses to 
security incidents, where the FAA permits inbound aircraft to land but 
does not permit outbound aircraft to take off.
    In those cases, we are faced with deciding whether to hold outbound 
aircraft at their gates and prevent inbound passengers from deplaning; 
allowing passengers to board and depart from their gates with increased 
fuel and provisions and informing them that tarmac delays are likely; 
or canceling outbound flights. Because in 98 percent of the instances 
where the FAA institutes Ground Delay or Stop Programs they are amended 
or canceled early, the least disruptive operational decision is usually 
to allow passengers to board and the aircraft to depart, and to keep 
passengers updated as to the status of their flights. However, because 
these situations are so fluid, we must have the operational flexibility 
to respond to each situation individually so that we can ensure that 
the greatest number of passengers, crews, and equipment arrive safely 
at their destinations.

    Question 2. What length of time does Delta Air Lines feel is 
reasonable to keep passengers on a plane without the option to deplane?
    Answer. Delta's Operations Control Center (OCC) monitors the status 
of every Delta flight that experiences an extended on-board delay and 
notifies Delta officials of any delay lasting longer than an hour upon 
arrival, or 2 hours upon departure, to accelerate a resolution. As I 
mentioned before, we undertake extensive precautions to prevent the 
occurrence of long on-board delays, but in the instances where they do 
occur, they are often caused by a number of factors such as severe 
weather, ATC delays or stops, or system outages, that are outside of 
our control. In light of this variety of factors and the priority we 
place on our passengers' and crews' safety, we firmly believe that we 
need to retain the operational flexibility to make decisions about when 
to de-plane passengers on a case by case basis. Every Delta station has 
developed clear and consistent procedures to ensure safety and limit 
inconvenience during extensive on-board delays. This includes gate and 
ramp sharing with other airlines and making essential services 
available inside the airport. When necessary and operationally safe to 
do so, we will de-plane customers remotely via stairs and guide them to 
the terminal. We will also ensure that the essential needs of 
passengers, such as food, water, restroom facilities, and access to 
medical treatment, is provided during such extended on-board delays.

    Question 3. Since Delta has not defined a time-frame appropriate 
for deplanement, do you feel it is up to Congress to set a time-frame 
for deplanement?
    Answer. As I stated previously, Delta takes a variety of steps to 
prevent on-board delays from occurring in the first place. However, in 
the instances where they do occur, they are often caused by a number of 
factors such as severe weather, ATC delays or stops, or system outages 
that are outside of our control and change frequently. An arbitrary 
deadline for deplaning passengers would likely result in significantly 
greater inconvenience for those passengers than permitting carriers to 
retain the operational flexibility to decide to deplane passengers on a 
case by case basis, and should not be established by Congress or by 
regulation.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Captain Joe Kolshak
    Question 1. What is your company doing to address flights that are 
regularly delayed (more than 50 percent of the time)?
    Answer. Delta invests considerable resources in monitoring its 
schedules and operational performance, and in making timely adjustments 
as necessary to ensure that its published schedules reflect, as 
accurately as possible, the most likely actual performance of every 
flight the carrier offers for sale. Delta encourages all of our 
employees to work toward achieving the best on-time record in the 
industry by offering financial incentives for both management and front 
line employees tied specifically to the on-time performance of the 
network. It is a constant focus of attention for senior management. 
When the Network Systems group identifies flights that are not 
delivering consistent on-time performance in its daily data analysis, 
it tries to identify the source of the problem so that the proper 
operational group within Delta can address it. For example, if a flight 
consistently departs on time but frequently arrives late, that 
indicates that the block time estimate may be too short. The proper 
solution may be to expand it accordingly. On the other hand, if the 
block time estimate accurately reflects the actual block time 
performance of the flight but the flight is regularly failing to depart 
on time, that indicates there may be operational issues to resolve--for 
example, there may not be enough time allowed in the schedule for 
aircraft turns, or there may be some problem at a prior station 
resulting in delayed arrivals of aircraft or crew. Sometimes, these 
issues can be addressed on an operational level; sometimes they require 
adjustments to the schedule to reflect a later departure time. Each 
flight must be addressed based upon the specific factual context of the 
individual flight. Often, the problem is a combination of these 
factors, and may take time to resolve. It is a major operational 
priority for Delta to diagnose and solve these problems as promptly as 
reasonably possible, and we are actively working toward that end for 
any flight identified as regularly consistently delayed. I must note, 
however, that this summer's significant increase in delays, 
specifically in the New York area, were directly attributable to 
weather and inefficient management of the New York airspace, over which 
carriers had very little if any control and for which consistent 
planning and execution of reliable block time was nearly impossible. 
Because of the airspace management issues, the actual operational 
capacity of each of the three major commercial airports in the New York 
area (EWR, JFK, LGA) was significantly below the FAA's published 
capacity levels.
    Further, only 53 percent of the operations in the New York TRACON 
were comprised of commercial traffic. We are certainly doing everything 
we can to reduce the number of flights subject to chronic delays, 
including all of the steps I outlined. However, it is incumbent on the 
FAA and DOT to eliminate the airspace management inefficiencies and 
return the airports' capacity to their historic and very attainable 
levels, otherwise it will be very difficult to meet passenger demand 
for the New York area airports without seeing these sorts of delays 
repeated--which is unacceptable from our standpoint.

    Question 2. Do you currently inform customers before purchase of a 
fare whether any leg of their itinerary is regularly delayed (more than 
50 percent of the time)?
    Answer. Upon request, Delta provides customers with the on-time 
performance of any flight about which the information is sought.

    Question 3. Does your company schedule below the maximum number of 
operations provided by the FAA's Aviation System Performance Metric at 
each airport where your company operates?
    Answer. Yes, although the FAA's published performance metrics were 
significantly out of alignment during certain times of the day and year 
in certain regions of the country (New York's airports, in particular) 
with the agency's actual throughput. As I think I mentioned in my 
testimony, the FAA publishes a 100 operations per hour target for JFK, 
during our daily calls tells the Delta Operations Control Center on 
average that the airport can handle 84 operations per hour, and yet the 
agency only produces 68 operations per hour on average. This reduction 
in actual throughput resulted in the significant increase in delay and 
congestion we and our customers experienced this year.

    Question 4. Given the complex logistics of commercial airline 
operations, do you believe that after a certain amount of time, 
passengers should be given the option to deplane a departing flight 
that has backed away from the gate but has not yet taken off? If so, 
what is an appropriate time limit? Should this be a Federal standard or 
guideline or should carriers be allowed to set and publish their own 
policies? If not, why not?
    Answer. Delta takes a variety of steps to prevent on-board delays 
from occurring in the first place. In the instances where they do 
occur, they are often caused by a number of external factors. These 
include severe weather, ATC delays or stops, or system outages that are 
outside of our control and change frequently, and our flight crews and 
OCC dispatchers work continuously to mitigate such uncontrollable 
delays. In a delay situation where a safety or medical issue requires 
passengers or flight crews to deplane, we will do everything we can to 
facilitate their getting off the aircraft safely. Although going back 
to the gate to allow a passenger to deplane puts the remainder of 
passengers on the plane at the back of the line behind other delayed 
aircraft, if a passenger absolutely demands to get off the aircraft in 
the absence of a safety or medical issue, we will also do everything we 
can to accommodate his or her request. However, setting an arbitrary 
deadline for deplaning passengers would likely result in significantly 
greater inconvenience for those passengers than permitting carriers to 
retain the operational flexibility to decide to deplane passengers on a 
case by case basis, and should not be established by Congress or by 
regulation.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          Captain Joe Kolshak
    Question 1. What impact did the September 25, 2007 shutdown of 
Memphis Air Traffic Control systems have on your business?
    Answer. The Memphis ATC shutdown impacted our operation minimally, 
but it did have an impact and highlights the importance of modernizing 
our ATC system as quickly as possible. Our overall on-time arrival rate 
was down slightly as a result of the shut-down, but we took very few 
diversions (two) or cancellations (eight). Although we were able to 
route around the impacted area successfully in order to bring our 
flights to their destinations, we burned more fuel as a result making 
the operation more costly to us than it otherwise would have been. Only 
fourteen flights were delayed longer than 2 hours.

    Question 2. How did your airline react to meet the needs of your 
customers during the Memphis shutdown?
    Answer. Again, the impact to our operation was minimal. To the 
extent that passengers were impacted by delays or diversions, Delta 
professionals at airports, in the OCC, and in our Reservation Sales 
department worked hard to ensure they were re-accommodated and their 
travel needs were met quickly and consistently with our Customer 
Service Commitment. Since the shutdown occurred without any advance 
notice, most customers were already at the airport or onboard airplanes 
when the delays, cancellations, and diversions occurred. At all 
locations, Delta made timely announcements regarding the status of 
impacted flights to keep everyone informed with the most current 
information available. In cases where customers' flights were canceled 
or if customers missed their connecting flights due to a flight delay, 
we rebooked them on the first available Delta flights to their 
destinations. In these situations we were also able to identify any 
disabled customers, customers with special needs, or children traveling 
alone to ensure their needs were met.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                               Zane Rowe
    Question 1. This summer, a 15-year-old Alaskan girl from Juneau 
boarded a plane and flew to Seattle without her parents' permission in 
an effort to meet someone she met over the Internet. The incident 
exposed what I would consider a potential loophole concerning air 
travel and children between the ages of 13 and 17.
    What is Continental Airlines policy on allowing teenagers between 
the ages of 13 and 17 to travel and purchase tickets without parental 
consent? What specific policies does Continental have in place to deter 
unsupervised teenage travel and ticket purchase? What steps do you 
believe could be taken by the industry, as a whole, to address 
unsupervised teenage air travel and ticket purchase?
    Answer. In light of the situation that happened this summer 
Continental is reviewing how it could provide more protections for 
unaccompanied minor passengers.
    Having said that, Continental believes there are safeguards already 
in place that help prevent unaccompanied minors from traveling without 
the consent of an adult. First off, Continental requires a valid form 
of payment which most often is a credit card including the credit card 
number, expiration date and the card's three digit customer 
identification number. Generally speaking, Continental believes that 
parents and/or legal guardians have the responsibility of safeguarding 
credit card and other financial documents such that a young person does 
not have ready access to this payment option. For Continental, 94 
percent of all domestic sales are made with a credit card and 98 
percent of all domestic Internet sales (continental.com and other on-
line distribution channels) are made with a credit card.
    Secondly, Continental ticketing agents require a valid form of 
identification in the form of a driver's license, identification card 
or passport prior to checking-in a passenger. At this point, the agent 
can flag an unaccompanied minor and unless the minor has their legal 
guardian present to fill out required documentation, Continental will 
not accept a young minor for travel. This secondary identification 
check can also occur at the TSA security checkpoint where passenger 
identification is being matched to information on the printed boarding 
pass.
    Continental considers an unaccompanied minor to be any passenger 
between the ages of 5 and 14 (Continental does not accept passengers 
under the age of 5 without legal guardian) traveling alone. So, when a 
passenger has shown their form of identification and is younger than 15 
years old, Continental's policy requires parental/legal guardian 
consent and proper documentation before the passenger can travel. In 
addition, Continental policy states that unaccompanied minors will be 
in the presence of a Continental employee at all times of travel at the 
origin airport, on the aircraft, when making connections at the hub and 
at the destination airport. Continental requires that a child's legal 
guardian supply the name, address and telephone number of the adults 
accompanying the minor to the departure airport and those individuals 
that will be meeting the minor at the destination airport. A 
Continental employee will not release an unaccompanied minor to the 
meeting party until an identification match is made with the meeting 
party. Unaccompanied minor information is documented in the minor's 
itinerary and on paperwork that remains with the child through the 
journey.
    Presumably the restrictions placed around the financial transaction 
of the ticket and the check-in/identification check at the airport are 
such that minors traveling without the consent of a legal guardian are 
the very rare and extreme cases.

    Question 2. In 2007, at Continental Airlines, how many flight 
delays and cancellations were caused by airline crew problems 
including, but not limited to, duty time requirements? How does this 
data compare to historical crew duty time-related disruptions? What is 
Continental doing to improve crew member related flight delays and 
cancellations?
    Answer. Typically Continental reports delays and/or cancellations 
per DOT guidelines which classify delays into five categories that 
include air carrier delays (delays that an airline is responsible for), 
security delays (holding flights for passengers delayed in processing 
through TSA security check-points), extreme weather delays, national 
aviation systems delays (delays due to FAA air traffic control 
management) and the final category is delays due to late arriving 
aircraft, either due to a previous delay under the airline's control or 
not.
    For the period January through August 2007, DOT statistics show the 
category of delays specifically due to airline management total only 29 
percent of all delays. For DOT Continental data, delays under the 
airline's control represent 18 percent of total Continental delays.
    Continental's internal reports for January through September 2007 
show that Continental experienced a total of 15,675 flight delays due 
to crew problems. These delays represent only 5.0 percent of 
Continental scheduled flights and are down from 2006 where crew delays 
were 5.3 percent of Continental scheduled flights. In 2007 the average 
crew delay was approximately 24 minutes in duration. During FAA's JFK 
schedule reduction meetings occurring the week of October 22, 2007, the 
carriers were informed that FAA modeling shows JFK taxi-out delays due 
to congestion average 22 minutes, or basically the same duration of a 
Continental delay due to crew problems. Crew scheduling problems 
account for a small percentage of delays under Continental's control 
and the delay incurred by crew delays is generally no longer than a 
delay incurred due to air traffic management in the most congested 
airspace in the country--New York/New Jersey. While Continental, as 
noted below, continues to take measures to reduce delays under the 
airline's control--crew scheduling or otherwise--real and meaningful 
efforts should be made by the U.S. Government to address New York/New 
Jersey air space congestion to improve delays due to ATC management.
    As for cancellations, Continental experienced just 215 
cancellations due to crew problems for the first 9 months of 2007. 
These cancellations represent less than 1.0 percent of all Continental 
scheduled flights. Said another way, only one of 1,445 flights has been 
canceled this year due to crew problems which is less than one flight 
per day. These numbers are flat as compared to 2006.
    Continental is constantly adjusting its policies and operational 
practices in an effort to improve schedule reliability. Continental has 
made adjustments to its crew scheduling policy so that pilots and 
flight attendants are kept on the same schedule to avoid downline 
connecting crew delays. In the past, if a flight from Houston to Tulsa 
was to be serviced by a cockpit crew arriving into Houston from one 
city and the cabin crew was arriving into Houston from a different 
city, the Tulsa bound flight would be held for both crew types arriving 
at the hub on two different flights from two different cities.
    Today, once the crew (all together) arrives into Houston they can 
be expedited to the Tulsa flight and the aircraft can depart. And while 
having the Tulsa flight be delayed is not preferable, knowing where the 
flights' entire crew is located allows for Continental to better 
estimate the crew's arrival into Houston and their departure to Tulsa. 
This better scheduling also allows for better departure estimates for 
the Tulsa flight which translates into greater transparency for the 
consumer. Also, scheduling crews together allows for a full compliment 
to be in one city at the same time, thus if a set of crew members 
arrived into Houston for a later flight they could possibly be 
rescheduled to operate the Tulsa bound aircraft (potentially reducing 
the delay of that flight) and then the late arriving crew could operate 
the other crew's flight, thus reducing the delay of the Tulsa flight 
and maintaining the on-time performance of the second flight. Keeping 
all crews on the same schedule allows for improved tracking, 
scheduling, rescheduling, on-time performance and transparency for the 
consumer.
    Continental, to the extent possible, schedules pilots and flight 
attendants with the same aircraft throughout their workday. When it is 
possible to do so, having the crew and aircraft together in the same 
location improves schedule reliability by reducing the need to 
coordinate crew on the one hand and aircraft on the other hand. Tying 
crews to aircraft is not always possible given unique situations that 
may come about in the network. For example, a 737 and crew arriving 
into Houston from Tulsa might be split apart as the 737 is the right 
aircraft to accommodate consumer demand to fly to Mexico City but the 
inbound cabin crew from Tulsa does not have a Spanish speaking 
translator among them. Given Continental provides foreign language 
speaking cabin crews on international flights, the aircraft in Houston 
going to Mexico City will get a different crew that has a translator. 
This is just one example of why it is not always possible to coordinate 
crew and aircraft 100 percent of the time.
    In certain ``trouble spots'' around the Continental system, such as 
at Newark, Continental has increased crew scheduling buffers for late 
night flights, which while reducing productivity and increasing layover 
time, reduces crew rest delays for the next morning's flights. 
Continental has found that the costs associated with increasing down 
time for overnight stays is offset by the benefit of not having to 
delay early morning flights the next day, which would be the outcome 
otherwise when crews arrive late and need mandatory rest periods.
    Finally, Continental works hard to ensure an appropriate number of 
``reserve'' pilots and flight attendants are ``on-call'' to compensate 
for known and unknown absences. Continental also attempts to prepare 
cockpit crews with needed information, such as flight release 
documents, weight and balance measurements and fuel loading 
instructions well in advance of departure such that the crew can be 
prepared ahead of time and can spot potential problems and get 
corrections made before actual departure time.
    In answering your question about crew related delays Continental 
would be remiss if we did not highlight the main problem of flight 
delays and cancellations which is poor management of the Nation's air 
traffic control system, particularly New York/New Jersey airspace 
management. Continental firmly believes a well funded FAA that has a 
steady and reliable flow of funding based upon an approximation of use 
of the system will allow for ATC technology and management 
improvements. Smarter use of the ATC system leads to greater efficiency 
for the operators in the system and better schedule reliability for the 
users of the system--the passengers.
    Continental continues to be concerned with attempts to derail New 
York City airspace redesign, which the FAA estimates will drive a 20 
percent improvement in the region's flight delays. And what is good for 
the New York/New Jersey region is ultimately beneficial to the entire 
aviation system from the northeast to the northwest given the demand 
for air travel to/from the region and the corresponding number of 
aircraft operating in and out of New York City area airports.
    Of equal concern to Continental are ``cosmetic'' NY/NJ delay/
congestion fixes currently under consideration by the Administration 
including congestion pricing. Congestion pricing only adds unnecessary 
taxation to the passenger who uses NY/NJ area airports. Basically 
congestion pricing says the Administration has failed to meet the 
challenge of managing air space effectively to meet market demand. 
Instead, the Government is saying it wants to try to impact consumer 
demand, take away consumer choices and competition and threaten true 
market economics.

    Question 3. While nearly full aircraft are good for the airline 
business, they can cause problems when trying to rebook passengers 
after flight cancellations. What role did passenger load factors play 
in the summer travel season and how do 2007 load factors compare to 
previous years at Continental?
    Answer. Continental just recently announced a record summer (July, 
August, and September) 2007 mainline load factor (LF) of 84.3 percent. 
Record load factors are not a bad thing--they are testimony to the fact 
that Continental is appropriately allocating its assets in such a 
manner that the traveling consumer is able to take advantage of safe, 
reliable and quality air service. Full airplanes are a sign that our 
passengers like our service and that the Nation's travel needs are 
being met.
    While summer 2007 load factors were a record for the airline, it 
should be noted 2007 was only 1.6 percentage points above the same 
period in 2006 whose load factor was 82.7 percent. For 2005, 2004 and 
2003 Continental's mainline load factors were 81.7 percent, 81.5 
percent and 80.0 percent respectively. Over a 5-year period of time 
Continental's load factor has grown 4.3 percentage points or just under 
1 percentage point per year. Looking at load factor on a year to year 
to year basis the increases have not caused insurmountable challenges 
in reaccommodating passengers when conditions dictate such practice. 
Rather, Continental's customer load is increasing at a manageable rate.
    Continental's load factor has not increased on flat capacity. The 
airline has been growing and adding more seats in the marketplace, 
which allows for new passengers to fly on Continental and the growing 
capacity helps when room is needed to rebook passengers off of a 
previously canceled flight.
    During the summer of 2007 Continental operated 27.1 billion 
available seat miles (ASM). An ASM is a measure of airline capacity and 
it is a factor of the number of seats flown and the distance the seats 
are flown. The 2007 number is a 5.4 percent increase over 2006 at 25.7 
billion ASM. The year over year increases in ASM from 2006 to 2005, 
2005 to 2004 and 2004 to 2003 respectively are 8.6 percent, 7.9 percent 
and 7.0 percent which shows capacity continues to be added in the 
market.
    One of Continental's ``best practices'', as recently noted by the 
DOT IG audit in its report on ``Actions Needed To Minimize Long, 
Onboard Flight Delays'', is to pre-cancel flights such that the airline 
is not going into a known major weather or ATC event operating a 
schedule that in all practical terms could not be operated. Continental 
precancels flights to thin operations during thunderstorm activity, 
heavy snow/rain, fog, icing events or when the FAA has or will be 
taking steps to reduce ATC capabilities. These pre-cancellation events 
start happening at the point Continental is sure an event such as 
weather or ATC slow downs are going to impact the airline's operation, 
be it days in advance of an event or hours prior to a flight departure, 
as Continental does not cancel flights without good reason.
    While there is an inconvenience of canceling a passenger's flight 
and re-accommodating the passenger for future travel, it is the right 
thing to do when considering the other option is a full aircraft 
backing off the gate, or arriving at an impacted airport, that is 
operating at a level of efficiency far below normal only to have the 
plane sit for hours while waiting for a potential take off slot or free 
gate to taxi into. And practically speaking, airports close on their 
own due to weather or other major events and the FAA or other 
governments can shut down airspace such that airlines are forced to 
cancel flights.
    Pre-canceling flights gives Continental additional time to 
reaccommodate passengers ahead of a major weather event, it gives the 
airline and consumer more time to look for other travel options and 
precancellations prevent customers from having to make the frustrating 
trip to the airport only to have their flight canceled. Continental 
will try to avoid canceling the last flights of the day in any 
particular market which allows the airline opportunities to re-book 
passengers on later flights during the same day and Continental will 
try to avoid canceling flights in markets that only have one flight. 
Continental will not ``bump'' a passenger on a future flight to re-book 
a passenger from a previously canceled flight as this would cause 
additional customers to be inconvenienced.
    Continentals' pre-cancellation practice works because of the 
coordination that occurs with Continental's operations centers, 
customer service and reservations groups. As soon as a decision is made 
to cancel a flight, Continental's reservations and customer service 
groups immediately begin their service recovery efforts by contacting 
passengers at home and through the passenger's preferred means of 
contact to reaccommodate for future travel.
    Just like it has a strategy for pinpointing which flights to 
cancel, Continental also has a series of ``steps'' it works by when 
rebooking passengers regardless of the reason the flight was canceled 
or when it was canceled. Continental will first attempt to 
reaccommodate passengers on Continental flights to the passenger's 
intended destination point, or when possible and per the customer's 
approval, to another point within the same metropolitan area the 
passenger was originally traveling to. For example, should a future 
flight to Los Angeles LAX be full on a particular day the passenger 
would like to travel (when being re-booked) and should there be 
availability on a flight to Orange County which is in the Los Angeles 
Metropolitan area, the passenger may be reaccommodated to Orange County 
pending the passenger's approval.
    Continental will make every best effort to reaccommodate passengers 
on Continental flights, but should another airline have availability 
that meets the immediate needs of the passenger, Continental may rebook 
the passenger on another airline per the passenger's request. 
Continental has provided evidence of re-booking passengers to other 
airlines in recent communications with the DOT IG's audit of events 
that occurred during extreme weather in Texas in December 2006. Also, 
Continental's Customer First Commitments indicate the airline will 
reaccommodate passengers to other airlines pending circumstances and 
ticketing rules. Finally, Continental may waive ticket change fees when 
reaccommodating passengers due to cancellations and may also give 
passengers the opportunity to receive a full refund should the 
passenger not want to travel at a later date.
    As Continental did during the Denver December 2006 blizzards and at 
Cancun during the evacuation of passengers post Hurricane Wilma, 
Continental, and pending aircraft availability and other operational 
constraints, will add additional frequencies in markets and/or upgauge 
existing aircraft to help transport passengers that have been affected 
by continuous cancellations. It is important to note, however, that 
upgauging and additional flights may not always be possible as 
Continental at any given point is utilizing nearly its entire fleet to 
operate the flight schedules passengers demand.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                               Zane Rowe
    Question 1. What is your company doing to address flights that are 
regularly delayed (more than 50 percent of the time)?
    Answer. DOT defines chronically delayed flights as flights which 
operate at least 45 times in a 90 day period within a 15 minute 
departure range and which arrived more than 15 minutes later than 
published arrival time for 70 percent of the 90 day period.
    Airlines report delays and/or cancellations per DOT guidelines 
which classify delays into five categories that include air carrier 
delays (delays that an airline is responsible for), security delays 
(holding flights for passengers delayed in processing through TSA 
security check-points), extreme weather delays, national aviation 
systems delays (delays due to FAA air traffic control management) and 
the final category is delays due to late arriving aircraft, either due 
to a previous delay under the airline's control or not. For flights 
that fit the DOT definition and/or for flights that are delayed less 
frequently (you ask about 50 percent of the time), Continental is 
taking different actions to improve schedule reliability regardless of 
whether the delay is under the airline's control or not.
    In cases where airline management has caused a delay, such as crew 
scheduling, Continental has taken steps to address delay causing 
problems. For example, Continental has adjusted crew scheduling 
policies so that pilots and flight attendants are kept on the same 
daily schedule which helps to avoid downline connecting crew delays--
having to hold a flight while the cockpit crew arrives from one city 
and the cabin crew arrives from another city. When possible Continental 
will also tie crews to aircraft for an entire operational day which 
eliminates delays resulting from an aircraft being located in one city 
and crew in another city and the customers having to wait for the 
airline to pair up crew and aircraft. In certain ``trouble spots'' 
around the Continental system, such as at Newark, Continental has 
increased crew scheduling buffers for late night flights, which while 
reducing productivity and increasing layover time, reduces crew rest 
delays for the next morning's flights. Finally, Continental works hard 
to ensure an appropriate number of ``reserve'' pilots and flight 
attendants are ``on-call'' to compensate for known and unknown 
absences.
    Continental is also taking measures to improve flight on-time 
performance, to the extent possible, when flight delays are caused by 
external factors such as FAA Air Traffic Control (ATC) management. 
Airports in the New York/New Jersey region are the most delayed 
airports in the country, with Newark (Continental's hub airport) being 
the No. 1 most delayed airport. Continental is therefore an active 
participant in DOT's New York Aviation Rule Making Committee (NYARC) 
process and advocates for operational and technical fixes for the 
region's delay problems. Some of these fixes can be implemented 
immediately such as using both runways at Newark for arrivals (using a 
procedure called RNAV) when airport conditions permit such operations. 
Another operational enhancement that would generate near term results 
includes utilizing new technology that helps controllers line up 
incoming aircraft so that they can safely land on converging runways at 
NYC airports, thus reducing inbound delays. This software and equipment 
is in use at other airports around the country and could be used at NYC 
as well. (Continental provided a full list of operational enhancements 
for addressing New York/New Jersey delays with our written testimony 
previously submitted to the Committee).
    The issue at New York/New Jersey is an airspace management problem, 
and therefore cosmetic fixes being considered by the Administration 
that only work to artificially suppress consumer demand (and do not 
address underlying airspace management problems) such as congestion 
pricing, slots or caps won't work. Continental continues to urge the 
FAA to treat delay problems as a regional issue, to make sure any 
solution applied at JFK be equally applied at Newark and to proceed 
immediately with operational enhancements and NYC Airspace Redesign 
which FAA itself estimates will improve regional delays by 20 percent.
    Having said all of this, Continental is not standing by waiting for 
policy changes to take effect. Continental has done a number of things 
and has spent millions of dollars to improve Newark on-time performance 
which ultimately has positive affects across the airline's entire 
network. Continental has historically scheduled its Newark hub below 
FAA recommended flight levels (including other airline schedules), 
Continental depeaked the Newark hub years ago to allow for a more even 
flow of flights throughout the day as opposed to scheduling groups of 
flights at specific times, Continental has hired additional specialists 
at the airline's operations center and Newark ATC tower to better 
coordinate activity between the airline and the FAA and Continental has 
pioneered off shore departure routings that allow aircraft to depart on 
time over the Atlantic and then circle around congested NYC airspace to 
the south and west. These offshore routings are more expensive 
considering their increased crew time and fuel requirements, but 
overall provide the benefit of schedule integrity and getting customers 
where they need to go as expeditiously as possible. Continental has 
also increased flight times (which again allows for greater schedule 
integrity despite the additional costs of increased flight times) and 
Continental has retimed delay-proned arrivals into Newark to arrive 
later at night when there are less flights in the region.

    Question 2. Do you currently inform customers before purchase of a 
fare whether any leg of their itinerary is regularly delayed (more than 
50 percent of the time)?
    Answer. As noted in Continental's Customer Service Commitment No. 
2, Continental will inform customers of flight on-time performance when 
the customer calls Continental reservations and inquires as to flight 
performance. Customers can also find current days, previous days and 
next day's flight on-time status via continental.com.
    Continental notes the DOT Inspector General's recent recommendation 
that carriers should provide historical flight on-time performance on 
carrier websites and Continental is currently considering this 
recommendation and how best Continental could provide such information 
on our website.
    With the potential capability to view historical flight information 
on the airline's website and the fact Continental currently discloses 
flight information when prompted by the consumer via airline 
reservations, Continental does not believe providing flight on-time 
performance via telephone reservations without being prompted by the 
consumer would be necessary.

    Question 3. Does your company schedule below the maximum number of 
operations provided by the FAA's Aviation System Performance Metric at 
each airport where your company operates?
    Answer. Where Continental has a large share of total airport 
operations, which is at our hubs at New York/Newark, Cleveland and 
Houston, the airline generally schedules at or below FAA's management 
capabilities.
    As noted in Question 1, Continental has historically scheduled the 
airline's Newark hub below FAA operational capabilities and has 
considered other airline operations in setting its schedule for Newark. 
There is no doubt Continental has been a good policing agent in 
ensuring Newark does not experience uncontrolled growth while other 
carriers have pursued irrational scheduling at New York JFK. There is 
also no doubt that unless the Administration takes a regional approach 
to New York/New Jersey delays and treats Newark like JFK by either 
capping or slotting Newark, then Continental's capability to control 
Newark operations will be lost due to a flood of flights from airlines 
that have been restricted at JFK. Governing officials simply must not 
push the JFK delay problem to Newark and the only way to do so is to 
manage the situation at the regional level and implement measures at 
all three New York/New Jersey airports and Teeterboro.
    In Cleveland and Houston, Continental's schedules for both airports 
are below the benchmark capacity.

    Question 4. Given the complex logistics of commercial airline 
operations, do you believe that after a certain amount of time, 
passengers should be given the option to deplane a departing flight 
that has backed away from the gate but has not yet taken off? If so, 
what is an appropriate time limit? Should this be a Federal standard or 
guideline or should carriers be allowed to set and publish their own 
policies? If not, why not?
    Answer. Continental is committed to accommodating the needs of 
customers on aircraft that are experiencing unusually long delays on 
the ground without access to the terminal. Specifically, Continental 
commits to undertake every reasonable effort, without ever sacrificing 
the safety of our passengers and crew, to provide food, water, restroom 
facilities and access to medical treatment for passengers onboard an 
aircraft that is on the ground for an extended period of time without 
access to the terminal.
    Continental has committed to the process and procedures of its 
Customer Service Commitment No. 8--``Essential Needs Onboard the 
Aircraft During Long Delays'' when aircraft are being delayed beyond 2 
hours or, in some cases, before the 2-hour mark. The decision to 
implement the processes and procedures in Commitment No. 8, as further 
outlined below, is made across many internal work groups and many 
levels of station and headquarters management, including the most 
senior airport services and operational corporate officers. Such 
decisions are made in conjunction with Continental's System Operations 
Coordination Center (SOCC), the local Continental airport management, 
Continental Airlines corporate office management, the pilot in command 
of the aircraft and potentially FAA/ATC control.
    When a ground delay event occurs Continental's SOCC will initiate a 
number of steps to protect our customers. As noted above and documented 
in the Customer Service Commitments, at the 2-hour mark, or potentially 
earlier, SOCC will contact the pilot and local station management to 
determine if take-off is imminent and if not, then decisions will be 
made to provide passengers the provisions we commit to and/or to safely 
deplane passengers at a remote parking spot or at the terminal. 
Continental has a plan in place that says even at the 2-hour mark, we 
will evaluate each specific situation and commence deplaning if 
appropriate rather than holding passengers on the aircraft.
    If the ground delay is expected to exceed 3 hours, the 
communication process is elevated to the senior management level. This 
is done by a pre-established system of communication between 
operational managers and senior officers such that when delays hit 3 
hours, messages are sent to internal e-mail group boxes that are 
regularly monitored and are flagged with such language as ``delays 
increasing'' or ``delays decreasing''. At this three-hour point, a 
coordinated decision is made whether to continue with the flight as 
``live'' or to begin safely deplaning passengers at a remote parking 
spot or at the terminal.
    When the ground delay is expected to hit 4 hours, and unless take-
off is deemed imminent, actions will be taken to deplane the passengers 
at a remote parking spot or at the terminal as soon as practicable. As 
the policy indicates, when a flight's ground delay reaches 3:45 the 
SOCC operations director will issue a message that advises ``delay 
approaching 4 hours'' and will communicate with all necessary 
stakeholders to determine if departure is imminent, and if not, how to 
proceed with deplaning the customers. So in other words, unless the 
plane is expected to depart within a reasonable period of time of the 
fourth hour of delay, Continental will make every best effort to 
deplane passengers remotely or to return the aircraft to the terminal 
as soon as practicable.
    Continental also tailors its plan to accommodate for arriving 
aircraft versus departing aircraft.
    Continental is in the business of flying customers safely and 
securely from one point to the next, on time and as scheduled. It is 
unfortunate that external events such as an inefficient air traffic 
control system can sometimes impact all airlines' ability to operate on 
schedule but Continental works to limit the burden to the passenger as 
much as possible.
    Because it is difficult to predict the impact of external events 
(like weather and air traffic control volume) and because each flight 
is unique in its destination and duration, Continental believes it 
would be a bad decision to cancel a flight that has been delayed for 
two, three or 4 hours when that flight is very likely to depart within 
a reasonable period of time. The result of a hard limit (or premature 
cancellation) would be that an entire plane load of passengers would be 
stuck in the location where they boarded the plane which is inevitably 
worse than the decision to hold for a departure that is expected 
shortly. Continental is concerned that a ``one policy fixes all 
circumstances'' or a rigid policy that requires an airline to deplane 
passengers at a remote parking spot or to return to the terminal after 
a pre-determined delay interval could be more customer un-friendly with 
severe negative impacts (e.g., families and individuals caught in 
remote locations with no or limited overnight accommodations) than if 
the flight were able to sit for a short period longer and the 
passengers were flown to their intended destination.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                               Zane Rowe
    Question 1. What impact did the September 25, 2007 shutdown of 
Memphis Air Traffic Control systems have on your business?
    Answer. The impact to Continental was minor, relative to other 
airlines who have greater volumes at Memphis, or who have hubs closer 
to the Memphis ATC.
    That said, several of our airborne flights took en route delays as 
FAA routed aircraft around the affected air space. Continental also 
took some pre-departure delays to board additional fuel for aircraft 
whose flying time was increased due to the re-routes. Finally, we had 
approximately five aircraft in the process of taxiing before departure 
when the Memphis shutdown occurred, and these aircraft had to return to 
the gate to board more fuel.
    The shut down of Memphis ATC operations is illustrative of the 
precarious state of the Nation's air traffic control system and the 
need for modernization of the FAA ATC system. Continental firmly 
believes a well funded FAA that has a steady and reliable flow of 
funding based upon an approximation of use of the system will allow for 
ATC facility, technology and management improvements.

    Question 2. How did your airline react to meet the needs of your 
customers during the Memphis shutdown?
    Answer. As noted in responses above, Continental has a number of 
customer service commitments and operational policies that provide 
protections to the consumer during delay events, despite the cause of 
the delay.
    Continental will provide real time flight status information to 
consumers via our website or through Continental reservations for 
passengers not already at the airport. Continental airport agents are 
trained to provide flight status updates approximately every 20 minutes 
in gate boarding areas to keep passengers at the airport updated as to 
the status of their flights and the reasons for delays. Continental 
also has a series of processes it will follow to provide essential 
services to passengers onboard aircraft that are experiencing long 
ground delays and Continental will take action at the 4-hour mark, 
unless departure is deemed imminent, to deplane passengers as soon as 
practicable.
    Depending upon the nature and duration of the delay event (and time 
of day of the delay), Continental may provide meal vouchers and hotel 
accommodations to passengers whose flights are delayed.
    Continental may also rebook delayed passengers on later Continental 
flights that meet the customer's travel needs and depending upon the 
situation Continental may rebook passengers on other airlines.
    While unfortunate, the Memphis shut down was treated like any other 
delay event/situation which Continental is well prepared to handle.

                                  <all>

</pre></body></html>
